<html>
<title> - WATER AND POWER BILLS</title>
<body><pre>[Senate Hearing 111-91]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-91
 
                         WATER AND POWER BILLS

=======================================================================



                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON


            S. 637                                S. 1080

            S.789                                 S. 1453

                                    

                               __________

                             JULY 23, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
53-392                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                   DEBBIE STABENOW, Michigan Chairman

BYRON L. DORGAN, North Dakota        SAM BROWNBACK, Kansas
TIM JOHNSON, South Dakota            JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           JOHN McCAIN, ARIZONA
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
JEANNE SHAHEEN, New Hampshire

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Cantwell, Hon. Maria, U.S. Senator From Washington...............     1
Connor, Michael L., Commissioner, Bureau of Reclamation, 
  Department of the Interior.....................................     6
Garfield, Ryan, Chairman, Tule River Tribe, Porterville, CA......    25
Kasten, Tod, Treasurer, Dry-Redwater Regional Water Authority, 
  Circle, MT.....................................................    16
Sullivan, John F., Associate General Manager, Water Group, Salt 
  River Project, Phoenix, AZ.....................................    32
Tester, Hon. Jon, U.S. Senator From Montana......................     5

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    39

                              Appendix II

Additional material submitted for the record.....................    49


                         WATER AND POWER BILLS

                              ----------                              


                        THURSDAY, JULY 23, 2009

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Maria 
Cantwell presiding.

  OPENING STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM 
                           WASHINGTON

    Senator Cantwell. Good afternoon. We are going to convene 
this Subcommittee on Water and Power of the Energy Committee.
    I thank the Honorable Michael Connor for being here today 
to give testimony to this legislation and to the other 
witnesses who are going to be here.
    It is my pleasure to welcome everyone.
    The bills we are going to cover today are in the area of 
water resource management.
    S. 637, introduced by Senators Baucus and Tester, 
authorizing the construction of regional water systems in 
eastern Montana and a portion of North Dakota.
    S. 789, introduced by Senator Feinstein, requires the 
Bureau of Reclamation to conduct a study of feasibility and 
sustainability of a reservoir that would be a key component of 
an Indian water rights settlement in California.
    S. 1080, introduced by Senators McCain and Kyl, will 
clarify the jurisdiction of the Secretary of the Interior with 
respect to C.C. Cragin Dam and Reservoir in Arizona.
    S. 1453, introduced by Senators Bingaman, Tom Udall, Mark 
Udall, Bennett, and Hatch. I do not know if that has ever 
happened before in that order.
    [Laughter.]
    Senator Cantwell. To maintain base funding for the Bureau 
of Reclamation of the Upper Colorado River and San Juan fish 
recovery programs through 2023.
    These bills involve important issues that impact most 
western States such a rural water supply needs, endangered 
species concerns, and Indian water rights.
    The subcommittee will look closely at these bills and work 
with the sponsoring members to try to make progress toward 
enactment.
    I know my colleague, the ranking member, Senator Brownback, 
will be here shortly, and when he does, we will turn to him for 
his opening statement.
    I see my colleague, Senator Tester, here, and if he would 
like to join us and make comments about this legislation that 
he is here to address, this would be a welcome time for doing 
that. Then at that point, we will turn to Mr. Connor for his 
testimony. Welcome, Senator Tester.
    [The prepared statements of Senators Feinstein, Baucus, 
McCain, and Kyl follow:]
    Prepared Statement of Hon. Dianne Feinstein, U.S. Senator From 
                         California, on S. 789
    Madam Chairman and members of the Subcommittee, thank you for 
taking the time today to hold a hearing on the Tule River Tribe Water 
Development Act, which would authorize a water feasibility study for 
the Tule River Tribe from California.
    California is currently in the third year of a severe drought. 
Drought is cyclical in our State.
    The State needs solutions now to help meet water supply needs for 
agriculture, fish and wildlife, and human use. Without prudent and 
expedient consideration of feasibility studies like this one, the 
situation will only get worse.
    For the Tule River Tribe, the concerns of the future have become 
the reality of today. The Tribe has inadequate water for even the most 
basic daily activities such as drinking, cooking, cleaning, bathing, 
and firefighting.
    This legislation will help the tribe move one step closer to 
realizing its legitimate water rights.
    Specifically, this bill directs the Secretary of the Interior to 
complete and report to Congress on options for a domestic, commercial, 
municipal, industrial, and irrigation water supply for the Tule River 
Tribe.
    In addition, at my request, this legislation prohibits any future 
project relating to the study from providing water for the Tribe's 
casino or other gaming-related activities.
    Identical bipartisan legislation was introduced by my California 
colleagues, Devin Nunes and Jim Costa, in the House of Representatives. 
That legislation passed the House Committee on Natural Resources by 
unanimous consent, and passed the full House by a vote of 417-3 earlier 
this month.
    The Tribe has been in negotiations on this settlement for over ten 
years, signing an agreement in 2007 with all parties except the Federal 
government. While the Federal government was a party to those 
negotiations, the Bureau did not sign the final agreement. When that 
settlement was signed, legislation to provide an authorization for a 
feasibility study was introduced by my colleagues in the House of 
Representatives.
    Subsequently, the Bureau has had ample time to conduct an appraisal 
of the project and to work with the Tribe to reach a conclusion to 
settlement negotiations.
    The Bureau's testimony acknowledges that:

          [T]he Tribe has conducted a substantial amount of technical, 
        planning, and environmental work over the past decade; however, 
        Reclamation has not reviewed these documents nor determined how 
        they may affect the scope, cost, or schedule of a feasibility 
        study.

    This is similar to testimony provided by the Bureau almost two 
years ago during a House Natural Resources Subcommittee hearing in 
September 2007.
    The Department of the Interior and the Tule River Tribe already 
have spent over one million dollars on technical studies and evaluation 
toward completion of the proposed feasibility study. This includes 
extensive research on hydrology, geology, and possible sites for 
storage. It is clear that the Bureau will not move forward without 
Congressional direction.
    A feasibility study authorization from Congress will encourage the 
parties complete settlement negotiations quickly, move forward with a 
plan to bring water to this water-poor region of California, and 
provide the Tribe with the water to which it is equitably entitled.
    This is not a water project that falls under traditional Federal 
water guidelines; rather, it is a resolution of claims by the Tule 
River Tribe for breach by the Federal government of its obligations to 
the Tribe.
    As a result of the Federal government's action, the Tribe has been 
severely constrained by a 1922 agreement and has missed out on its 
water rights for the past 90 years.
    Madam Chairman, it is important to note that the Tule River Tribe 
went about this process in a responsible manner.
    The Tribe did not pursue litigation, but spent ten long years in 
negotiations with the local community and the Federal government. The 
Tribe should be applauded for its efforts and willingness to resolve 
their differences at the negotiating table, not in the courtroom.
    A water feasibility study is the next logical step toward a 
resolution of a long-standing inequity.
    With regard to subsection 2(c) restricting the use of water for 
gaming-related purposes, I believe this clause is a necessary and 
important part of the legislation. All the provisions in this bill were 
carefully negotiated to best fit the needs of the community and 
subsection 2(c), agreed to by the Tribe and its elected 
representatives, is appropriate for this particular set of 
circumstances.
    Finally, I would note that the legislation before you today enjoys 
universal support from the Tribe and nearby communities. I appreciate 
the time you have given today to consider the merits of this bill and 
encourage the Committee's prompt consideration and passage of the Tule 
River Tribe Water Development Act.
                                 ______
                                 
   Prepared Statement of Hon. Max Baucus, U.S. Senator From Montana, 
                               on S. 637
    Good afternoon! I want to want to thank you for the opportunity to 
speak today in support of S. 637, a bill to authorize the Dry--Redwater 
Regional Water System in Montana. I introduced this legislation with my 
colleague, Senator Tester, on March 18, 2009. This water project is a 
critical lynch-pin our long-term efforts to ensure that all Americans, 
regardless of location, receive the clean, fresh water to which they 
are entitled. This legislation will bring the reality of clean, safe, 
reliable water one step closer to thousands of residents in eastern 
Montana.
    S. 637 authorizes the construction of the Dry Redwater Regional 
Water System in the State of Montana and a portion of McKenzie County, 
North Dakota. The Dry Redwater Regional Water System will provide a 
municipal and industrial water supply for rural communities in Montana 
and North Dakota. The project will ultimately serve 15,000 people in a 
service area covering approximately 9,400 square miles. In comparison, 
the city of Los Angeles covers 1,682 square miles and is home to over 
11 million people.
    Today, these rural communities rely heavily on groundwater, and are 
facing water quality issue ranging from high levels of fluoride, to 
high total dissolved solids and high sodium. The bottom line is that 
the current system is not up to par and fails to meet the basic needs 
of Montanans.
    The project will include 1,220 miles of pipeline, 38 pump stations, 
and 20 water storage reservoirs. The total cost is expected to be about 
$115M over 10 years, with the Federal government paying up to 75% of 
the total project cost.
    The non-Federal interests are ready to go on their share of this 
project. I am very pleased to have Mr. Tod Kasten, from Circle, Montana 
here testifying today on behalf of this project. Mr. Kasten is a member 
of the board of the Dry--Redwater Regional Water Authority System which 
was established to manage this project and will bear the responsibility 
for the operation and maintenance of this project over the long-term.
    The Dry-Redwater Regional Water System is exactly the type of 
project that the Bureau of Reclamation was established to create. The 
Bureau was established in 1902 and constructed water projects 
throughout the West leading to economic development. It is hard to 
believe that there are still Americans in this region who lack basic 
water services--but there are. I greatly appreciate this Committee's 
time and attention to this matter which is so critical to thousands of 
Montanans, and I look forward to working with you to move this bill to 
enactment.
                                 ______
                                 
   Prepared Statement of Hon. John McCain, U.S. Senator From Arizon, 
                               on S. 1080
    Madam Chairman, I appreciate you holding today's hearing on S. 
1080, legislation introduced by myself and my colleague from Arizona, 
Senator Kyl. A companion measure has been introduced in the House of 
Representatives by Congresswoman Ann Kirkpatrick. Simply put, this 
legislation would clarify that the ``C.C. Cragin Dam and Reservoir 
Project'' in northern Arizona is under the jurisdiction of the Bureau 
of Reclamation (BOR) and not the Forest Service. Resolving this 
uncertainty is necessary for the development of several critical water 
supply projects in northern Arizona.
    The C.C. Cragin Project, formerly known as the Blue Ridge Dam and 
Reservoir, is located within the Coconino and Tonto National Forests. 
The project consists of a relatively modest dam, reservoir and 10-mile 
pipeline that was constructed during the 1960's by Phelps Dodge to 
supply water to the Morenci Mine Complex under an agreement with the 
Salt River Project (SRP). Several years ago, Phelps Dodge relinquished 
the Cragin Project to SRP, and consequently, it was transferred to the 
Bureau of Reclamation's Salt River Federal Reclamation Project under 
the Arizona Water Settlements Act of 2004.
    Unfortunately, the Act failed to expressly divest the Forest 
Service from managing the National Forest lands underlying the Cragin 
Project. This oversight has resulted in an interagency struggle between 
the Bureau of Reclamation and the Forest Service concerning approval 
authority over SRP's maintenance activities. The Bureau of Reclamation 
correctly interprets the Act to mean they have authority over SRP's 
repair work, while the Forest Service insists it has ultimate authority 
for the entire Cragin Project, and has even argued that the Bureau must 
obtain a special use permit in order to operate the dam.
    This bureaucratic disagreement frequently disrupts SRP's ability to 
maintain the integrity of the aging Cragin pipeline. There have been 
numerous delays-sometimes lasting months--as the Forest Service forces 
SRP to duplicate environmental assessments and comply with various 
regulatory hurdles which Congress clearly intended to be under the sole 
jurisdiction of the Bureau of Reclamation.
    Over the past 4 years, SRP and the Bureau have made every attempt 
to resolve this jurisdictional dispute with the Forest Service without 
success Meanwhile, the ongoing bureaucratic infighting is complicating 
efforts by several communities in Northern Gila County that plan to 
utilize the Cragin Project to address a chronic regional water 
shortage. I've heard from several local elected officials in Gila 
County who are outraged at how this dispute has delayed and may 
eventually derail several of their most critical water delivery 
projects.
    This internal bureaucratic squabbling is totally indifferent to the 
greater needs of Arizona taxpayers. The C.C. Cragin Project is just 
like any other Salt River Federal Reclamation Project facility located 
within a National Forest in that the Bureau of Reclamation, not the 
Forest Service, is responsible for approving all work plans and 
maintenance activities. That's why this legislation would put to rest 
any confusion over the Bureau of Reclamation's authority to approve 
management activities for the Cragin Project. I want to be clear that 
this bill does not release either the BOR or SRP from complying with 
applicable federal laws, including NEPA and the Endangered Species Act, 
nor does it impose additional costs on the federal government.
    Again, Madam Chairman, after four years of negotiations, the Forest 
Service and the Bureau of Reclamation have yet to produce an agreement 
on this matter. A speedy resolution to this jurisdictional issue is 
needed in order to provide certainty in SRP's repair work as well as to 
advance the water development plans of the Town of Payson and other 
northern Arizona communities. Thank you for holding this hearing and I 
look forward to working with the Committee and the Administration to 
advance this bill through the legislative process.
                                 ______
                                 
 Prepared Statement of Hon. Jon Kyl, U.S. Senator From Arizona, on S. 
                                  1080
    Chairman Stabenow, Ranking Member Brownback, and members of the 
Subcommittee, thank you for holding this hearing on S. 1080, which 
would clarify the jurisdiction of the Secretary of the Interior with 
respect to the C.C. Cragin Dam and Reservoir (the ``Project''). Along 
with Senator McCain, I introduced this legislation in May 2009 to 
resolve a dispute among the U.S. Bureau of Reclamation, the U.S. Forest 
Service, and the Salt River Project (SRP) concerning the exercise of 
jurisdiction by the two federal agencies over the operation of the 
Project in Northern Arizona. A legislative fix is necessary because the 
agencies have been unable to resolve this conflict. S. 1080 would (1) 
withdraw for eclamation purposes the lands at issue and (2) clarify 
that the Secretary of interior has exclusive jurisdiction with respect 
to the covered lands.
    By way of background, under the Arizona Water Settlements Act 
(AWSA), up to 3,500 acre feet of water per year may be made available 
from the Project for municipal and domestic uses in northern Gila 
County. AWSA also authorized the Department of Interior to accept from 
SRP the transfer of title to the Project. Section 213(i) of AWSA 
provides: (1) ``the United States shall hold title to the (Project) for 
the exclusive use and benefit of (SRP)'' and (2) ``(SRP) shall be 
responsible for the care, operation, and maintenance of the project 
pursuant to the contract between the (U.S.) and (SRP) dated . . . 1917, 
as amended.'' The intent of AWSA was to give Interior, through 
Reclamation, the exclusive jurisdiction over the Project.
    The Forest Service has argued that AWSA did not expressly divest it 
of jurisdiction over the and associated with the Project. Consequently, 
the Forest Service maintains it must ``authorize'' all of the 
activities associated with the Project, including but not limited to, 
its care, operation, and maintenance. Last year, the Forest Service 
proposed entering into a project supplemental agreement (PSA) to 
resolve this issue. Regulating the Project through a PSA, however, 
would undermine the legislative intent of AWSA and result in the 
piecemeal administration of the Project and duplication of effort by 
the three entities.
    Reclamation already possesses sufficient authority, under both an 
existing contract with SRP and Section 213(i) of AWSA to regulate both 
the dam and reservoir and all other improvements associated with the 
Project. It also possesses sufficient expertise to regulate the 
operation of the Project. Indeed, Reclamation already exercises such 
expertise in its regulation of similar facilities that are part of the 
Salt River Federal Reclamation Project and other reclamation projects 
in the West.
    The practical concern is that these unresolved disputes have 
resulted in delays in needed repairs to a pipeline and other 
improvements to the Project, which, according to SRP, are necessary for 
the Project's continued operation.
    In sum, the legislation would resolve an ongoing dispute among 
Reclamation, SRP, and the Forest Service and give Reclamation 
jurisdiction over the Project as AWSA intended. Given the legislation's 
bipartisan nature, I hope the Subcommittee will work with me in 
securing its swift passage in the 111th Congress.

          STATEMENT OF HON. JON TESTER, U.S. SENATOR 
                          FROM MONTANA

    Senator Tester. Thank you, Chairwoman Cantwell. I 
appreciate the opportunity to say a few words, and I appreciate 
the opportunity that you are taking to hear these projects on 
the panels today.
    They are critically important projects. I can talk about 
the one in particular, the Dry-Redwater Regional Water 
Authority. This is a project in eastern Montana that is going 
to require some significant resources, but it is a project that 
is much needed in eastern Montana.
    As has been said and as you guys deal with on a daily basis 
in this committee, water is so critically important for not 
only survival but economic growth and the ability to maximize 
the economic opportunities as they come down the pipe. That is 
what this project is about. It is about not only economic 
development and growth into the future, but in the short term, 
simple economic stability and sustainability because, quite 
frankly, without water, communities are not going to survive. 
That is just the way it is.
    So I appreciate you having this hearing, and I would hope 
that you would give this very favorable consideration when it 
goes to the committee.
    With that, I just want to express my appreciation. Thank 
you, Senator Cantwell.
    [The prepared statement of Senator Tester follows:]
    Prepared Statement of Hon. Jon Tester, U.S. Senator From Montana
    Thank you Mr. Chairman, Thank you for holding this hearing and 
including Montanan, Tod Kasten on a panel.
    Mr. Chairman, it is an honor to introduce my fellow Montanan Mr. 
Tod Kasten who has traveled all the way from Circle, Montana to share 
his work with the Dry-Redwater Regional Water Authority.
    This project has been in the works since 2002 and Mr. Kasten's 
leadership brings this issue to your chambers today.
    I feel local organization and community involvement in projects 
like this is fundamental to providing a strong rural water structure 
and I laud Mr. Kasten's work.
    As I am sure you know, these projects are critical to securing 
clean water in our rural communities. Clean water promotes health and 
economic development and this bill helps to ensure that Montanans from 
communities across Eastern Montana are given that benefit.
    Thank you for taking the time to listen to Mr. Kasten and Thank you 
again for your consideration of this issue.

    Senator Cantwell. Thank you, Senator Tester. You, I am 
assuming, have worked with our colleagues from North Dakota on 
this as well.
    Senator Tester. We try to stay away from those guys in 
North Dakota, but absolutely.
    Senator Cantwell. All right. Thank you. Thank you for 
stopping by to lend your support for what is important 
legislation for the State of Montana and the region.
    Before I call up our first panelist, I would like to make 
sure that we know that the subcommittee has received additional 
written testimony on the bills before us today, that the 
testimony, as well as the written submissions from today's 
witnesses, will be made part of the official record.
    So with that, I think, Mr. Connor, we will turn to you.

    STATEMENT OF MICHAEL L. CONNOR, COMMISSIONER, BUREAU OF 
            RECLAMATION, DEPARTMENT OF THE INTERIOR

    Mr. Connor. Thank you, Madam Chairwoman. I am Mike Connor, 
the Commissioner of the Bureau of Reclamation, and I am pleased 
to provide the Department of the Interior's views on the four 
bills pending before the subcommittee today. In the interest of 
time, I will quickly summarize my written statements, which 
have been submitted for the record.
    The first bill I will speak to is S. 637, the Dry-Redwater 
bill. S. 637 would authorize construction of the Dry-Redwater 
Regional Water Authority System in Montana. The Department has 
significant concerns with S. 637. While we concur in the need 
for a safe and reliable water supply for the citizens of 
eastern Montana, the Department is concerned about the strain 
on Reclamation's budget, the cost share requirement proposed in 
the bill, the accuracy of the existing cost estimates, and the 
proponents' capability to pay for all aspects of the project.
    Of Reclamation's eight rural water projects, six are in 
Reclamation's Great Plains region and are currently being 
constructed in the Dakotas and Montana. All of these projects 
pre-date Public Law 109-451, the Rural Water Supply Act. This 
act authorizes the Secretary to create a rural water supply 
program to address rural water needs in the 17 western States. 
The fiscal year 2010 rural water project construction request 
is $64 million. The remaining construction ceiling for these 
six projects total over $1.2 billion. That is our backlog in 
rural water projects.
    Given that backlog, we are concerned about the accuracy of 
the cost estimates upon which appropriations are authorized in 
S. 637. Being asked to consider requests for authorization of a 
project's construction, Reclamation typically has had an 
opportunity to do an appraisal-level study prior to that 
authorization. As such, we would like to suggest that the 
project sponsors work with Reclamation's regional office to 
complete appraisal-and feasibility-level studies consistent 
with the Rural Water Supply Act of 2006 prior to an 
authorization taking place.
    We appreciate that the project sponsors have approached 
Reclamation in this regard and pledge to provide them clear 
guidance that will help facilitate a meaningful review of the 
project.
    The second bill I will speak to is S. 789, the Tule River 
bill. S. 789 would direct the Department to complete a 
feasibility study for construction of a storage reservoir and 
delivery system for the Tule River Indian Tribe in California. 
The Department does not support S. 789.
    This bill directs that the Department's feasibility study 
be completed within 2 years after the funds are appropriated. 
Reclamation has not reviewed and is not in a position to verify 
the accuracy of the costs estimates upon which the 
appropriations are authorized in the bill. Before being asked 
to consider a request for authorization or funding of a 
feasibility, Reclamation typically has had the opportunity to 
conduct an appraisal-level study. Without that study, the 
Department believes it is premature to authorize the 
feasibility work.
    For several years, settlement negotiations have been 
conducted between the tribe, downstream water users, and the 
Federal negotiating team regarding the tribe's federally 
reserved water rights. Not all issues between the tribe and the 
Federal negotiating team have been resolved. Moreover, despite 
some level of Federal participation, the Department has not 
analyzed the settlement needs of the tribe and other parties, 
including the question of whether the proposed storage 
reservoir, outlet works, and delivery system are a cost 
effective approach to accomplishing the parties' goals. Until 
the Department has completed its analysis of the proposed 
settlement, it is premature to take a position on the scope, 
schedule, and cost of the feasibility study that is proposed in 
the legislation.
    Having said this, the Department understands the importance 
of a reliable water supply. We will continue to work with the 
tribe, including evaluating the option of allocating some 
amount of resources toward addressing the issues I have just 
raised.
    The Department supports the resolution of Indian water 
rights claims through negotiated settlements. Good settlements 
require good information and a solid technical review of the 
available water supply options.
    The third bill is S. 1080, the C.C. Cragin bill. S. 1080 
deals with an issue that has occupied the time of field staff 
at Reclamation and U.S. Forest Service since enactment of the 
Arizona Water Settlement Act in 2005. This bill seeks to 
clarify Federal jurisdiction with respect to the C.C. Cragin 
project operated by the Salt River Project and located within 
the Coconino National Forest in Arizona.
    The administration appreciates the interest of the Salt 
River Project in reaching a prompt resolution of the management 
responsibilities of the Departments of Agriculture and Interior 
and understands SRP's interest in promoting this legislation. 
However, the administration believes that a sound approach for 
future management of the project could be arrived through 
further negotiations. Both Departments are fully committed to 
working expeditiously with SRP to ensure needed work for the 
project, including both emergency and nonemergency repairs, and 
replacement of improvements are completed, as well as the 
management issues that are pending right now.
    The final bill is S. 1453, the Upper Colorado River-San 
Juan fish recovery program. S. 1453 would extend the 
authorization for the Upper Colorado and San Juan Rivers fish 
recovery implementation programs to use Colorado River storage 
project hydropower revenues through the year 2023. The 
Department supports S. 1453.
    These programs share the dual goals of recovering 
populations of endangered fish while water development 
continues to meet current and future human needs. The program 
actions provide Endangered Species Act compliance for more than 
1,600 Federal, tribal, and non-Federal water projects using 
more than 3 million acre-feet of water per year in the Colorado 
and San Juan River basins. These programs have been nationally 
recognized for their cooperative approach to recovering native 
fish species, avoiding litigation, and providing ESA compliance 
to Federal and non-Federal water users.
    Reauthorization for the continued use of CRSP hydropower 
revenues is essential to the ability of these programs to 
realize their goals. The stakeholders involved in these 
programs are to be commended for their cooperation, as well as 
the successes they have achieved to date.
    That concludes my prepared remarks. I will be happy to 
answer questions at the appropriate time.
    [The prepared statements of Mr. Connor follow:]
   Prepared Statements of Michael L. Connor, Commissioner, Bureau of 
                Reclamation, Department of the Interior
                                 s. 637
    Madam Chairwoman and Members of the Subcommittee, I am Mike Connor, 
Commissioner of the Bureau of Reclamation (Reclamation). I am pleased 
to provide the views of the Department of the Interior (Department) on 
S. 637, legislation authorizing construction of the Dry-Redwater 
Regional Water Authority System in the State of Montana. The 
Administration has significant concerns with this bill that we want to 
work with Congress to address.
    S. 637 would authorize the planning, design, and construction of 
the Dry-Redwater Regional Water Authority System (System) in eastern 
Montana and would authorize appropriations of at least $115 million for 
the System. The bill would require that the Federal government pay for 
75 percent of the project's overall cost.
    The Department concurs in the need for a safe and reliable water 
supply for the citizens of eastern Montana, but we have a number of 
concerns with the legislation. In particular, the Department is 
concerned about the strain on Reclamation's budget, the cost share 
requirement proposed in the bill, the accuracy of existing cost 
estimates, and the proposed use of project use power from the Pick 
Sloan Missouri Basin Program (PSMBP) for non-irrigation purposes.
    Of Reclamation's eight authorized rural water projects, six are in 
Reclamation's Great Plains (GP) region and are currently being 
constructed in the Dakotas and Montana. All of these projects pre-date 
Public Law 109-451, which authorized the Secretary of the Interior to 
create a rural water supply program to address rural water needs in the 
17 western States. Within the GP region, more than 236,750 people are 
presently being served by the six partially completed projects 
(approximately 38,750 on Indian reservations and 198,000 off 
reservations). The fiscal year (FY) 2010 rural water project 
construction request is $64 million. This includes $15.3 million for 
the operation and maintenance of tribal systems and $47.7 million for 
construction. In addition, the Department of the Interior allocated 
$200 million to these rural water projects with funding from the 
American Recovery and Reinvestment Act of 2009. The remaining 
construction ceiling for these six projects totals over $1.2 billion.
    In view of these existing authorizations, the Department is 
concerned about the non-Federal cost share for the System. S. 637 
contemplates that the United States would fund 75 percent of the cost 
of constructing the system for the benefit of Montana citizens of 
Dawson, Garfield, McCone, Prairie, and Richland Counties, and North 
Dakota citizens of McKenzie County.
    While this has been the cost share level proposed in other rural 
water projects enacted into law, it represents the very maximum Federal 
cost share allowed under the Rural Water Supply Act of 2006 (Public Law 
109-451), which includes a requirement for a Feasibility Report that 
includes an analysis of the sponsor's capability-to-pay and identifies 
an appropriate contribution by the local sponsors.
    Reclamation has not reviewed and is not in a position to verify the 
accuracy of the cost estimates upon which appropriations are authorized 
in S. 637. Before being asked to consider a request for authorization 
or funding of a feasibility study, Reclamation typically has had an 
opportunity to conduct at least appraisal-level analysis of a project. 
This practice is confirmed in Section 106(a) of the recently enacted 
Rural Water Supply Act of 2006.
    Section 5 of S. 637 authorizes the delivery of Pick Sloan Missouri 
Basin Program ``project use'' pumping power to be used and delivered 
for the benefit of this project at the firm power rate. The bill 
requires that the project be operated on a ``not for profit basis'' in 
order to be eligible to receive power under those terms. The bill is 
silent as to whether this authorization provides for seasonal power vs. 
year-round power. The legislation should specify in order for 
Reclamation and the Western Area Power Administration to know how much 
preference pumping power from PSMBP will be available to the system 
during the non-irrigation season in order to meet existing contractual 
obligations.
    In addition to those concerns mentioned above, we have yet to 
verify whether or not water rights issues associated with the project 
have been adequately addressed. Without an opportunity to thoroughly 
review the proposed project at an appraisal or feasibility study level, 
we are not in a position to verify that other technical issues do not 
also exist. We would like to suggest that the project sponsors work 
with Reclamation's Great Plains Regional Office and the Montana Area 
Office to complete appraisal and feasibility-level studies consistent 
with the Rural Water Supply Act of 2006 prior to an authorization for 
construction.
    That concludes my statement. I would be pleased to answer any 
questions.
                                 s. 789
    Madam Chairwoman and Members of the Subcommittee, I am Michael 
Connor, Commissioner of the Bureau of Reclamation (Reclamation). I am 
pleased to provide the views of the Department of the Interior 
(Department) on S. 789, the Tule River Tribe Water Development Act. For 
reasons discussed below, the Department does not support S. 789.
    The proposed legislation would direct Interior ``to conduct a study 
on the feasibility and suitability of constructing a storage reservoir, 
outlet works, and a delivery system for the Tule River Indian Tribe of 
California to provide a water supply for domestic, municipal, 
industrial, and agricultural purposes, and for other purposes.'' The 
Act would authorize $3 million for Reclamation to conduct a feasibility 
study to be completed within 2 years after funds are appropriated.
    Reclamation delivered testimony on similar legislation (HR 2535) 
during the 110th Congress on September 25, 2007. While S. 789 contains 
some notable changes in Section 2, the Department's concerns with this 
bill remain.
    Reclamation has not reviewed and is not in a position to verify the 
accuracy of the cost estimates upon which appropriations are authorized 
in S. 789. Before being asked to consider a request for authorization 
or funding of a feasibility study, Reclamation typically has had an 
opportunity to conduct appraisal-level analysis of a project. Without a 
completed appraisal level study, the Department believes it is 
premature to authorize this feasibility study. The authorization of $3 
million for this study would further compete with the funding needs of 
other already authorized projects. Reclamation generally requires 
completion of an appraisal level study before considering whether the 
project warrants continuing to a feasibility-level analysis. 
Reclamation understands that the Tribe has conducted a substantial 
amount of technical, planning, and environmental work over the past 
decade; however, Reclamation has not reviewed these documents nor 
determined how they may affect the scope, cost, or schedule of a 
feasibility study.
    In addition, the proposed legislation does not specify a local non-
Federal cost-share partner or a cost share requirement for the 
feasibility study. Reclamation typically shares feasibility study costs 
with the non-Federal partners paying 50 percent of study costs. There 
is ample legislative precedent which supports this approach. For 
several years settlement agreement negotiations have been conducted 
between the Tribe, downstream water users, and the Federal negotiation 
team regarding the Tribe's federally reserved water rights. However, 
not all of the issues between the Tribe and the Federal negotiating 
team have been resolved. Moreover, the Department has not analyzed the 
settlement needs of the Tribe and other parties including the question 
of whether the proposed storage reservoir, outlet works, and delivery 
system are a cost effective approach to accomplishing the goals of the 
settling parties. Nor have issues of cost and cost sharing with other 
settlement parties been negotiated. Until the Department has completed 
its analysis of the proposed settlement, it is premature to take a 
position on the scope, schedule, and cost of the feasibility study that 
is proposed in this legislation.
    Typically, a feasibility study of this size and shape, including 
National Environmental Policy Act compliance, requires several years to 
complete with significant costs. Actual costs for this study would be 
determined after study authorization and appropriations are provided 
followed by a Plan of Study and public scoping processes. The time and 
cost to complete the feasibility study and environmental documentation 
for the Tule River Tribe Water Development Project could be shortened 
if the Tribe's technical and environmental analyses and documentation 
are sufficient and compatible with Federal requirements. The costs of a 
feasibility study are significant and may exceed the $3 million 
authorization in this bill.
    This bill also includes a new subsection 2(c) that would restrict 
the use of water from any project ``relating to the feasibility study'' 
authorized in this legislation, prohibiting the use of water supplies 
provided by this project for the casino of the Tule River Tribe or any 
other tribal casino or facility designed to support gaming activity. 
The Department opposes conditioning support for tribal water 
development upon restrictions on permissible activities. This bill, if 
enacted, will place a restriction upon any project that may be 
authorized as part of a comprehensive water rights settlement even if 
the exact feasibility study authorized by the bill is never carried 
out. We understand that the Tribe supports this legislation, but we 
believe that it raises serious precedent and fairness problems.
    Although we do not support this bill, the Department understands 
the importance of a reliable water supply and will continue to work 
with the Tribe toward this goal in addressing the issues described 
above.
    That concludes my statement. I would be pleased to answer any 
questions.
                                s. 1080
    Madam Chairwoman and Members of the Subcommittee, I am Mike Connor, 
Commissioner of the Bureau of Reclamation (Reclamation). I am pleased 
to be here today on behalf of the Department of the Interior 
(Department) to discuss S. 1080, the Land Withdrawal and Reservation 
for C.C. Cragin Dam and Reservoir. The legislation seeks to clarify 
Federal jurisdiction with respect to the C.C. Cragin project, which 
includes a dam, reservoir, and 11.5-mile utility corridor containing a 
transmission line and high-pressure pipeline. The project is located 
nearly entirely within the Coconino National Forest in north-central 
Arizona.
    The Administration appreciates the interest of the Salt River 
Project Agricultural Improvement and Power District (SRP) to reach 
prompt resolution of the management responsibilities of the Departments 
of Agriculture and the Interior, and understands SRP's interest in 
promoting this legislation. However, the Administration would like to 
pursue an administrative resolution among the parties. The two federal 
agencies (Reclamation and the Forest Service) have recently reengaged 
on this issue and would like an opportunity to explore further 
discussions with SRP to that end. As this effort proceeds, we would 
commit to keep the Committee updated on the progress of those 
discussions.
    Reclamation and the Forest Service hope to be able to negotiate and 
enter into an agreement with SRP for operation and maintenance of the 
Cragin project in a manner that will fulfill the roles, obligations, 
and responsibilities of all three parties. This approach would 
accommodate Reclamation and SRP by ceding full control of the lands 
underlying the dam and reservoir to Reclamation and by expressly 
acknowledging SRP's right to operate and maintain the dam, reservoir, 
and utility corridor pursuant to the Arizona Water Settlement Act 
(AWSA, Public Law 108-451) and the 1917 agreement between the 
Department of the Interior and SRP. In addition, this approach would 
accommodate the Forest Service by allowing the agency to manage the 
lands underlying the utility corridor for recreation, wildfire, law 
enforcement, and other activities consistent with the Forest Service's 
authorities and responsibilities, the AWSA, the 1917 agreement, and the 
existing right-of-way over the corridor held by another party. In 
particular, this approach would allow for integrated management of tens 
of thousands of acres of ecosystems across National Forest System lands 
underlying and adjacent to the Cragin project, including watershed, 
wildlife habitat, range, and vegetation management.
    The Administration recognizes that S. 1080 is intended to hasten 
the development of a workable management agreement. The Administration 
believes, however, that a sound approach for future management of the 
project could be arrived upon through further negotiations. Both 
Departments are committed to working expeditiously with SRP to ensure 
needed work for the project, including both emergency and non-emergency 
repairs and replacement of improvements.
    Reclamation's long-standing experience working with SRP over nearly 
a century has been very productive. SRP has proven to be a responsible 
and reliable operator and caretaker of U.S. interests and resources. 
Reclamation and SRP have nearly a century of responsible stewardship in 
regard to both the technical operation of project works and protection 
of the ancillary natural resources. It is our hope that combining that 
history with the Forest Service's land management authorities and 
expertise would result in even more effective stewardship.
    That concludes my prepared remarks. I would be pleased to answer 
any questions.
                                s. 1453
    Madam Chairwoman and Members of the Subcommittee, I am Mike Connor, 
Commissioner of the Bureau of Reclamation (Reclamation). I am pleased 
to be here today to provide the views of the Department of the Interior 
(Department) on S. 1453, the ``Bureau of Reclamation Fish Recovery 
Programs Reauthorization Act.'' The Department supports S. 1453.
    The Upper Colorado River Endangered Fish Recovery Program and San 
Juan River Basin Recovery Implementation Program (Programs) share the 
dual goals of recovering populations of endangered fish while water 
development continues to meet current and future human needs. Program 
actions provide Endangered Species Act compliance for more than 1,600 
federal, tribal, and non-federal water projects depleting more than 3 
million acre-feet of water per year in the Colorado and San Juan rivers 
and their tributaries. The Programs, authorized by Public Law 106-392, 
as amended, were established under cooperative agreements in 1988 
(Upper Colorado) and 1992 (San Juan). Program partners include the 
states of Colorado, New Mexico, Utah, and Wyoming; the Bureau of 
Reclamation, Western Area Power Administration, U.S. Fish and Wildlife 
Service, Bureau of Land Management, National Park Service, and Bureau 
of Indian Affairs; Native American tribes; environmental organizations; 
water users; and power customers.
    Public Law 106-392 authorized the use of $6 million per year 
(indexed for inflation) of Colorado River Storage Project (CRSP) 
hydropower revenues from Glen Canyon Dam and other CRSP facilities to 
support the base funding needs of the Programs through 2011. Base 
funding is used for program management, scientific research, fish 
population monitoring, fish stocking, control of non-native fish, and 
operation and maintenance of capital projects. The bill, as introduced, 
would simply extend the authorization to utilize CRSP hydropower 
revenues at the current level (up to $6 million per year adjusted for 
inflation, or approximately $7 million in 2009 dollars) through 2023 to 
support the base funding needs of both Programs.
    These Programs have been nationally recognized for their 
cooperative approach to recovering aquatic native fish species, 
avoiding litigation, and providing Endangered Species Act compliance to 
federal and non-federal water users. Reauthorization for the continued 
use of CRSP hydropower revenues is critical to the ability of these 
Programs to realize their goals. There appears to be strong support for 
this legislation from the Program's non-federal stakeholders.
    That concludes my prepared remarks. I would be pleased to answer 
any questions.

    Senator Cantwell. Commissioner Connor, thank you for your 
testimony, and thank you being here.
    How long have you been at the Bureau now?
    Mr. Connor. I am now in week 7 of my tenure.
    Senator Cantwell. Thank you. I knew it was a short time.
    We have been joined by the ranking member, Senator 
Brownback. Would you like to make a statement before we 
continue with questions and other witnesses?
    Senator Brownback. Thank you very much. I will not. I do 
want to have my full statement put into the record.
    I appreciate the hearing. I am sorry for being late. I got 
captured in my office in a longer meeting. I appreciate your 
testimony and look forward to some of the questioning, but I 
would just put the statement in the record.
    [The prepared statement of Senator Brownback follows:]
   Prepared Statement of Hon. Sam Brownback, U.S. Senator From Kansas
    Senator Cantwell, it's a pleasure to be here today, and I thank you 
for chairing this important hearing.
    I am pleased to join you in welcoming the witnesses and members of 
the public. We have a number of bills to get through that are important 
to various members on this committee, and other members as well.
    All of the bills in this hearing today hold a certain importance 
for our states in the West:

  <bullet> Providing safe municipal and industrial water supplies for 
        rural communities in Montana and North Dakota;
  <bullet> Carrying out a feasibility study for the construction of a 
        storage reservoir and delivery system for the Tule River Indian 
        Tribe in California;
  <bullet> Conferring exclusive jurisdiction of land in Northern 
        Arizona to the Department of Interior for better maintenance of 
        vital land and water projects; and
  <bullet> Funding essential endangered fish recovery programs in the 
        Upper Colorado River and San Juan River basis.

    So while the underlying purpose of each bill is different, they all 
share the critical goal of providing all people within the United 
States access to a reliable, safe and secure water supply, while at the 
same time maintaining and preserving the natural habitats of some of 
our nation's most valuable wildlife. It is essential, though, to 
balance this need in a manner that addresses the economic climate our 
nation currently faces.
    While none of these pieces of legislation directly affect my home 
state, the ability to access clean, abundant sources of water is an 
issue that transcends physical boundaries.
    The United States government and its agencies should recognize 
water resources are the purview of the individual state, and the 
citizens and groups within that state, for allocation decisions and 
recommendations on all water resources projects and their management. 
Each federal agency, including the Bureau of Reclamation, should 
recognize and work within the state's own water resources planning 
structure.
    In Kansas, and most states in our region, there are multiple 
federal agencies with a role in water issues. These agencies, 
unfortunately, are often not well coordinated in their efforts. In 
fact, in some cases there are statutory or regulatory prohibitions 
preventing those agencies from being able to cooperate and share 
resources. This fact is limiting the ability of my state to adequately 
address issues within its borders. If the states are truly to lead 
planning and management of water resources, federal agencies must be 
willing and able to work cooperatively with each other and those states 
seeking assistance. Otherwise, significant time and funding is expended 
to overcome artificial and unreasonable barriers to cooperation. 
    While there have been significant impediments to more robust water 
development and modernization, there are definite areas of progress 
that have moved our region of the country towards greater utilization 
of this most valuable natural resource.
    One such example in my home state has been the development of a 
Reservoir Sustainability Initiative. This initiative, made possible by 
the collaborative efforts of the Kansas Water Office, several state 
agencies, local government and citizen stakeholders has implemented 
plans for needed improvements and an overall framework for protecting 
Kansas' valuable reservoir system--a system that provides a water 
supply to 2/3 of the state population.
    My understanding of the importance of water conservation and 
utilization was ingrained into my mind at an early age growing up on my 
family farm in Parker, Kansas. As you all may know, Kansas is fortunate 
enough to have access to one of the most abundant and shallowest 
sources of ground water in the whole Midwest. The Ogallala-High Plains 
aquifer is the dominant, often sole, source of water in western Kansas, 
and has been an essential factor in positioning my state as a leader in 
agriculture production. But like so many sources of water throughout 
the west, and the world, the Ogallala aquifer is limited in source. 
Therefore, as we continue to address growing demand for clean sources 
of potable water, we must also continue to pursue initiatives for water 
conservation and technologies that will allow us to better use all 
available sources of water.
    Once again, I thank the witnesses for your presence and thank you, 
Senator Cantwell, for conducting this hearing. I look forward to 
hearing the testimony today.

    Senator Cantwell. Thank you very much. I appreciate that.
    If we could turn to these particulars on the various 
legislation. On S. 637 what are the alternatives that you would 
suggest to addressing the water supply needs since you are 
saying you do not support S. 637?
    Mr. Connor. I think that is the key aspect of our 
testimony, quite frankly. Appraisal-level and feasibility-level 
studies that we participate in would be required to look at a 
various range of alternatives as part of those programs. That 
has not been done, so quite frankly, I cannot suggest that 
there are alternatives at this point in time. This, indeed, may 
be the most effective and cost efficient way to address the 
obvious critical water needs that exist in eastern Montana, but 
until we have gone through that appraisal and feasibility 
analysis, as called for in the Rural Water Supply Act, we have 
not evaluated those options at this point in time.
    Senator Cantwell. But with your backlog, when would that 
happen?
    Mr. Connor. I mean, there is the study aspect, and if we 
move forward, if Congress moves forward with an authorization, 
then there would be the authorization for construction. We, 
admittedly, are behind in getting the rural water supply 
program up and running. We produced an interim rule to 
establish the program in December 2008 and now have to do the 
directives and standards, which I anticipate will be done in 
September of this year.
    At that point in time, we have some resources, $1 million 
in the 2009 budget, $2.3 million requested in the 2010 budget 
to start moving the program forward. I anticipate that we will 
do a grant announcement and start making awards so that we can 
pursue some of this appraisal and feasibility work.
    Senator Cantwell. So the project needs authorization 
anyway. Correct?
    Mr. Connor. The project will ultimately need an 
authorization. The question, I think, and what was contemplated 
in the Rural Water Supply Act is that before authorizing these 
projects, Congress would have an established set of criteria 
from which to make a decision on whether to move forward with 
this project or some various form of the project. I guess the 
position I am here to express today is that seems like a 
reasonable way to go forward so that we all make a decision 
about authorization with the best available information base to 
make that determination.
    Senator Cantwell. My guess is being a westerner and knowing 
a little bit about the water problems of our region, that my 
colleagues are now submitting legislation because they cannot 
get this resolved through the normal process. So I think it 
raises questions about what we need to do. So the Tule 
feasibility study--I mean, what are the administration's plans 
for getting a settlement in that situation?
    Mr. Connor. With respect to the Tule River situation?
    Senator Cantwell. Yes.
    Mr. Connor. I think, quite frankly, we are behind the gun 
on where the parties are in the Tule River situation. So from 
that standpoint, I think Reclamation is committed to reviewing 
our available resources right now. My understanding is the 
tribe here in this situation has done a substantial amount of 
engineering-level work.
    So we need to come to the table, do our assessment of the 
completeness of that work and give them some feedback on what 
we view is the feasibility of the project that they have put 
forward and allow the negotiations to continue with some input 
from the Bureau of Reclamation as to the project and hopefully 
from the Federal negotiating team in general. So I am committed 
to do that, to going back and trying to find some resources so 
that we can be a little bit more active participants in the 
review of this project.
    Senator Cantwell. OK.
    On the C.C. Cragin Dam and Reservoir, the administration's 
testimony represents the coordinated view between the Bureau of 
Reclamation and the Forest Service. Is the administration 
committed to working quickly to finalize the interagency 
agreements necessary to ensure that the dam and pipelines can 
be maintained?
    Mr. Connor. Absolutely. I think the bill has, obviously, 
spurred a lot of discussions between Reclamation and the Forest 
Service about how to move forward, what is the best way to move 
forward. Based on that input, while I certainly think it is 
reasonable to question why there has not been progress made, 
with a new administration, new people in place, and the goal of 
facilitating good cooperation between Federal agencies, I think 
both agencies are fully committed to moving forward and re-
initiating discussions with SRP related to the repairs that 
they need to do now, as well as the overall management needs of 
the project, both from the Forest Service's perspective, 
Reclamation's perspective, and obviously, SRP's perspective.
    Senator Cantwell. On the Upper Colorado and the San Juan 
recovery programs, you indicated support for this. Do you think 
that this recovery plan is a model that will work in other 
places?
    Mr. Connor. I do think it is a model. It has all the 
appropriate stakeholders at the table. It has been a process 
that has been in place now for well over a decade, probably 15 
years, having demonstrated results on the ground and improving 
the populations of the endangered species at issue. That has 
allowed water projects to move forward, and I think all of 
that, with appropriate resources to move forward. I think the 
parties have done a good job of being very cost effective in 
identifying the projects and the resources that they need. So I 
think overall this has been viewed as a huge success story. 
2023 is the projected date for recovery. So that is our goal 
and that is the basis for extending the authorization.
    Senator Cantwell. Thank you. I see my time has expired.
    Senator Brownback, do you have questions for Commissioner 
Connor?
    Senator Brownback. Not many. But thanks for being here.
    If I am understanding this correctly--and this is my first 
time on this committee and on this subcommittee--you are saying 
that two of these projects you are just not ready to comment on 
yet. Do you know at what point in time you will be, or are you, 
code language, saying we really do not want to do these? Where 
are you on this?
    Mr. Connor. No code language involved, Senator Brownback. I 
think honestly we need to weigh in and do an assessment of the 
existing work that is the basis for the project authorizations, 
whether it be the Dry-Redwater rural project or the Tule River 
project that is critical to their settlement.
    Senator Brownback. When do you think that will be done?
    Mr. Connor. With respect to the Tule River settlement, I am 
going to go back and see if we cannot find some resources right 
now so that Reclamation can start doing their review of the 
engineering studies that have been produced by the parties to 
the settlement out there. The tribe has done a substantial 
amount of technical work, and we need to weigh in. So 
hopefully, that can be done within this fiscal year, if we can 
find some additional resources and start our design, 
engineering, and construction review, or what we call our DEC 
reviews.
    So I will be happy to report back to the committee if there 
is a question for the record. That will give me a little bit 
more time to assess what resources we might be able to produce 
to get on that one sooner rather than later.
    With respect to the Dry-Redwater project, I think the key 
there is for us to get back with the parties right now and give 
them a documented feedback on those information items that we 
think are lacking based on the work that has been done. I know 
our Great Plains region has done an assessment of some of the 
information items that are lacking. That process would begin 
immediately.
    Then if we are going to work this project through our Rural 
Water Supply Act program, hopefully we will be in a position 
when we have our directive and standards for assessing 
appraisal-level and feasibility analysis--that will be in 
place, hopefully, by September of this calendar year. After 
that, we have got resources in place to start making grant 
announcements, and they will have to compete with others. There 
are a number of other folks who are looking to get some 
resources to do appraisal-and feasibility-level analysis of 
their rural water supply projects.
    Senator Brownback. Thank you.
    Senator Cantwell. Thank you, Commissioner Connor. We 
appreciate you being here today and we will look forward to 
hearing more about the work of the Bureau of Reclamation on 
important water issues. So thank you very much.
    Mr. Connor. Thank you.
    Senator Cantwell. I am going to call up our second panel: 
first, Tod Kasten, Board Member of the Dry-Redwater Regional 
Water Authority from Circle, Montana; Ryan Garfield, Chairman 
of the Tule River Tribe, Porterville, California; and John 
Sullivan, Associate General Manager of the Water Group, 
Phoenix, Arizona.
    Gentlemen, thank you all for being here and for giving your 
testimony this afternoon. We can start with you, Mr.--is it 
Kasten? Am I saying that right?
    Mr. Kasten. Kasten.
    Senator Cantwell. Kasten. Thank you. We will start with 
you, Mr. Kasten, whenever you are ready.
    I will just advise you to turn on your microphones. There 
is a button there and pull it close to you so we can hear your 
comments.
    We would like to observe a 5-minute rule, if you can keep 
your comments to that. You can, obviously, submit longer 
statements for the record. But welcome and thank you for being 
here.

STATEMENT OF TOD KASTEN, TREASURER, DRY-REDWATER REGIONAL WATER 
                     AUTHORITY, CIRCLE, MT

    Mr. Kasten. Madam Chair and Ranking Member Brownback and 
members of the subcommittee, my name Tod Kasten. I am Treasurer 
of the Dry-Redwater Regional Water Authority. Thank you for 
this opportunity to testify before the subcommittee in support 
of authorizing the Dry-Redwater project. I would like to thank 
Senator Max Baucus and Senator Jon Tester for their strong and 
continuing support of this project.
    The Dry-Redwater will provide a safe and dependable 
municipal and rural water supply for all the people that 
comprise the system. I can assure you that our agricultural 
based communities in eastern Montana strongly support this 
project. Good, reliable water is not only vital to our health, 
but our very existence.
    The Dry-Redwater service area is plagued by problems with 
water quality and quantity. The primary source of the drinking 
water in the area is groundwater. This water source has high 
levels of primary contaminants which are a hazard to your 
health and very high levels of secondary contaminants which 
have detrimental effects on those drinking it and can render 
the water undrinkable.
    Two public water supply systems are out of compliance with 
the Federal Clean Water Act. One system is currently in 
violation with the State of Montana. The public water supply 
systems within our boundaries are unable to meet the 
requirements of the Safe Drinking Water Act without using 
inefficient and expensive energy-intensive treatment options.
    Rural residents have not had the opportunity or the luxury 
to be connected to safe, high-quality water. They report water 
problems which are evidenced by this chart. The yellow and red 
indicate unhealthy levels of contaminants with the red being 
four times that of the allowed limits.
    The project is located in eastern Montana and western North 
Dakota, and the effort began 7 years ago in 2002 with a 
committee of volunteers. Over 7 years of hard work and time 
have been invested by the local people. About half of the 
households in the area have already paid sign-up fees to show 
their financial commitment to the project. The State of 
Montana, the Federal EDA and locally raised funds have totaled 
over $500,000 in our efforts to date. These funds have been 
used to determine the feasibility of the project and complete 
environmental reviews. No fatal flaws have been found.
    The 3,500 acre-feet of water needed for this project will 
come from the Fort Peck Lake which is managed by the U.S. Army 
Corps of Engineers. The project as conceptualized will consist 
of about 1,200 miles of pipeline, 40 pumping stations, and 20 
major water storage reservoirs. The estimated project cost is 
$115 million. The bill proposes the Federal share to be 75 
percent. In addition to the local cost share, the Dry-Redwater 
will pay all operation, all maintenance, and all replacement 
costs of the system. By working together, we can provide 
affordable and safe water for the people in this project area.
    There are many benefits to regional water projects. The 
communities will not bear the costs of upgrading and 
maintaining numerous small systems that lie within the area, 
and by combining together, the users in the region can provide 
good water to all of the individuals in that whole area 
affordably and efficiently.
    The system will provide jobs too, not only during 
construction, but also for ongoing operation and maintenance.
    The proposed treatment facility will conserve water and 
electricity. By eliminating three inefficient water treatment 
plants, 80 percent less electricity will be used and 50 percent 
less water would be used in these systems.
    A dependable high-quality drinking water source provides a 
basic need for business and community development.
    Reduction in chemical usage as a result of increased crop 
spraying efficiency also takes place.
    Rural fire protection is a very important thing for us, and 
this would help in that aspect.
    A reliable water supply also is important during 
emergencies when the power goes out and wells cannot be pumped.
    Finally and perhaps more importantly we believe are the 
health benefits of safe water that will reduce water-related 
medical problems and thus decrease medical costs in the area. A 
rural resident, L. Taylor from McCone County stated, my doctor 
told me not to drink my well water because it may be the cause 
of my numerous bladder infections.
    In summary, people in eastern Montana presently do not have 
a reliable source of high-quality water. The proposed regional 
water system will provide water to an area afflicted by water 
supply and quality problems. The positive health benefits of 
safe household drinking water is critical to the well-being of 
the people of eastern Montana and will provide the required 
infrastructure for the region and State's economy.
    We ask the subcommittee's support in passing this important 
legislation to protect the health, social, and economic future 
of our region.
    Thank you again for this opportunity to testify in support 
of the Dry-Redwater Regional Water Authority, and I would be 
pleased to answer any of your questions.
    [The prepared statement of Mr. Kasten follows:]
  Prepared Statement of Tod Kasten, Treasurer, Dry-Redwater Regional 
                 Water Authority, Circle, MT, on S. 637
    Madam Chair and members of the subcommittee, my name is Tod Kasten. 
I am Treasurer of the Dry-Redwater Regional Water Authority. Thank you 
for the opportunity to testify before the subcommittee in support of 
authorizing the Dry-Redwater Regional Water System. I would also like 
to thank Senator Max Baucus and Senator Jon Tester for their strong and 
continuing support for this project.
    The Dry-Redwater will provide a safe and dependable municipal and 
rural water supply for the public water supply systems and rural users 
that comprise the Dry-Redwater Regional Water Authority. Speaking on 
behalf of the Dry-Redwater, I can assure you that our primarily 
agricultural based frontier communities in eastern Montana strongly 
support all components of the project as a good, clean, reliable source 
of water is vital to our existence.
    This great local support is evidenced by over 3,100 good intention 
fees collected. These pre-paid fees show the financial commitment of 
the area users for this project. This financial support represents an 
equivalent population of nearly 7,000 users which is nearly 50% of the 
potential users already financially committed to this project.
                          need for the project
    The Dry-Redwater service area is plagued by problems with water 
quality and adequate supply. The public water supply systems within our 
boundaries are unable to meet the requirements of the Safe Drinking 
Water Act without expensive energy intensive treatment options. 
According to the Montana Department of Environmental Quality (DEQ), one 
of the public water supply systems who would be served by the proposed 
regional system is out of compliance with the Federal Clean Water Act 
due to levels of secondary contaminants--sodium and total dissolved 
solids.
    Many of the existing systems treat their water with chlorine which 
in turn has caused problems with elevated levels of disinfection by-
products. Other systems have problems with bacterial contamination and 
elevated levels of total dissolved solids, iron, manganese, lead, 
copper, sulfate and sodium that render the water nearly undrinkable.
    The rural residents in the proposed project area currently obtain 
their water, in the majority of instances, from private wells drilled 
into shallow aquifers, gravel pockets or deep confined aquifers. Some 
rural residents are hauling all of their drinking and cooking water 
used either because their well water is undrinkable or there is not a 
sufficient quantity to be usable. Many rural residents do report water 
quality and/or quantity problems, which is evidenced by the chart of 
private well water quality attached at the end of this testimony. There 
is a Montana Department of Transportation rest stop at Flowing Wells 
that is categorized as a public water supply system. This rest area is 
located at the junction of MT Highways 200 and 24; which is a main 
route to Fort Peck Lake. This rest area is heavily used by tourists and 
recreationist visiting Fort Peck Lake. The water source for this public 
area has signed for non-use as a potable system--do not drink the water 
due to high levels of nitrates and high levels of coliforms. This 
system has had to be renovated several times to correct those 
deficiencies, but due to the depth of the well and proximity to on-site 
sewage disposal facilities this will be a chronic problem.
    The majority of the proposed communities to be served are currently 
operating their own municipal water systems; all of the communities are 
using wells as a source of water. Three communities must treat their 
water because of high levels of fluoride which is a health hazard and a 
regulated contaminant. A fourth community--Jordan--does not treat its 
water but it is high in sodium and total dissolved solids which are not 
currently regulated, but has detrimental effects on those drinking it. 
A fifth system--Fairview--has high organic levels in its water that has 
lead to a disinfection by product violation. The Town operates an iron 
and manganese removal water treatment facility that uses chlorine as 
the oxidizer; which while effective at removing the iron and manganese, 
does have the problem of forming disinfection byproducts.
    Based upon preliminary review of the water quality in the wells of 
rural users in the proposed service area it indicated that the majority 
of them do not have access to the quality of water needed for a healthy 
existence. One of the wells, in the project area, serves Garfield 
County School District No. 15 and it shows that the sodium level is 447 
parts per million (ppm) which exceeds the recommended level of 250 ppm, 
the fluoride is 3.35 ppm which exceeds the recommended level of 2 ppm 
and it has 1049 ppm of total dissolved solids which is over twice the 
recommended level of 500 ppm. This well and the other private wells are 
not regulated by National Drinking Water Standards but the detrimental 
effects of the water on their users are not any less because they are 
not regulated. The treatment of water in a private well is costly and 
sometimes complicated depending on what is in the water. A regional 
rural water system will allow the rural user to have access to a 
reliable, safe, high quality water supply. The public water systems in 
the service area are regulated by Drinking Water Standards and must 
treat the water they provide to their user to these standards. The use 
of a membrane type water treatment facility (reverse osmosis or nano-
filtration) are not typical systems found in smaller towns, but due to 
the limited alternatives to remove the regulated contaminates 
(fluoride) Circle, Richey and Lambert were forced to use this energy 
intensive system that requires a high pressure pump to force the water 
through a membrane in order to remove the contaminates. The 
requirements for safe drinking water are getting more stringent every 
year and these increased regulations equal increased costs to all 
public water systems. A small system that currently treats their water 
such as Circle, Richey, Fairview and Lambert will be greatly impacted 
financially for even minor modifications needed to meet new drinking 
water treatment standards.
    These costs will be in treatment, distribution and operator 
certification costs. The Town of Jordan currently does not treat its 
ground water source but does provide disinfection by means of 
chlorination. The Town of Jordan, like other public drinking water 
systems, must publish an annual drinking water report and following is 
an excerpt from the latest report: ``We're pleased to report that our 
drinking water is safe and meets federal and state requirements. 
However, as many of you know, although our water is labeled as safe to 
drink under the Safe Drinking Water Act, some of the unregulated 
parameters affect the taste and may affect the health of a limited 
population. The concerns are sodium and the total dissolved solids in 
the water. The sodium level is high enough that people with high blood 
pressure may want to consider a separate source of drinking water. The 
total dissolved solids are high enough to have a laxative effect on 
people that have not become conditioned to the water. We are aware of 
these problems with our source of drinking water, but have been unable 
to find a solution that is financially feasible.'' The drinking water 
standards for sodium and total dissolved solids will be addressed in 
future regulations and the Town of Jordan will need to address these 
regulation changes and the costs that will be associated with meeting 
those new regulations. By belonging to a regional water system these 
small systems will be part of a larger user base, so future 
improvements will not have as great of financial impact to the 
individual user. In the proposed regional water system there is one 
source of water treatment which will replace 5 existing central water 
treatment systems. This will greatly reduce the costs, improve 
efficiency and effectiveness in the delivery of safe water to all area 
users.The installation of a single conventional water treatment plant 
will greatly reduce the energy consumption utilized in the treatment 
process since the 3 energy intensive reverse osmosis system will be 
retired. Another benefit of the regional water treatment facility is 
the reduced volume of wastewater generated during the treatment 
process. A reverse osmosis facility must reject 35% to 50% of the water 
that comes into it to remove the fluoride and sodium down to acceptable 
levels. This reject water must be stored and treated in the Town's 
wastewater system which in Richey, Circle and Lambert causes storage 
problems. A conventional water treatment plant will waste 5% to 10% of 
the incoming water to clean the filters of the contaminants removed 
during the treatment process. Unlike the waste stream from a reverse 
osmosis treatment facility that has high concentrations of sodium, 
fluoride and other deleterious chemicals the waste stream from the 
surface water plant can be placed in a settling pond and after a period 
of 2 to 3 weeks over 80% of the waste water could be reused for 
irrigation or stock watering. The landowner that is selling the land 
for the proposed water treatment facility has expressed a great 
interest in being able to utilize this water. A regional water system 
also mitigates the potential negative impacts of migration from one 
small community. For example, if 15 users leave Richey that is 10% of 
their user base, but if Richey joins the Dry-Redwater project and 
Richey loses 15 users; it is less than 1% of the total user base.
                             town of circle
    The Town of Circle has a municipal water distribution system which 
consists of 2 deep (1,500 ft) water wells, an elevated 50,000 gallon 
water storage tank, a 250,000 gallon on-ground water storage tank and a 
reverse osmosis water treatment plant with a 50,000 gallon clearwell. 
The Town has experienced heterotrophic bacterial growth in their wells 
that has required extensive rehabilitation work and replacement of one 
well. This bacterial growth is starting to build up on a second well 
and in several years will become problematic and will require 
replacement. This well screen problem is chronic and is on going. The 
current groundwater raw water supply is over the Maximum Contaminant 
Level (MCL) established in the Safe Drinking Water Act for fluoride and 
above the secondary limit for sodium. The Town of Circle must remove 
these contaminants and since conventional treatment processes won't 
remove fluoride they must utilize an energy intensive reverse osmosis 
treatment process. If the current treatment process has mechanical 
problems the Town would be forced to put water into the distribution 
system that is a documented health hazard. The Town of Circle will 
benefit in the long term by connecting to the Dry-Redwater. The 
uncertainty of the life of their wells, the cost to replace a well 
(over $150,000) and the cost to treat the water are all items that 
strengthen their commitment to this project.
                             town of jordan
    The Town of Jordan has a municipal water distribution system which 
consists of 2 water wells and a 200,000 gallon on-ground water storage 
reservoir. There is no treatment of the water but it is disinfected by 
being chlorinated. The quality of the water exceeds many of the 
secondary limits, such as sodium and total dissolved solids, of the 
amendments to the 1996 Safe Drinking Water Act. The potential for 
increased regulation of the groundwater rule (GWR) and disinfection by 
products rule would cause an additional cost to each user in Jordan in 
order to be in compliance with the rule. The Town of Jordan will 
benefit from the Dry-Redwater project by having a water supply that is 
treated to the most current water quality standards and delivered at a 
consistent volume and pressure.
                             town of richey
    The Town of Richey has a municipal water system that consists of 
two deep water wells ( 1400 ft), an on-ground 100,000 gallon steel 
water storage reservoir and a reverse osmosis water treatment facility. 
The raw water source for Richey is identical to Circle in that exceeds 
the MCL for fluoride and the secondary limits for sodium so that is why 
the Town of Richey also utilizes the energy intensive reverse osmosis 
treatment process. If the current treatment process has mechanical 
problems the Town would be forced to put water into the distribution 
system that is a documented health hazard. The water treatment facility 
reduces the levels of each contaminant to below the limits. The Town of 
Richey will benefit from inclusion in the Dry-Redwater project since 
its current raw water source is in violation of the drinking water 
standards if not treated and the current system has a fairly high cost 
to operate when compared with conventional treatment. The replacement 
costs of membranes and increased electrical costs in the future will 
also make connecting to the regional system more economical.
                lambert county water and sewer district
    Lambert County Water and Sewer District has a central water 
distribution system. This unincorporated town has two deep water wells 
( 1,200 ft), a 50,000 gallon on-ground steel water storage tank and a 
nano-filtration (membrane) water treatment facility. The water supply 
exceeds the MCL for fluoride and exceeds the secondary limit for sodium 
that is why the District utilizes an energy intensive nano-filtration 
treatment process. If the current treatment process has mechanical 
problems the Town would be forced to put water into the distribution 
system that is a documented health hazard. The District will benefit 
from connection to the Dry-Redwater for the same reasons as Circle and 
Richey.
                                fairview
    The Town of Fairview draws its water from two wells approximately 
240 feet deep. The central distribution system has a 100,000 gallon 
elevated water storage tank and a 300,000 gallon on-ground steel water 
storage tank. The ground water source is high in tannins, lignens, iron 
and manganese. The Town utilizes an iron and manganese removal process 
and gas chlorine for disinfection. The Town has recently received a 
notice from the Montana Department of Water Quality that they had a 
test for haloacetic acids (HAAS) and total trihalomethanes (TTHMs) 
(disinfection by product contamination) that exceeded the limits set by 
the Safe Drinking Water Act. The Town is now studying and determining 
what changes in their disinfection process they need to make to meet 
the Disinfection by Products Rule. The high organic content of their 
raw water is a significant factor in the creation of the by products. 
The Town of Fairview will benefit greatly by receiving its water from 
the Dry-Redwater Regional Water Authority system.
                            new rural users
    New users would include rural residents who have not had the 
opportunity to be connected to a high quality treated source of water 
as provided by a regional water system. These residents use individual 
wells for domestic and agricultural needs, haul water from other 
sources or purchase bottled water for drinking purposes. The water 
quality varies greatly throughout the project area but generally has 
levels exceeding the U.S. EPA Secondary Health Standards with high 
levels of total dissolved solids, hardness, sulfates, sodium, iron, 
manganese and areas of high fluoride. The majority of these wells are 
constructed in glacial till materials typical of the project area, 
resulting in wells which have varying abilities to provide a sufficient 
quantity and adequate quality of water supply. The cost to install new 
water well has been determined, based on information provided by NRCS, 
to be over $90 / month when you factor in the replacement cost of the 
various components of a well system. The box on the next page shows how 
this cost was determined:

          Drill and case well: $35.00/ft average depth 200-250 ft Cost: 
        $7,000-$8,750. If a well lasts 15 years the monthly cost is 
        $39.00 to 48.00 per month.
          Pump and Motor: $1,000.00 If a pump lasts 5 years the monthly 
        cost is $16.70.
          Control pit/pressure tank: $2,800 with a 15 years life has a 
        monthly cost of $15.60.
          Annual stock well electrical base rate is $240.00 per year or 
        $20.00/month before electrical use.
          The cost to run electricity to a new well site is $17,160.00/
        mile or $3.25/ft. This cost was provided by McCone Electric.
          For a new well that already has electric service the monthly 
        costs before any water is pumped is $91.30 to $100.30.

    When you have bad groundwater to start with, treatment doesn't 
improve its quality, it only reduces some of the chemical components to 
meet regulation standards, and this does not necessary mean the water 
is free from taste and odors. Second, maintaining the individual 
systems does not address the benefits of providing a firm water supply 
that protects the communities against future drought. The individual 
user also relies on a well pump and small pressure tank to provide 
water, and when the power is out they lose the ability to access their 
domestic water source. The regional system will have storage tanks that 
will pressure the system and backup power systems.
    From a regulatory aspect a regional water system has significant 
benefits. At the present time, there are six different regulated public 
water systems within the region that are part of the Authority. Meeting 
regulatory requirements of the Safe Drinking Water Act must be 
currently demonstrated by each system. When a rule changes, all those 
systems must react to the change individually. Many of the systems 
serve small municipalities or county water districts, some with fewer 
than 150 connections, there is a reduced capacity on their part to 
maintain and operate a water system. That means that the Montana 
Department of Environmental Quality is perennially facing problems with 
compliance issues in these smaller public water systems. A regional 
water system would provide one point of regulation for all of the 
member systems. If a rule were changed, it would only affect one 
treatment plant and due to economies of scale, a regional system can be 
upgraded and operated at a higher level of oversight and management at 
a smaller per user cost than smaller individual municipal water supply 
systems. An increased degree of compliance can be expected from a 
regional water system which further assures the water users of a safe 
and reliable source of water.
                              the project
    The effort began in 2002 with a steering committee of volunteers, 
with the Dry-Redwater Regional Water Authority becoming a legal entity 
in 2005. The Dry-Redwater has enjoyed strong support from the local 
people and the State of Montana. Currently about 50% of the households 
in the area, which is in excess of 3,100 hookups, have already paid a 
`good intention' fee to show their financial commitment. Over $59,000 
of locally raised funds have been put toward the project and thousands 
of hours of volunteer efforts have helped move the proposed regional 
water system forward. The State of Montana thru the Department of 
Natural Resources has committed $350,000 to the studies and 
organizational efforts of the project to date. The Montana Department 
of Commerce provided $40,000 of CDBG funds and the Federal Economic 
Development Administration provided $40,000 used to help pay for the 
completed feasibility study. This current investment of over $489,000 
does not include the thousands of hours of volunteer time and effort.
    The project as conceptualized will consist of 1,220 miles of 
pipeline, 38 pump stations and 20 major water storage reservoirs. It is 
projected to cost $115,116,000. By working together, the communities in 
the area can more efficiently provide affordable safe and reliable 
water to people in the project area. The water for this project will be 
obtained from the Dry Arm of Fort Peck Lake near Rock Creek. The 
water---approximately 3,500 acre feet, of the 18 million acre feet 
available---will be leased from the Corp of Engineers. The in-take and 
conventional treatment facility will be located at North Rock Creek on 
the Dry Arm of Fort Peck Lake. The process to find a location for the 
intake facility was done as a joint effort with the Corp of Engineers 
and the Charles M. Russell National Wildlife Refuge.
    The feasibility study and addendum, completed in 2007, and as well 
as significant public participation in over 20 public meetings show 
that the need for safe and reliable water is a priority for the area's 
residents. The project is financially feasible given the funding 
packages used by the rural water systems in Montana and in comparison 
to rural water system costs in our three state region of Montana, South 
Dakota and North Dakota. The completed feasibility study includes 
preliminary engineering analysis of the system. The Dry-Redwater has 
also completed some preliminary cultural and environmental reviews. 
There are no fatal flaws found in these preliminary studies which 
included contacts with State, Federal and Local officials on NEPA 
compliance.

                         PROPOSED RATE STRUCTURE
------------------------------------------------------------------------
                                              Bulk            Rural
------------------------------------------------------------------------
Base                                    $24.50           $24.50
------------------------------------------------------------------------
Water Treatment/Pump                    $1.80 / 1000     $1.80 / 1000
------------------------------------------------------------------------
Pipeline Maintenance                    **               $1.21 / 1000
------------------------------------------------------------------------

      

                      PROPOSED FINANCING STRUCTURE
------------------------------------------------------------------------
                                                                75%
------------------------------------------------------------------------
Grant from Federal Government                                $86,337,000
------------------------------------------------------------------------
Grant from TSEP                                              $14,389,500
------------------------------------------------------------------------
Loan Required                                                $14,389,500
------------------------------------------------------------------------
Annual Debt Service (40 yrs, 4.5%)                              $776,000
------------------------------------------------------------------------
Annual Loan Reserve                                              $77,600
------------------------------------------------------------------------
Annual Operation & Maintenance WTP / Booster Station            $710,000
------------------------------------------------------------------------
Annual Operation & Maintenance / Pipelines                      $212,000
------------------------------------------------------------------------

      

                        TYPICAL MONTHLY USER RATE
------------------------------------------------------------------------
                                                              Study
                                                       -----------------
                                                         8,000    5,000
------------------------------------------------------------------------
Rural/City User                 Base Rate (minimal)      $24.50   $24.50
                                Water Treatment/         $14.40    $9.00
                                 Booster
                                Pipeline Maintenance
                                 or
                                Water Maintenance Fee     $9.68    $6.05
                                                       -----------------
                                    Total Monthly        $48.58   $39.55
                                 Bill:
------------------------------------------------------------------------

      
    The median household income for the service area is $28,917 and 
using a 1.6% factor estimating a reasonable cost of water the average 
monthly rate is calculated at $38.55. The rates proposed for the Dry-
Redwater shows that utilizing the typical rural water funding package 
the project is affordable to the users. The cost to the rural residents 
of $39 to $48 a month is significantly less than $90 to $100 for 
operating a rural well.
    Dry-Redwater has been working closely with the Billings office of 
the Bureau of Reclamation (Reclamation) to move the project thru its 
brand new process as stipulated in the Rural Water Supply Act of 2006, 
and as expressed in the Interim Final Rules. However, given the 
investment made in time and money and the fact that the system's 
authorization bill was introduced by Senator Baucus in 2008 and again 
now as Senate Bill 637, it has been agreed by the Authority Board and 
other supporters of the regional concept that the project must move 
forward. In April 2009 Reclamation finally provided the Dry-Redwater a 
preliminary draft outline of the requirements for the Appraisal 
Investigation and Report under the Rural Water Supply Act of 2006. The 
Dry-Redwater Feasibility Study and addendum completed in 2007 will 
substantially satisfy the requirements of Appraisal and Investigation 
Report as provided by the Reclamation Billings office. The 2007 
Feasibility Report is being reformatted into reclamations required 
format and will be submitted to them by the end of August. It has 
always been Dry-Redwater's intent to work with Reclamation to advance 
our project. Thus the request for Congressional Authorization of the 
project was considered the correct and timely process, as the system 
planning has reached a point beyond which it cannot easily move 
forward, without the ability to work formally with Reclamation, U.S. 
Fish and Wildlife and other federal agencies.
    The Engineers that completed our study made the following finding 
in our feasibility efforts. ``Based upon preliminary review of the 
water quality in the wells of rural users in the proposed service area 
it indicated that the majority of them do not have access to a quality 
of water needed for a healthy existence.''
    Many area residents are not served by any public water system. Due 
to the limited availability and poor quality of groundwater, these 
residents must haul their own water. The available water supply fails 
to meet water quality standards and poses real health risks to the 
area's population.
    By working together all of the communities in the area can better 
provide affordable good quality water to all of the people. Currently, 
the primary source of drinking water in our service area is 
groundwater. It is generally of very poor quality and quantity. The 
drinking water in most groundwater wells in the area exceeds the 
secondary standards and in some cases are four times the recommended 
EPA standards. Water quality problems are exacerbated by water supply 
issues and because of the general lack of good quality groundwater; 
most of the area's larger public water systems use expensive energy 
intensive treatment methods to produce clean water. The positive health 
benefits of good quality drinking water will without a doubt be a 
tremendous benefit to the area citizens and to the overall economy of 
the region.
                           economic benefits
    A dependable supply of water is essential to ongoing efforts to 
attract new businesses and people to this primarily agricultural based 
frontier area of Montana in order to provide for future economic 
growth. In addition to long term benefits, the regional water project 
will provide an immediate economic boost for eastern Montana. Assuming 
labor costs for the project at 25 percent of the total construction 
budget, the project will generate approximately $30 million in wages. 
These construction dollars will provide a much needed stimulus to the 
regional economy of McCone, Garfield, Dawson, Richland, Prairie 
Counties and the statewide economy.
    The Dry-Redwater's service area has many natural resources that 
could be developed to help the United States become more self reliant 
when it comes to energy. The area has tremendous resources in water, 
ground to grow crops for bio-fuels, one of the nation's largest on 
shore oil reserves in the Bakken Formation Oil Field, the largest 
lignite coal reserve in the United States and a huge potential for wind 
farm development. There are a number of energy related projects that 
have been and are proposed within the Dry-Redwater service territory. 
An example is a nationally important oil transmission pipeline known as 
the TransCanada Keystone XL project will pass through the area. A good 
source of safe and reliable water supply is critical infrastructure to 
support the development of any of these nationally important energy 
sources.
    The regional pipeline will provide one of the key resources that 
enterprising businesses and people look for when they locate in an 
area--a safe water supply. Ranch/farm operations will benefit from the 
stock water available through the system. This will immediately improve 
their bottom line, as increased weight gain can be achieved with higher 
quality water. Efforts to diversify the agriculturally based economy 
with tourism, wildlife enhancement, hunting, fishing, dinosaur 
discoveries, outdoor recreation has been somewhat successful but a high 
quality water source will help its development to improve recreation 
facilities owned by the COE, the State of Montana and the counties of 
the Dry-Redwater Service area. This project will not resolve all of the 
economic problems that eastern Montana faces; however, it will serve as 
a cornerstone to future success upon which the people in the area can 
build.
    Finally and perhaps most importantly, we believe the health 
benefits of safe water will help save the citizens by reducing water 
related medical problems and thus decreasing medical costs. A rural 
resident L. Taylor from McCone County stated ``that her doctor told her 
not to drink their water as they attributed their well water to her 
numerous bladder infections''.
                           alternate sources
    The Dry-Redwater Regional Water Authority has studied possible 
alternatives to supply water to the region. The option of updating the 
six existing public water supply systems to comply with the Safe 
Drinking Water Act was rejected due to the high cost and multiple water 
sources to test and monitor. The use of additional groundwater sources 
was also investigated. This option was not feasible because there is 
very little groundwater physically available in the quantity needed, 
and the groundwater that is available is of very poor quality and would 
require an expensive treatment process. Of all the alternatives 
reviewed, the proposed regional water project found that utilizing the 
high quality surface water found in the upper Missouri River basin 
proved to be the best. The water impounded in Fort Peck Lake provides a 
very dependable water supply while offering the lowest capital project 
and life-cycle costs to treat and deliver water to the end user. The 
cooperative efforts of the USACOE staff at Fort Peck and the staff of 
the CMRNWR provided an excellent location for the intake structure that 
is in a deep water portion of the lake and will have minimal impacts on 
the wildlife found in the refuge.
    A water treatment plant, using conventional filtration, will be 
located near the intake in the Dry Arm of Fort Peck Lake near North 
Rock Creek. The water will be treated to meet both the primary and 
secondary requirements of the Safe Drinking Water Act standards. A 
series of transmission pipelines will provide water to smaller 
distribution lines belonging to the area's public water supply systems 
and to the rural users. The regional water system will take advantage 
of the infrastructure of the existing distribution systems. When 
completed, the regional water system will provide a safe and dependable 
water supply for over 15,000 people. Water will be provided to all or 
parts of six counties which includes an 11,100 square mile area.
    Without the proposed centralized water treatment plant, most of the 
participating systems would be required to build new or to 
significantly upgrade existing high energy use, water treatment plants 
as the Safe Drinking Water Standards are made more stringent. The low 
population densities and limited income potential in eastern Montana, 
individual communities will not be able to afford own and operate their 
own water treatment plants. A central water treatment plant will allow 
these existing systems to economically meet both the current and future 
requirements of the Safe Drinking Water Act and continue to provide 
their users with safe, reliable and affordable water.
    The estimated total project cost is $115.1 million. The Bill 
proposes the federal share of the construction to be 75 percent. The 
Dry-Redwater Regional Water Authority will be responsible for the cost 
of operating, maintaining and repairing the overall system.
    There are distinct benefits of a regional water system:

  <bullet> Communities will not absorb the costs of upgrading numerous 
        smaller water facilities to keep up with water quality 
        standards.
  <bullet> A greater number of regional system users helps defray the 
        cost of good water for every individual in the area.
  <bullet> This system will provide jobs, not only during construction, 
        but also for ongoing operation and maintenance.
  <bullet> Economic and community development opportunities with the 
        ability to attract businesses and people that need a reliable 
        water source are greatly enhanced.
  <bullet> Total water and energy consumption by all communities will 
        be substantially less than if each community provides water 
        treatment.
  <bullet> A dependable, high-quality drinking water sources provides 
        an incentive for business and industry to consider relocation 
        to eastern Montana.
  <bullet> Reduction in chemical usage and cost as a result of 
        increased crop spraying efficiency.
  <bullet> Rural area fire protection capacity
  <bullet> Increased property values
  <bullet> An alternative water sources for livestock.
  <bullet> Safe and reliable household drinking water to improve the 
        health and existence of the people.

    Many people in eastern Montana presently do not have a reliable 
source of high quality water. The proposed regional water system will 
provide water to an area historically afflicted by water supply and 
quality problems. The positive health benefits of safe household 
drinking water is critical to the well being of the people of eastern 
Montana and will provide the required infrastructure for the regions' 
and State's economy. We ask this subcommittee's support in passing this 
important legislation to protect the health, social and economic future 
of our region.
    Thank you again for the opportunity to testify in support of the 
Dry-Redwater Regional Water Authority. I would be pleased to answer any 
questions.

    [Graphs and additional tables have been retained in subcommittee 
files.]

    Senator Cantwell. Thank you, Mr. Kasten.
    We will turn to Mr. Garfield for his testimony, and when we 
are finished with all the witnesses, then we will go to our 
questions.
    Mr. Garfield.

    STATEMENT OF RYAN GARFIELD, CHAIRMAN, TULE RIVER TRIBE, 
                        PORTERVILLE, CA

    Mr. Garfield. Yes, ma'am. Thank you, Chairwoman Cantwell 
and fellow members of the subcommittee. My name is Ryan 
Garfield. I am currently the Chairman of the Tule River Tribe 
of Tulare County, California. We thank the subcommittee and its 
staff for the opportunity to provide testimony in support of S. 
789, the Tule River Tribe Water Development Act.
    Prior to becoming the Chairman of our tribe, I served in 
the United States military for 11 years. I am a husband and 
father of 3, with one on the way. In these capacities, I have 
served my community and my country.
    Today I come before the subcommittee to humbly request 
assistance of the United States Government in resolving an 
issue that has plagued my community for over 125 years, that 
issue being the lack of adequate water supply to meet the basic 
needs.
    There are over 900 people living on the reservation. 
Although the poverty rate of the reservation is higher than 
counties surrounding us, we are a proud people and we work 
diligently every day to improve the well-being of the 
community.
    Over 30 years ago, we identified the need to secure a 
reliable water supply in order to build a strong community 
where we could grow and prosper. We are proud to inform the 
subcommittee that in September 2007, we developed a settlement 
agreement that secures us a reliable water supply.
    Today we are here to discuss S. 789, which is the first 
step in the implementation of the settlement agreement. It 
authorizes a feasibility and suitability study of constructing 
a storage reservoir, outlet works, and a water delivery system 
to our reservation. The storage reservoir is the cornerstone of 
the settlement agreement as it provides the tribe with the 
water supply without disrupting non-Indian water users 
downstream.
    In order to understand the importance of this bill, please 
allow me to share a bit of history of the Tule River people. We 
are descendants of the past Yokuts Indians, a large group of 
Native Americans who occupied the San Joaquin Valley in 
California for thousands of years prior to contact with 
settlers. Following California becoming a State in 1850, 
Congress refused to ratify 18 treaties negotiated with 
California tribes, including our treaty, the Treaty of Paint 
Creek.
    In 1856, a small reservation, the Tule River Farm, was 
established on prime San Joaquin Valley farmland in Tulare 
County. The location of this original reservation was 
purposefully selected by the Government to provide the tribe 
with good farmland and water resources necessary to establish a 
self-sufficient homeland for our people.
    Within a few years, however, the reservation was stolen 
from us under fraudulent circumstances by two Federal agents, 
and this I still cannot understand today because back in that 
time, men were supposed to stand behind their word. You know, 
their word was their bond, and I still cannot understand that 
today why that happened.
    In January 1873 President Grant issued an executive order 
creating a new reservation for the Tule River Tribe to which we 
were forcibly removed to the reservation located on the western 
slope of the Sierra Nevada Mountains east of Porterville, away 
from our cultivated fields on the reservation to land not 
suitable for agriculture. The reservation includes most of the 
South Fork Tule River water basin. For over 125 years we have 
lived on that reservation.
    In 1922, the non-Indian farming community entered into an 
agreement with the Secretary of the Interior that limited the 
ability of the tribe to divert water. Although we had some of 
the most senior rights to the water source, we were not made 
party to the agreement. Water, to which we had a meritorious 
claim, was appropriated and we were left without a secure water 
supply for the reservation.
    Over the past 100 years, we have watched our non-Indian 
neighbors build family fortunes off the land and water that was 
fraudulently taken from us while we have struggled to provide 
basic human needs, such as water and homes, schools, jobs, and 
community infrastructure.
    Some days when I was young--I came from a good family and 
my mother and my father both worked, and some days we would run 
out of water for days. When school come up Monday, I would have 
to make the decision, which is the cleanest dirty clothes I had 
to wear to school that day. It was frequent. I thought about it 
a lot and I just wondered how some of the elders at that time 
made it. But I am sure it was rougher for them in the earlier 
days. So I had to deal with it.
    Although we have relied upon this history to inform us, we 
have not allowed it to imprison us. Instead, we began 
evaluating our water supply to determine how we could best meet 
the future needs.
    Our current water supply consists of limited groundwater 
and springs. These sources have barely managed to serve the 
current needs of the tribal community and reservation. We will 
need a larger supply to build more housing, fight fires, 
develop community and economic infrastructure so desperately 
needed on our reservation.
    We have completed several technical studies and spent 
roughly $1.1 million Federal and tribal dollars that have 
concluded the tribe will not and could not meet its current 
long-term water needs without the construction of at least one 
reservoir on the reservation.
    Given that our reservation sits at the headwaters of the 
South Fork Tule River, it made perfect sense to build a water 
storage unit to capture most of the high flows of the river 
when downstream users were not diverting those flows.
    To quantify our rights, we decided the best strategy was to 
negotiate with our downstream neighbors and the Federal 
Government. After 10 years of negotiations, we are very proud 
of the settlement agreement we have reached. I will point out 
the fact that we avoided the cost delays and disruptions of 
water litigation, and I am very proud of that fact and I think 
my water team deserves recognition for that fact.
    The cornerstone of this agreement is the construction of a 
water storage project that will enable us to meet our current 
and future domestic, commercial, municipal, industrial, and 
agricultural needs without disrupting the current water uses of 
the South Fork Tule River.
    This bill is the first step in enabling the tribe to bring 
water to the land in sufficient quantities to make our 
reservation a viable homeland now and in future years.
    I would like to take this time to thank the subcommittee 
for the opportunity to express the Tule River Tribe's support 
of S. 789, and I would also like to notify the committee that 
this bill had passed the House 417 to 3.
    In closing, I would like to ask that my testimony and 
supporting materials* be made part of the record of this 
hearing.
---------------------------------------------------------------------------
    * Supporting materials have been retained in subcommittee files.
---------------------------------------------------------------------------
    I or my associates at this time would be happy to respond 
to any questions that you may have.
    [The prepared statement of Mr. Garfield follows:]
   Prepared Statement of Ryan Garfield, Chairman, Tule River Tribe, 
                       Porterville, CA, on S. 789
                              introduction
    Good afternoon Chairwoman Maria Cantwell and fellow members of the 
Committee. My name is Ryan Garfield, and I serve as the Chairman of the 
Tule River Tribe. I am a graduate of Citrus High School, Porterville 
California, Class of 1993. After graduation, I joined the military, 
where I served for 11 years, 4 months and 2 days and achieved the rank 
of Sergeant E5. While in the military I was a UH-60 tactical transport 
helicopter repairer/crew chief/ and gunner. I was stationed overseas in 
Giebelstadt Germany, were I participated in operation K-FOR (Kosovo 
stabilization force) in Balkans, along with numerous training missions 
throughout Europe and Tunisia Africa from 1997-2000. In 2004 I was 
deployed to Kandahar in the Southern province of Afghanistan, where I 
flew over 500 combat flight hours and completed countless missions in 
support of Operation Enduring Freedom. I returned in April of 2005 and 
was honorably discharged from the service in October of that same year. 
Currently, I am married with three children and one more to arrive in 
the coming months. In these capacities, I humbly serve my community and 
Country as a tribal leader, soldier, father and husband. I come before 
you today to respectfully request the support of the United States 
government in securing a permanent water supply for the Tule River 
Reservation.
    I send greetings and best wishes from all the members of the Tribal 
Council. We are very grateful for the expeditious scheduling of this 
hearing on 5.789, the Tule River Tribe Water Development Act. We also 
appreciate the opportunity to appear before the Subcommittee on Water 
and Power of the Senate Committee on Energy and Natural Resources to 
present testimony supporting S. 789. This bill authorizes funding 
necessary for the Secretary of Interior to conduct a study on the 
feasibility and suitability of constructing a storage reservoir, outlet 
works and a water delivery system on our Reservation in Tulare County, 
California. S. 789 is consistent with, and an effectuation of the 
United State's trust responsibility to Indian tribes, to protect and 
advance their reserved water rights under the Winters doctrine. Winters 
v. United States, 207 U.S. 564 (1908).
    For over ten years the Tribe has negotiated with the 
representatives of the Departments of Interior and Justice, including 
Interior's Bureau of Reclamation, and local water interests represented 
by the Tule River Association and the South Tule Independent Ditch 
Company. In September 2007 the Tribe and the local water users signed a 
settlement agreement which embodies the shared goals and visions for 
the future of the community of parties who live together in the South 
Fork Tule River watershed. The agreement provides a stable water supply 
for both Indians and non-Indians relying on the South Tule River. This 
settlement is unique--indeed, it is one of the very few Indian water 
settlements ever achieved without a Tribe or the United States, on its 
behalf, filing litigation to enforce its federal water rights. Once the 
settlement is fully carried out, the Tribe will join other Indian 
nations in the United States, by turning its ``paper'' federal reserved 
rights to water from the South Fork Tule River into actual ``wet'' 
water. We anticipate that this settlement agreement will also be 
considered in the forthcoming months for Congressional approval. The 
Tule River Water Development Act is the first step in implementing that 
settlement agreement and it will enable the Tribe and its neighbors to 
complete the necessary technical background work to bring the final 
settlement agreement to life. We ask the Subcommittee to favorably and 
swiftly mark-up and pass S. 789 on to the full Committee.
 the struggle of the tule river tribe to secure a sustainable homeland
    Prior to discussing the temis of the bill, I would like to briefly 
educate the Subcommittee about the history of the Tule River Tribe and 
Reservation, to help illustrate the need for The Tule River Water 
Development Act in our community. I have also attached a two-page 
historical timeline which chronicles our efforts to secure a 
sustainable homeland with the necessary water supplies. (Exhibit A.)
    The Tule River Reservation is the homeland of the Tule River Tribe. 
We are descendants of the Yokuts Indians, a large group of 
linguistically-related people who occupied the San Joaquin Valley in 
California for thousands of years prior to contact with Euroamerican 
settlers. Following the discovery of gold, and California statehood in 
1850, there was enormous pressure on Congress to reject the 18 treaties 
negotiated with the several hundred Indian tribes found there. Congress 
succumbed to this pressure and in 1852 rejected these 18 treaties, 
including the Treaty of Paint Creek of June 3, 1851, signed by leaders 
from our Tribe. In 1853, however, Congress established the 
Superintendency of Indian Affairs in California, to relocate Indians to 
reservations. In 1856, the California Superintendency established our 
reservation pursuant to the 1853 authority, on approximately 2,240 
acres of prime San Joaquin Valley farmland in Tulare County. The land 
was transected on the southwest corner by the mainstem of the Tule 
River. It included part of what is today the eastern portion of the 
City of Porterville. The location of this original Reservation was 
purposefully selected by the federal government to provide our Tribe 
with the arable land and water resources necessary to establish a self-
sufficient homeland for its people. Upon being promised this land as 
our homeland--ostensibly forever--we built homes and began to actively 
cultivate crops.
    Despite our relative prosperity in those years, two of the federal 
Indian agents assigned to reservations in the area nonetheless saw fit 
to capitalize upon the distance and ignorance of the Indian officials 
in Washington, D.C. Thomas Madden, a federal Indian agent assigned to 
the neighboring Tejon Indian Reservation, applied for and was issued a 
land patent under fraudulent circumstances to 1,280 acres of the Tule 
River Reservation land from the State of California. Four years later 
under a similar arrangement a land patent for 1,160 acres of Tule River 
Reservation land was issued to Mr. John Benson, another Indian Agent. 
These two state land grants encompassed all of our Reservation lands. 
The federal government was fully aware that these lands were expressly 
reserved to us, but it made no effort to challenge the Madden and 
Benson land grants. Because the lands had been set aside for the Tribe, 
the State of California, had no legal basis upon which to issue the 
patents. The land transfers were also a violation of the federal Trade 
and Intercourse Act, which expressly prohibited Indian agents from 
having ``any interest or concern in any trade with the Indians.'' 
Rather than setting aside the issuance of these patents, the federal 
government actually paid rent to Messrs. Madden and Benson for at least 
a dozen years to enable my ancestors to continue farming what was in 
actuality our land.
    Gradually, over the years, hostility increased between the Indian 
farmers and the settlers in the area. In response to the tension, and 
rather than enforcing our rights to what should have been our 
Reservation land, in January 1873, President Grant issued an Executive 
Order creating a new reservation for the Tule River Tribe. It was 
comprised of mostly mountainous lands located about fifteen miles to 
the east of our original Reservation. The Tule River Indians and the 
Indian agent protested the removal; as the new lands would be difficult 
to cultivate. The Indian agent, J.B Vosburgh, stated ``The new 
reservation is not suited to the wants of the Indians for whose benefit 
it has been set apart, if the intention be, as heretofore, to teach 
them to become self supporting by means of agriculture, the soil of the 
reservation being insufficient both in quantity and quality for their 
need.'' He further requested that the government inquire into the 
legality of Madden and Benson land patents and, if necessary, requested 
the federal government to purchase the property from them for the 
benefit and use of the Indians. However, no such action was taken, and 
our people were forcibly removed from their homes and cultivated 
fields.
    The removal was very hard on our people. The new Reservation, 
though it contained 48,000 acres, was determined by the federal agents, 
based on the knowledge and technology of the time, to have scarcely 100 
acres of arable land. Even that land was deemed by the agents to be of 
poor quality, and thought to be able to support only six families--far 
below the needs of our people. An Indian agent reported, ``Year by year 
our number has decreased by death and removal, until now there are only 
143 Indians, embraced in 30 different families, residing on the 
reservation.'' Our situation was so dire that, in response, President 
Grant, in October 1873--just 9 months after the initial Executive 
Order--signed another Executive Order almost doubling the Reservation's 
size to 91,837 acres. Again, very little of these additional lands was 
deemed by the federal agents to be suitable for agriculture, and the 
few acres which were proven arable were coveted or settled by settlers, 
and history repeated itself. In August 1878, President Hays issued an 
Executive Order reducing the reservation back to the January 1873 size.
    For over a century, then, we have lived on the Reservation 
established in 1873, a mountainous land where, because of the failure 
of the United States to provide adequate water storage and irrigation 
facilities, we have been unable to fully reap the benefits of the 
agricultural homeland promised to us through the original 1856 
Reservation. The Tule River people are a proud people, and I tell this 
story not to complain or to blame anyone for these past injustices. 
They do, however, argue that now is the time for the United States to 
help begin the healing process through the enactment of S. 789. S. 789 
is the first step in enabling the Tribe to bring water to our lands in 
sufficient quantities to make our new homeland--a viable homeland now 
and forever.
              the modern-day tule river indian reservation
    Today, our current Reservation includes about 58,000 acres. The 
reservation is located in south-central California, approximately 75 
miles south of Fresno and 45 miles north of Bakersfield in Tulare 
County. The Reservation is situated on the western slope of the Sierra 
Nevada Mountains, east of Porterville, and lies almost entirely within 
the South Fork Tule River drainage basin. The topography is generally 
steep, with elevations ranging from about 900 to 7500 feet above sea 
level. Most of the inhabited land is along the lower reach of the South 
Fork Tule River on the western side of the Reservation. The Reservation 
is drained by the South Fork Tule River. The South Fork Tule River 
flows into the Tule River at Success Reservoir, at a distance of about 
ten miles west of the Reservation. There are no significant uses of 
water upstream of the Reservation. (Exhibit B.)
    The estimated average annual flow of the South Fork Tule River at 
the western boundary of the Reservation is 34,100 acre-feet per year, 
with a probability of 23,000 acre-feet over 50% of the time, and 11,800 
acre-feet available over 80% of the time. Surface water supplies 
consist of the flow available from the South Fork Tule River and its 
tributaries on the Reservation, while underground supplies consist of a 
groundwater aquifer and springs. The groundwater sources barely serve 
the current needs of the Tribal community on the Reservation. There are 
growing concerns about the long-term reliability of these sources, both 
in terms of quantity and quality. The hydrology of the South Fork is 
similar to most western rivers in that the flows are generally much 
higher in the spring months than the rest of the year, other than 
occasional high water events following rainstorms. The hydrology of the 
South Fork is also marked by periods of drought during which the entire 
flow of the river is significantly reduced long periods of time, 
sometimes spanning several years. These two general characteristics are 
depicted on the two graphs attached to this testimony. (Exhibit C.)
    The injustices and inequities of the past are still present and are 
still affecting our people. We have been plagued with unemployment and 
mortality rates substantially higher, and a standard of living 
substantially lower, than is experienced by the surrounding non-Indian 
communities. While the on-Reservation socio-economic conditions have 
improved over time, as recently as 1999, the estimated poverty rate on 
the Reservation was still 50% higher than Tulare County as a whole. To 
this day, the Reservation residents generally continue to suffer from a 
relatively low standard of living in substantial part due to the 
absence of an adequate and reliable potable water supply and system.
    contemporary negotiations to secure a reliable source of water 
                             for the tribe
    To address the inter-related issues of lack of water and resulting 
economic, political and social limitations facing the Tribe, we have 
spent several years assessing its future water needs for domestic, 
commercial, municipal, industrial and agricultural purposes. We 
concluded that, in view of existing uses downstream of the Reservation, 
the Tribe could not meet its water needs, especially over the long-
term, without the construction of a reservoir or reservoirs on the 
Reservation. Given that our Reservation sits at the headwaters of the 
South Fork Tule River, it made perfect sense to us to build a water 
storage project to capture the high flows of the river when downstream 
users were not capturing or using those flows.
    We approached the solutions to our problems with the attitude that 
we wanted to work with our downstream non-Indian neighbors. Too often--
in the more typical situation where a general stream adjudication is 
commenced--the Indian and non-Indian interests are pitted against one 
another. By reaching out to our neighbors and respecting their needs 
while seeking solutions to our own, we were able to avoid the costs, 
delays and disruptions of water rights litigation. We entered into 
negotiations with interested parties seeking to establish the Tribe's 
reserved water rights through an agreement settling our federal 
reserved water rights claims.
    For 10 years, the settling parties have diligently negotiated the 
terms of a settlement agreement which, upon Congressional approval, 
will finally establish the federally reserved water rights of the Tule 
River Tribe. In 2007, a settlement agreement was signed. The agreement 
includes the quantity of the Tribe's reserved water right, the Tribe's 
rights to use water both on and off the Reservation, and the operating 
rules of on-Reservation storage reservoirs, including the near-term 
Phase I Reservoir primarily intended to serve municipal and domestic 
water needs. We are very proud of the settlement agreement we have 
reached, which allows the South Fork Tule River water users to continue 
their historic uses while providing the Tribe with a firm water supply, 
primarily for its domestic, commercial, agricultural and municipal 
needs.
    The remaining major issue prior to submitting the settlement 
agreement to Congress is securing the support of the Department of the 
Interior, and the Administration, to authorize and fund the 
construction, operation and maintenance facilities anticipated by the 
settlement agreement and to compensate the Tribe for releasing water 
related claims against the United States. To date we have not heard if 
the new administration will support the settlement agreement or S. 789. 
Two years ago Congress considered H.R. 2535, a bill that authorized the 
feasibility study and appropriated funding for the study. The previous 
Administration opposed it claiming it was premature because the 
settlement agreement had not been signed and was too expensive. We were 
disappointed that after ten years of federal involvement and commitment 
to resolving my community's water issues that we were left standing 
alone in the final hour. But we are hopeful that the new administration 
will support S. 789 and the forthcoming settlement legislation. We are 
please that Mr. Michael Connor has been appointed as the Commissioner 
of the Bureau of Reclamation, as he was a instrumental in establishing 
our federal negotiation team assigned to us over ten years ago. We know 
that individuals like him understand that the federal government 
created several of our water related problems, as was previously 
explained, and that the federal government has an obligation, as our 
trustee, to help us resolve these issues. We look forward to working 
with Mr. Connor and his colleagues to move the settlement legislation 
forward in a timely fashion.
    All the parties to the settlement agreement are anxiously waiting 
its implementation. Lack of federal support for the past two years has 
delayed any progress. The delay is now harming the day to day life of 
people living on the Tule River Reservation. Unfortunately, the 
problems created by a lack of a viable water supply have increased 
since the beginning of the negotiations. Families living on the 
Reservation do not have consistent running water in their homes and are 
forced to collect buckets of water from the South Tule River for 
cooking, drinking and cleaning Water supplies in local schools have 
been dramatically reduced causing increased illnesses and creating 
cleanliness issues. Problems stemming from an unreliable water supply 
will continue to increase absent the implementation of the settlement 
agreement. The people of the Reservation can wait no longer to have 
access to a clean, reliable water supply. They too deserve what every 
American should have--a sanitary water supply to grow their crops, feed 
their families and provide a clean safe home.
 s. 789 lays the foundation for moving forward with the settlement of 
               the tule river indian tribe's water rights
    Moving to the terms of the bill under consideration today, S. 789 
authorizes the Secretary of Interior to conduct a study on the 
feasibility and suitability of constructing a storage reservoir, outlet 
works, and delivery system on the Reservation. S. 789 also authorizes 
the appropriation of $3 million to the Bureau of Reclamation to fund 
the study. The House passed H.R. 1945, S. 789's counterpart in May of 
2009. The storage facility feasibility study is the most recent step in 
a several-decades-long effort by the Tribe to secure both title to and 
quantification of its federal reserved water rights, and to actually 
deliver ``wet'' water to our members for domestic, agricultural, 
municipal, commercial and industrial purposes. Notably, the eventual 
construction of a water storage project will enable us to meet our 
needs without disrupting the current water uses of the South Tule 
River.
    As part of our lengthy and detailed negotiations with our neighbors 
and with the United States spanning the past decade, we commissioned 
technical studies of the South Fork Tule River watershed within our 
Reservation boundaries. This analysis by the firm of Natural Resources 
Consulting Engineers of Ft. Collins, Colorado and Oakland, California, 
led us to the present site of a proposed water storage project at the 
confluence of Cedar Creek and the mainstem of the South Fork Tule 
River. The site of the proposed project, and the existing and proposed 
expansion to the Tribe's water service area, are depicted on the map 
marked as Exhibit D. The Bureau of Reclamation has reviewed this work 
and found that the dam site was acceptable.
    The analysis we have commissioned to date, while rigorous and 
thorough, is not sufficiently detailed to support and justify a final 
decision to authorize and appropriate federal funds from which to 
initiate actual construction activities. Thus, the authority and 
funding delivered through S. 789 would enable the Tribe, acting in 
concert with the Department of the Interior and its Bureau of 
Reclamation, to ensure that this Cedar Creek site is the optimal site 
at which to build the project.
    Although S. 789 is a separate bill from the larger settlement 
legislation that will be forthcoming, it is the first step toward 
implementing the final settlement agreement. While the study is under 
consideration we will be working to pass the authorizing settlement 
agreement legislation. The parties to the settlement agreement and 
indeed, the people whose water needs will be met through this agreement 
have worked to hard and for too long to delay any longer.
    As previously mentioned, Congress considered H.R. 2535 in 2007, a 
bill that authorized a feasibility study and appropriated $3 million to 
complete the study. This bill was virtually identical to S.789. We had 
secured resolutions in support of H.R. 2535 from the National Congress 
of American Indians and the Southern California Tribal Chairman's 
Association. Copies of the resolutions of these organizations are also 
attached to my testimony to be made a part of the record. (Exhibits E 
and F.) We had also secured letters of support from the City of 
Porterville, CA; the Tulare County, CA Board of Supervisors, the Tule 
River Association and the South Tule Irrigation Ditch Company in 
support of H.R. 2535 and we believe these documents are being made a 
part of the record of this hearing. We were also able to secure letters 
of support for S. 789 from the Tule River Association (Exhibit G) and 
the South Tule Irrigation Ditch Company (Exhibit H) which we understand 
were submitted directly to the committee and are to be made a part of 
the record. We submit the letters and resolutions to demonstrate 
unanimous support for the feasibility study and appropriations to 
complete the study.
                               conclusion
    It is now time for our federal partners to join us in securing a 
brighter future for the Tule River Tribe and its people by supporting 
S. 789. The House overwhelmingly passed H.R. 1945. We respectfully 
request that the Subcommittee follow suit by swiftly marking up and 
passing S. 789 to the full Committee. I thank the Subcommittee for the 
opportunity to express the Tule River Tribe's support of S. 789.
    In closing, I would ask that my testimony and supporting materials 
be made a part of the record of this hearing by unanimous consent.
    I, or my associates here at the witness table with me, would be 
happy to respond to any questions which the members of the Subcommittee 
might have.

    Senator Cantwell. Thank you, Mr. Garfield, and we will make 
the accompanying information a part of the record.
    We are going to turn to Mr. Sullivan now to give his 
testimony, and then, as I said earlier, we will go to questions 
for each of you. Mr. Sullivan, thank you for being here.

STATEMENT OF JOHN F. SULLIVAN, ASSOCIATE GENERAL MANAGER, WATER 
             GROUP, SALT RIVER PROJECT, PHOENIX, AZ

    Mr. Sullivan. Thank you, Madam Chairwoman Cantwell and 
Ranking Member Brownback and members of the subcommittee. Thank 
you for the opportunity to testify in support of S. 1080. My 
name is John Sullivan, and I am the Associate General Manager 
for the Water Group at the Salt River Project, or SRP, as we 
are known.
    Beginning with the construction of Roosevelt Dam in the 
early 1900s and our continuous management of the Salt River 
Federal Reclamation project since 1917, SRP has had a good 
working relationship with the Bureau of Reclamation that has 
allowed effective water management and environmental 
stewardship for nearly a century. This relationship continues 
today as we operate and maintain the seven dams and reservoirs 
and hundreds of miles of canals and pipelines that now make up 
the project.
    The C.C. Cragin Dam, reservoir, and pipeline are located 
within the Coconino and Tonto National Forests in northern 
Arizona. In 2004, as part of the Arizona Water Settlements Act, 
Congress authorized Reclamation to assume title of the Cragin 
facilities so that it could be managed as a part of the Salt 
River Federal Reclamation project and primarily used for 
municipal drinking water in the town of Payson and in the 
Phoenix metropolitan area.
    However, the Cragin pipeline has numerous serious leaks 
that need immediate repair to be suitable for the use as a 
reliable drinking water source. Since 2004, we have been 
working with the Bureau of Reclamation and the United States 
Forest Service on these repairs and other operational needs of 
the project. From the beginning, it was clear the Bureau and 
Forest Service disagreed about who had responsibility for 
approving operation, maintenance, and repair of the facilities. 
This bill clarifies that since C.C. Cragin project is now being 
operated as a component of the Salt River Federal Reclamation 
project, the Bureau of Reclamation is responsible for approval 
of operation and repair activities just as it does with all the 
other components of the Salt River Project located on lands 
within the national forests.
    This clarification does not relieve either the Bureau or 
SRP from compliance with all requirements of Federal law and 
has no cost to the Federal Government.
    The jurisdictional dispute with the Forest Service has now 
extended over 4 years and has resulted in dueling approval 
requirements causing delays and increased repair costs. In 
addition, the Town of Payson was recently approved for an 
allocation of some $10.6 million from the State of Arizona's 
stimulus grant money to assist in paying for repairs to their 
share of the pipeline and other related projects. Any major 
delays could place a portion of those stimulus funds at risk.
    SRP has effectively operated and maintained six Reclamation 
dams and reservoirs within the Tonto National Forest for 
decades. Throughout this time, we have worked collaboratively 
with the Bureau and Forest Service to ensure proper management 
of the land and water resources, and the relationship has been 
extremely successful. We operate under a three-party agreement 
in the Tonto National Forest.
    Despite this record of success, the current circumstances 
have created an inefficient and costly process that leaves us 
beholden to two separate Federal agencies. As I have mentioned, 
S. 1080 will not relieve SRP or the Bureau of Reclamation from 
any obligation under Federal law. It would simply make our 
rehabilitation efforts and future operations more certain and 
efficient by clarifying which agency has jurisdiction for 
approving work.
    In Commissioner Connor's testimony today, he mentioned that 
the two agencies would be happy to sit down and try and work 
out some type of an agreement. I would just say we would be 
happy to do that, but we have already been working on that for 
4 years, and I think the committee may want to set some pretty 
strict timelines for the two agencies to get this done.
    Madam Chairwoman, members of the subcommittee, I want to 
thank you for this opportunity to testify before you today, and 
I would be happy to answer any questions.
    [The prepared statement of Mr. Sullivan follows:]
  Prepared Statement of John F. Sullivan, Associate General Manager, 
        Water Group, Salt River Project, Phoenix, AZ, on S. 1080
    Chairwoman Stabenow, Ranking Member Brownback, and Members of the 
Subcommittee,
    Thank you for the opportunity to testify in support of S. 1080, A 
Bill to Clarify the Jurisdiction of the Secretary of the Interior with 
Respect to the C.C. Cragin Dam and Reservoir, and for Other Purposes. 
My name is John F. Sullivan. I am the Associate General Manager, Water 
Group, of the Salt River Project (``SRP''), a large multi-purpose 
federal reclamation project embracing the Phoenix, Arizona metropolitan 
area. S. 1080 will simply clarify that since the C. C. Cragin Project 
is now being operated as a component of the Salt River Federal 
Reclamation Project, the Bureau of Reclamation is responsible for 
approval of all operation, maintenance and repair activities as is the 
case with all of the other federal reclamation projects, including all 
of the other Salt River Project facilities located on lands within the 
boundaries of the National Forests in Arizona. This clarification does 
not relieve either the Bureau or SRP from compliance with all 
requirements of federal law and has no cost to the federal government.
    SRP is composed of the Salt River Valley Water Users' Association 
(``Association'') and the Salt River Project Agricultural Improvement 
and Power District (``District''). Under contract with the federal 
government, the Association, a private corporation authorized under the 
laws of the Territory of Arizona, and the District, a political 
subdivision of the State of Arizona, provide water from the Salt and 
Verde Rivers to approximately 250,000 acres of land and the raw water 
that serves over 2 million residents in the greater Phoenix area. Over 
the past century, most of these lands have been converted from 
agricultural to urban uses and now comprise the core of metropolitan 
Phoenix.
    The Association was organized in 1903 by landowners in the Salt 
River Valley to contract with the federal government for the building 
of Theodore Roosevelt Dam on the Salt River, located some 80 miles 
northeast of Phoenix, and other components of the Salt River Federal 
Reclamation Project. SRP was one of the first multipurpose projects 
approved under the Reclamation Act of 1902.
    Today, SRP operates six dams and reservoirs on the Salt and Verde 
Rivers in the Gila River Basin, one dam and reservoir on East Clear 
Creek in the Little Colorado River Basin, and 1,300 miles of canals, 
laterals, ditches and pipelines, groundwater wells, as well as numerous 
electrical generating, transmission and distribution facilities. The 
seven SRP reservoirs impound runoff from multiple watersheds, which is 
delivered via SRP canals, laterals and pipelines to municipal, 
industrial and agricultural water users in the Phoenix metropolitan 
area. SRP also operates approximately 250 deep well pumps to supplement 
surface water supplies available to the Phoenix area during times of 
drought. In addition, SRP provides power to nearly 900,000 consumers in 
the Phoenix area, as well as other rural areas of the State.
    S. 1080 concerns the C.C. Cragin Project, which is located within 
the Coconino and Tonto National Forests in northern Arizona. The C.C. 
Cragin Project consists of a number of facilities including a 147-foot 
high dam, 15,000 acre-foot reservoir, diversion tunnel and pump shaft, 
pumping plant, priming reservoir, a10 mile long pipeline, electrical 
transmission line, and small generating plant which supplies power to 
the Project's pumping plant. Originally known as Blue Ridge Project, 
the dam, reservoir, and associated facilities were constructed by 
Phelps Dodge in the 1960's to supply water to Phelps Dodge's Morenci 
Mine Complex through a water exchange with SRP. Phelps Dodge was issued 
a certificate of water right by the State of Arizona for the Blue Ridge 
Reservoir to effectuate this exchange. In 2005, Phelps Dodge no longer 
needed the Blue Ridge Project for the exchange and consistent with the 
existing exchange agreement with SRP, Phelps Dodge transferred 
ownership of all of the Blue Ridge Project facilities to SRP. On June 
8, 2007, the Arizona Department of Water Resources approved the 
transfer of the water right for the reservoir to SRP for municipal, 
irrigation and other beneficial uses within the Salt River Federal 
Reclamation Project.
    In 2004, at the urging of SRP and with support from Phelps Dodge 
and the U.S. Bureau of Reclamation, and as part of the Gila River 
Indian Community Water Rights settlement, language was included in 
Section 213(i) of the Arizona Water Settlements Act, Public Law 108-
451, 118 Stat. 3478, 3532, authorizing title transfer of the Blue Ridge 
Project from SRP to the Bureau of Reclamation (``Bureau'') to be 
operated and managed by SRP pursuant to its September 6, 1917 contract 
with the Bureau of Reclamation as part of, and for the exclusive use 
and benefit of, the Salt River Project Federal Reclamation Project. 
Section 213 also changed the name from the Blue Ridge Dam and Reservoir 
to C.C. Cragin Dam and Reservoir. On September 30, 2005, SRP officially 
transferred title to the C.C. Cragin Dam and Reservoir together with 
all of its associated facilities, including approximately 77 acres of 
fee land previously owned by Phelps Dodge, to the Bureau.
    In accordance with the 1917 contract with the Bureau and as 
directed by Section 213 (i)(5) of the Arizona Water Settlements Act in 
2005, SRP began operating and maintaining the C.C. Cragin Project. As 
part of its maintenance efforts, SRP identified numerous serious leaks 
present in the existing pipeline needing immediate repair. I have 
attached several photographs showing some of the leaks in the pipeline. 
Not only is the pipeline's integrity important to the general operation 
of C.C. Cragin Project and SRP's water supply for the Phoenix 
metropolitan area, but it also has special significance to the Town of 
Payson and neighboring communities in Northern Gila County who will 
rely on the Project to supply municipal drinking water to their 
residents. As part of this effort, the Town of Payson was recently 
approved for an allocation of $10.6 million from the State of Arizona's 
American Recovery and Reinvestment Act (ARRA) stimulus grant money to 
assist in paying for the repairs to the pipeline and other water-
related projects.
    Once SRP began working with the Bureau of Reclamation and the 
United States Forest Service on repairs and other operational needs for 
the C.C. Cragin Project, it became evident that the Bureau and the 
Forest Service disagreed as to who had responsibility for approving the 
requested operation, maintenance and repair functions associated with 
the Reclamation Project. The Forest Service asserted that the Bureau 
needed to obtain a special use permit from the Forest Service prior to 
Project operation by SRP and that all maintenance and repairs needed 
prior approval by the Forest Service. The Bureau and SRP maintain that 
under the terms of the Arizona Water Settlements Act, the C.C. Cragin 
Project is just like all of the other Salt River Federal Reclamation 
Project facilities located on Forest Service land. On those facilities, 
jurisdiction over approvals of work plans, maintenance, repairs, 
environmental compliance, and other permitting associated with Project 
operation and maintenance belongs to the Bureau, while jurisdiction 
over recreation, fire suppression and some additional management 
aspects is with the Forest Service. Not only is this approach 
consistent with the other Salt River Federal Reclamation Project 
facility agreements among the Bureau, the Forest Service and SRP 
applicable to the other six SRP dams and reservoirs located on National 
Forest lands in Arizona, it is also consistent with the existing 
approach for Reclamation Projects across the western United States 
pursuant to a 1987 Memorandum of Understanding between the Departments 
of Agriculture and Interior. I have attached a copy of this Memorandum 
of Understanding to my testimony.
    Although SRP and the Bureau have attempted to resolve the 
jurisdictional dispute with the Forest Service over the past four 
years, such efforts have been unsuccessful. Despite the direction of 
section 213 of the Arizona Water Settlements Act and the 1987 
Memorandum of Understanding between the Departments of Agriculture and 
Interior, the Forest Service has insisted on having ultimate approval 
authority for the operation, maintenance, and repair work necessary for 
the C.C. Cragin Project, notwithstanding that these facilities are 
components of the Salt River Federal Reclamation Project. Meanwhile, 
the resulting dueling approval requirements between the two Departments 
have delayed and created uncertainty in planning much needed repairs to 
the Cragin facilities, increased repair costs, and placed a portion of 
the Town of Payson's $10.6 million stimulus grant at risk.
    The bill before you, S. 1080, would withdraw from entry and 
disposition approximately 512 acres of National Forest lands which 
comprise the Cragin Project and clarify that the Secretary of Interior 
shall have exclusive jurisdiction to manage the Cragin Project on these 
lands in accordance with the terms of section 213(i) of the Arizona 
Water Settlements Act. In managing the Cragin Project, the Secretary of 
Interior and SRP are required to ensure the compliance of their 
activities with all applicable federal laws, including regulations. The 
Secretary of Interior is authorized to enter into a contract with the 
Secretary of Agriculture to undertake the management of recreation, 
wildland fire activities, public conduct and law enforcement, cultural 
and other resources, and any other appropriate management activity, 
provided that the management of these activities does not conflict 
with, or adversely affect, the operation, maintenance or repair of the 
Cragin Project as determined by the Secretary of Interior. In addition, 
the employees of the Department of Interior and SRP are authorized to 
use all necessary roads under the jurisdiction of the Forest Service to 
carry out the operation, maintenance and repair of the Cragin Project 
without the necessity of obtaining any permit or license from the 
Forest Service. In summary, S. 1080 would clarify the jurisdiction over 
C.C. Cragin Project which would allow the needed pipeline repairs to 
proceed under the Bureau of Reclamation's oversight and in compliance 
with all applicable laws.
    Chairwoman Stabenow and Members of the subcommittee, thank you once 
again for the opportunity to testify before you today. I would be happy 
to answer any questions.

    [Graphs and additional documents have been retained in subcommittee 
files.]

    Senator Cantwell. Thank you, Mr. Sullivan.
    Let me start back with Mr. Kasten on the S. 637. Your 
testimony indicated that there was an urgent need. You did a 
good job of describing what was going on in the community. You 
also indicated that you have been working with the Bureau of 
Reclamation. I am sure you heard their testimony earlier. So 
what do you think needs to happen to be successful in working 
with the Bureau on this project?
    Mr. Kasten. Madam Chair, we have been working informally 
with the Bureau of Rec from the very beginning of this project, 
and we want to and will work with the Bureau. We are working 
really right now to prepare to reorganize the studies that we 
have done to fit within the informational requirements that 
have been preliminarily asked of us. But we are stuck in the 
middle. We have spent much time and 7 years of time and much 
money.
    Our completed feasibility study followed the same processes 
used by federally funded projects since 1985, like the North 
Central Rural Water in North Dakota and the recent Fort Peck 
and Dry Prairie projects in Montana. Our feasibility is a full 
analysis of all the alternatives and payment abilities, and in 
our opinion meets the Bureau of Rec's preliminary draft 
guidelines that we just received here in April 2009.
    The Bureau has told us that they are really not ready to 
implement the Rural Water Act and are frustrated also, and they 
want us to wait and go through the new process, even though the 
rules are not final and they are not quite exactly sure when 
they will be.
    The Dry-Redwater we believe should not be penalized for 
following a proven process in good faith, and given that the 
Bureau has no process in place to comply with yet in the Rural 
Water Act, Senator Baucus introduced our bill in 2008, the same 
bill that is here today, S. 637, and we really believe that the 
delay and the uncertainty and the unnecessary costs related to 
that are not what the people need. Good water is what we need.
    Senator Cantwell. You indicated that there has been a good 
amount of money--I think you said $500,000--that has already 
been basically gathered from local interested parties. What is 
the local plan to pay for the portion of the project?
    Mr. Kasten. Thank you, Madam Chair.
    The funding mechanisms that we are proposing are the same 
that have followed the other rural water systems in the State 
of Montana and North Dakota, as far as we understand, 75 
percent Federal cost share, 25 percent State.
    The State of Montana is very committed to rural water. We 
have only two projects in the State which were the first two. 
This would be the third. I know that we are going to work to 
probably move to try and do this for all of the people of 
Montana at some point in time.
    Right now today, we have over $180,000 committed from the 
State to be used for our efforts in the next 2 years, 18 months 
to be exact. Governor Schweitzer and the State of Montana and 
the legislature have been very strong in its support. Just this 
past legislative year, they passed a new program that is 
starting with $15 million that will be set aside for regional 
water development with one requirement, that the project is an 
authorized project. Those moneys can be used.
    Authorization is the next reasonable step in the process 
that we have--the journey we have taken for safe water.
    Senator Cantwell. Thank you. I will come back to you in a 
minute.
    I want to turn to Chairman Garfield. Thank you for your 
compelling testimony.
    You have said that the planning for this project has been 
underway for 10 years.
    Mr. Garfield. Yes, ma'am.
    Senator Cantwell. The settlement has not been agreed to. I 
mean, it has been agreed to by many people except for the 
United States. So why is it important to move forward on the 
feasibility study before you have the negotiations with the 
United States Government completed?
    Mr. Garfield. Our feasibility study--our reservation is 
placed on a fault line, and for the feasibility study, we want 
to make sure that when we do put a reservoir up, it is in a 
spot adequate for a reservoir to avoid catastrophic incidents 
such as earthquakes.
    Actually, Mr. Paul Homay, my assistant right here, would 
probably be best to answer that question for you, ma'am.
    Senator Cantwell. OK. Is there a non-Federal cost share 
requirement associated with the feasibility study or 
settlement?
    Mr. Garfield. Could you repeat that question please?
    Senator Cantwell. Is there a non-Federal cost?
    Mr. Garfield. Non-Federal cost? No, ma'am.
    Senator Cantwell. So the United States is going to be 
responsible for 100 percent?
    Mr. Garfield. Yes, ma'am. As far as I know, the Federal 
cost is waived for tribes, ma'am, and as far as I know, the 
United States Government has a fiduciary responsibility to the 
Tule River Indian Tribe, which is a federally recognized tribe.
    Senator Cantwell. Will there not be some non-Indian water 
users who will benefit?
    Mr. Kasten. There is some non-Indian water users. As a 
matter of fact, this came up in numerous meetings. They are 
still saying today that they really receive no benefit of us 
getting our water rights quantified. That is coming from the 
South Tule Independent Ditch Company and the Tule River 
Association.
    Senator Cantwell. So I think we will probably have to have 
some follow-up on that. Are those the only beneficiaries that 
you know of, other non-Indian beneficiaries to the development 
of this?
    Mr. Garfield. Yes, ma'am.
    Senator Cantwell. Mr. Sullivan, your testimony indicates 
that one of the goals of the legislation is to provide a 
uniform system of management. Obviously, you have had this 
ongoing dispute that stopped this from moving forward. Would 
agreements involving the Forest Service still be necessary even 
if this legislation is enacted. If 1080 is enacted, do you 
still need that cooperative agreement?
    Mr. Sullivan. Madam Chairwoman, actually the legislation 
contemplates an agreement, much like the agreement we already 
have with the Tonto National Forest. So there would be a 
memorandum of an agreement that outlines the relationships 
where there is an interface between the two agencies. But it 
would provide for decisionmaking by the Bureau of Reclamation 
related to the operations and maintenance of those facilities 
that the Bureau owns and controls.
    Senator Cantwell. What would the form of that be moving 
forward?
    Mr. Sullivan. We would hope it would be very similar to the 
agreement we already have with the Forest Service and the 
Bureau of Reclamation for the 6 dams that we operate on the 
Salt and Verde River systems. There is already an agreement 
that was executed back in the 1970s that for some reason the 
National Forest does not want to use for the C.C. Cragin 
project, even though it is part of the Salt River Federal 
Reclamation project.
    Senator Cantwell. What do those agreements entail?
    Mr. Sullivan. They usually define the area that makes up 
the Federal Reclamation project. So it describes metes and 
bounds within which the Bureau of Reclamation would do 
environmental assessments and would make decisions related to 
maintenance activities by Salt River Project under its 
agreement with the Bureau to operate the Federal Reclamation 
project.
    It also deals with land issues that may come up from time 
to time between the Forest Service and the Bureau of 
Reclamation. They could be related to recreational use of 
rights-of-way, forest fire fighting, those types of 
responsibilities. Those issues are dealt with in this 
memorandum.
    Senator Cantwell. Thank you.
    Mr. Kasten, back to your talking about local plans and 
participation. Have those been approved by the local 
government's participation in the cost of the project?
    Mr. Kasten. Yes, they have, Madam Chair. We have had, I 
believe, about 28 public meetings over this, and a number of 
those have been with the county commissioners and city 
officials. Our feasibility analysis has been looked at by all 
of them.
    Senator Cantwell. So they have either committed to those 
public funds or taken action to commit to those?
    Mr. Kasten. Yes, but in concept, yet not contractually to 
the project that is still a vision of ours.
    Senator Cantwell. OK, good.
    I want to thank the three witnesses for their testimony 
today. As I said earlier, I am sure we will have more questions 
and information from my colleagues. You are also encouraged to 
submit any additional testimony that you brought today to be 
part of the official record. So thank you for being here and 
for your attention on this legislation.
    This subcommittee hearing is adjourned.
    [Whereupon, at 3:19 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Responses of Ryan Garfield to Questions From Senator Cantwell
    Question 1. The Administration's testimony states that it does not 
support S. 789, in part, because there is no non-federal cost-share 
identified for the proposed feasibility study or the 2007 Settlement 
Agreement. Please explain why you view the cost-share set forth in S. 
789 and the Settlement agreement as appropriate.
    Answer. The project addressed by the feasibility study and the 
Settlement Agreement is not being constructed under traditional federal 
water guidelines. Rather, this project in large part represents a 
resolution of claims by the Tule River Tribe against the United States 
government for breach of its fiduciary duty and trust obligations 
related to water. Thus the funding responsibilities for this project 
fall upon the United States, as has been the case in the two dozen 
other Indian water settlements approved and funded by Congress over the 
past quarter-century. Mr. Alec Garfield, Director of the Tribe's Water 
Resources Department, made these same points in his written response to 
Chairwoman Napolitano of the House Water and Power Subcommittee 
following the September 25, 2007 hearing on H.R. 2535 (a bill similar 
to S. 789). A copy of Mr. Garfield's responses is attached.
    The benefit received by the local non-Indian parties under the 
Settlement Agreement is certainty with regard to the water rights on 
the river, not enhanced water supply. In fact, the proposed water 
project would allow the Tribe to utilize more of its water right, 
thereby decreasing the amount of water that has historically been 
available to other parties. The operation rules of the proposed water 
project do contain some considerations for downstream parties, but 
these considerations are only designed to mitigate project impacts and 
do not provide those parties with additional water supply benefits 
beyond their current rights.
    The Tribe acknowledges that the Settlement Agreement achieves a 
resolution of water rights in the basin, which benefits everyone. 
However, asking for a local cost-share in this situation where there 
are no actual water supply benefits to local parties would be 
unprecedented as far as we are aware. If this Congress and 
Administration are willing to ask local communities to bear a portion 
of the cost, particularly in these severe economic times, that has 
enormous implications for this and all future water settlements.
    Regarding the lack of local cost share in the feasibility study, 
there is nothing in Reclamation law which requires a cost share from 
the constituents in a feasibility study. The cost share is a policy 
which Reclamation has followed for a number of years. However, in every 
case that we know of, Reclamation has waived the cost share when the 
constituent is an Indian tribe--which is the circumstance in this case.
    Question 2. Has the Tule River Tribe shared the technical studies 
that have been prepared regarding the proposed water storage project 
with the Administration? What has the Administration's response been?
    Answer. The Tribe has shared all of its technical studies that were 
developed in support of its settlement with the federal government. 
These studies, performed at a reconnaissance level, include a water 
needs assessment, hydrologic analysis of the South Fork Tule River, 
groundwater investigation, land classification study, damsite 
assessment, biological evaluation of a proposed reservoir project, 
reservoir sizing computer model, Phase 1 water project design and cost 
estimate, and overview of potential damages claims. These studies were 
prepared over the course of several years from 1998 to 2008. The Tribe, 
the BIA and BOR have spent over half a million dollars on these 
studies. To date, the Tribe has not received any formal response to 
these studies from the Administration and only minimal feedback.
     Responses of Ryan Garfield to Questions From Senator Brownback
    Question 1. Please describe the role the United States has played 
in the current water settlement negotiations.
    Answer. The United States was a participant in the Tule River 
Tribe's water settlement negotiations, first in the form of a Federal 
Assessment Team and then later as a Federal Negotiation Team, from 
inception to conclusion. This participation began with the first 
negotiation meeting in 1999 and continued at numerous meetings over the 
next nine years. Members of the Federal Team included representatives 
from the Bureau of Reclamation, Depaitment of Interior Solicitor's 
Office, Bureau of Indian Affairs, and Department of Justice. During 
these meetings, the Federal Team advised the Tribe and other settlement 
parties on the position of the United States with regard to what the 
settlement must achieve, how the settlement would be evaluated in terms 
of costs and benefits, what legal waiver of claim requirements were 
required, how water settlements are typically funded, and other related 
information. The Tribe and other parties were appreciative and 
respectful of this information and it helped shape the ultimate 
Settlement Agreement.
    However, in the final hour the federal team refused to sign the 
settlement agreement, claiming it needed to complete an internal review 
of the damages report and other information prior to taking a position 
on the settlement. It also informed the Tribe that it required 
congressional authorization to become an actual party to the settlement 
and assist in the effectuation of its terms. The team has been dormant 
since 2007 and has not completed its internal review over this two year 
period.
    Question 2. Has the Department of the Interior provided any 
financial or technical assistance to the Tribe to improve water supply 
reliability?
    Answer. The Department of Interior has not provided the Tule River 
Tribe with any financial or technical assistance to directly improve 
water supply reliability of the current water infrastructure. However, 
the Tribe did secure DOI funding during the course of the negotiations 
to help fund its water attorney and technical consultants, gather 
streamflow data, and perform technical studies in support of the 
settlement. Should the Settlement Agreement be implemented and the 
proposed water project constructed, the Tribe's water supply 
reliability will be greatly enhanced. The Tribe has received some 
funding from the Indian Health Service (Department of Health and Human 
Services) to improve its existing water supply and wastewater 
infrastructure. However, these improvements are independent from, and 
not duplicated by, the Settlement Agreement.
    Comment to the Senate Committee on Energy and Natural Resources:

          In our discussions with the Bureau of Reclamation, the Tule 
        River Tribe has discovered that the Administration apparently 
        misunderstands the purpose for the use of the term 
        ``feasibility study'' in S. 789, as well as its companion bill 
        H.R. 1974. It is to not the intent of Tribe, the other parties 
        to the settlement agreement, or our legislative sponsors that 
        the term be interpreted within the context of traditional 
        Reclamation law and policy.
          This unfortunate misunderstanding has the unintended 
        consequence of requiring the Tribe to be bound by over 100 
        years of Reclamation law and policy which was not the Tribe's 
        original intent for the bill--and is not the expressed intent 
        of the bill language.
          While the Tribe has every intention of conducting a study 
        which will meet the clear meaning of the bill language--to 
        study the feasibility and suitability of constructing a storage 
        reservoir, outlet works, and delivery system of 5,000 of of 
        water per year--the broader policies and practices of a 
        feasibility study provided for under Reclamation law and policy 
        envisioned by Reclamation would have the potential effect of 
        frustrating the terms and conditions of the Tule River Water 
        Settlement, and adding unnecessary cost to the study over the 
        $3.0 million provided for in the bill.
          We believe that the current bill language states the 
        necessary and sufficient extent of the proposed feasibility 
        study. Therefore, we recommend that the Committee report, which 
        will accompany the bill, make clear that the feasibility study 
        prescribed in the bill is not a feasibility study as 
        anticipated under Reclamation law and policy, but rather a 
        study to determine the feasibility of the features for the Tule 
        River Water Settlement, as expressly provided in the bill.
                 attachment.--response of alec garfield
                         Tule River Tribal Council,
                             Tule River Indian Reservation,
                                  Porterville, CA, October 8, 2007.
Hon. Grace Napolitano,
Chairwoman, Committee on Natural Resources, Water and Power 
        Subcommittee, 1522 Longworth HOB, Washington, DC.
Re: H.R. 2535, the Tule River Tribe Water Development Act

    Chairwoman Napolitano: My sincerest thanks again to your leadership 
in assisting us in moving H.R. 2535 as swiftly as possible through the 
legislative process. I enjoyed meeting you very much last week and look 
forward to our continued association on this very critical project for 
the Tule River Tribe.
    The following responses are provided to the follow-up questions 
sent electronically to me by Emily Knight, your Clerk, after the 
hearing on Tuesday, September 25, 2007, on H.R. 2535.
    Question 1. Mr. Garfield, will the Tribe be able to afford a cost 
share, to this project?
    Answer. It would be precedent-setting for the Tribe to be asked or 
required to fund a portion of the water storage and related works, 
given that the settlement agreement to be ratified by the Congress, 
once a bill is introduced and enacted for that purpose in the coming 
session of Congress, is in significant part a resolution of the Tribe's 
claims against the United States for failure since 1873 to protect and 
advance the Tribe's water rights recognized under the Winters doctrine. 
The Tribe believes that the funding responsibilities fall upon the 
United States as trustee, and this obligation is clearly borne out in 
the two-dozen other Indian water settlements approved and funded by 
Congress over the past quarter-century.
    Question 2. Is this study necessary in completing the settlement?
    Answer. The settlement agreement is complete; all that remains is 
for the parties to execute the final documents. The completion of the 
feasibility study is absolutely critical to enabling the Interior 
Department and the Congress to have the necessary details on the cost 
of the water storage and delivery facilities which are the cornerstone 
of the settlement agreement between the Tribe and the downstream 
stakeholders. It is this water infrastructure which drives the entire 
agreement, and which forms the basis from which the Tribe and its 
neighbors have been able to fashion a settlement without the necessity 
of contention, expensive and time-consuming litigation.
    Question 3. Is there a signed agreement between the parties, 
including the Federal Team? Why or Why Not? When will this be 
completed?
    Answer. The final settlement agreement will be executed by all of 
the parties in the next 30 days, following formal action by their 
respective governing bodies. The United States has for several years, 
since the appointment of the Federal Team, been a supporter of a 
negotiated resolution of the problem [of a lack of a dependable water 
supply for the Tribe], and in fact has provided funding several times 
to enable the Tribe to perform critical studies. The United States, 
however, told the parties that it could not be a party to and sign the 
agreement without Congressional authorization, which the parties will 
hopefully secure in the coming session of Congress through legislation 
ratifying the agreement and authorizing appropriations for the water 
infrastructure and related purposes. The Tribe has asked the United 
States to continue to review the terms of the agreement, with the 
understanding that in time it would become a party thereto, but the 
Tribe has also made it clear to the United States Department of 
Interior and Justice representatives on the Federal team that it and 
the other signatories to the agreement were proceeding without the 
United States to execute the agreement.
    Question 4. The Bureau testified that the two year window for 
completing this project [is too short, or is insufficient]. How will 
this delay affect the Tribe?
    Answer. The Tribe and its technical consultant believe that two 
years is sufficient time to complete the feasibility study, provided 
that the study is fully funded and that the Tribe is able to administer 
the funding through the P.L. 93-638 process. If the Bureau receives the 
funding and performs the feasibility study, it may take longer than the 
specified two year window. Every year that passes without a new water 
project presents a hardship for the Tribe, in that the current water 
supply is inadequate to serve existing needs during the summer months. 
It also drives up the eventual costs of the project, when finally 
approved, authorized and funded by Congress.
    Question 5. Mr. Garfield, what will the study consists of, and how 
long do you think it will take for the study to be completed?
    Answer. Subjects that we anticipate being included in this 
feasibility study are:

  <bullet> Damsite selection and preliminary dam design (relies on 
        other studies)
  <bullet> Investigation of environmental impacts (including mitigation 
        measures, if necessary)
  <bullet> Archeological study
  <bullet> Geologic analysis (mapping, seismic evaluation)
  <bullet> Geotechnical analysis (foundation testing, drilling, field 
        and laboratory tests, dam materials; soils analysis)
  <bullet> Hydrologic analysis (including flood flow determination)
  <bullet> Hydraulic design (mainly spillway and outlet works design)
  <bullet> Water quality analysis for treatment
  <bullet> Diversion demand analysis
  <bullet> Distribution system design
  <bullet> Design alternatives
  <bullet> Reservoir operation studies
  <bullet> Site civil (evaluation of roadway, drainage, site security, 
        utilities, and recreation facilities associated with the 
        project)
  <bullet> Construction cost estimates

    The estimated time required to complete the feasibility study is 
two years following appropriation of funding.
    Question 6. Are there any state or federal listed species in the 
proposed project area?
    Answer. In 2004, the Tribe hired an environmental consulting firm 
to conduct a preliminary biological resource survey and evaluation of 
the proposed dam project. The findings from this study were:

  <bullet> The proposed project site is not included as designated 
        critical habitat for any federally listed species.
  <bullet> One federal-listed plant, three state-listed plants, and 
        three federal-listed animals (valley elderberry longhorn 
        beetle, California red-legged frog, and southwestern willow 
        flycatcher) have the potential to occur in the project-affected 
        area.
  <bullet> None of these listed species were observed during the 
        biological survey site reconnaissance; protocol-level surveys 
        would likely be required to verify this result in order to 
        comply with federal and state endangered species acts, if 
        applicable.
  <bullet> State or federal species of special concern, including the 
        southwestern pond turtle and several bird species, were 
        observed at the site during field surveys.
    Question 7. How will the Tribe ensure that there will be no adverse 
affects to the environment, and to current, downstream users?
    Answer. Regarding environmental impacts from the proposed project, 
as part of the feasibility study the Tribe intends to conduct protocol-
level environmental surveys of the project area to identify any plant 
and animal species of concern. If necessary, proper mitigation measures 
will be undertaken, which may include transplanting special-status 
plants, seasonal and/or areal work restrictions for certain activities 
adjacent to sensitive sites, fencing, and habitat enhancement. A 
preliminary environmental survey has already been conducted.
    The proposed reservoir will be operated in such a way that there is 
always a minimum flow being released downstream. During the dry part of 
the year, this minimum release is equal to or greater than the 
reservoir inflow. Changes to reservoir releases will be timed in such a 
way that they do not disturb downstream habitat critical for fish 
species.
    Regarding impacts to current downstream users, a primary feature of 
the water rights settlement is that releases from the proposed 
reservoir will be managed in such a way that minimizes any such 
impacts. This is achieved through the reservoir operation rules, which 
essentially call for all low flows to be passed through the reservoir 
instead of being stored or diverted. In addition, the operation rules 
call for the sharing of water during low flow years.
    In closing, I would be happy to address any other questions which 
you, other members of the Subcommittee, or your staff might have.
            Sincerely,
                                             Alec Garfield,
                              Director, Water Resources Department.
                                 ______
                                 
  Responses of the Dry-Redwater Regional Water Authority to Questions 
                         From Senator Cantwell
                        estimated energy savings
    Question 1. Do you have an estimate of the amount of energy 
consumption that could be saved by utilizing the water treatment 
process that is contemplated by the Dry-Redwater Regional Water System 
in consolidating at least five existing treatment systems into one 
system?
    Answer. There are 5 municipal type water treatment systems existing 
within the DRWA service area. All use a pressurized treatment process 
that require pumps to force the water through a treatment medium. The 
proposed surface water treatment system for DRWA utilizes a gravity 
treatment process where a small horsepower pump lifts the raw water up 
to a treatment vessel that filters the water in an open un-pressurized 
manner. Energy consumption on a pressure vs. a non-pressure type of 
system has been determined with the cost to treat and produce 1,000,000 
gallons of finished water, as follows:
    Under a pressure system, the unit has a 300 gallons per minute 
(gpm) input stream through a pressurized filtering system that rejects 
30 gpm of the raw water, for every 300 gallons put in, 270 gallons come 
out. To produce 1,000,000 gallons of finished water the system must run 
62 hours. The pump to pressurize the system is a 10 horsepower (hp) 
which at 62 hours of runtime, which equals 463 kw-hrs. The process 
requires 1,111,600 gallons of raw water to produce the 1,000,000 
gallons of finished water.
    Under a gravity system the unit has a 700 gpm input stream that all 
flows through the treatment system using a filtering system that relies 
upon gravity and settling. To produce 1,000,000 gallons of finished 
water utilizing a non-pressurized system, the facility must run 24.5 
hours. The pump lifting the water into the gravity filters is a 7.5 hp, 
hence the 24.5 hours of runtime equals 137.1 kw-hr. The table below 
summarizes the savings per million gallons of treated water.

             FINAL OUTPUT OF 1,000,000 GALLONS TREATED WATER
------------------------------------------------------------------------
                                  Existing  Pressure   Proposed  Gravity
                                   Filtering  System  Filtering  Surface
                                     Ground Water            Water
------------------------------------------------------------------------
Raw Water Pumped (Gallons)                1,116,000           1,028,000
------------------------------------------------------------------------
Kilowatt Hrs / MG                               463               137.1
------------------------------------------------------------------------
Kwh Savings / MG                                 --             (325.9)
------------------------------------------------------------------------
Kwh % Savings                                    --                70.4
------------------------------------------------------------------------
Water Conserved (Gallons)                        --              83,600
------------------------------------------------------------------------
 MG = Million Gallons

    Estimated annual water use of DRWA is 400 million gallons, thus a 
potential annual savings of 130,360 Kwh.
    Additionally, there exist as many as 40 other Public Water Supply 
Systems and 5000 individual wells for domestic and livestock uses 
within the District Boundaries. The consolidation of individual wells 
along with Subdivision Associations, Multi-Family, Commercial 
Operations, Trailer Courts, Public Rest Areas along with State and 
Federal Recreation Areas would all contribute to energy savings within 
our region.
                    reclamations interim guidelines
    Question 2. What efforts has the Dry-Redwater Regional Water 
Authority taken to meet the requirements of Reclamation's interim 
guidelines for the rural water program? What has the response been from 
Reclamation?
    Answer. Bureau of Reclamation has provided guidance in regards to 
key issues and processes that DRWA undertook and moved the project 
forward. The DRWA followed the general guidance and processes used by 
other rural water projects in the Montana, North Dakota and South 
Dakota region since 1985 that ultimately were Reclamation rural water 
projects. For example scoping meetings, feasibility investigation, 
alternative resources and public education/participation have 
systematically been used to help shape the progress of our efforts.
    The Bureau of Reclamation has initiated a draft of their Appraisal 
Investigation Report guidelines which has just recently been made 
available to us. Within these guidelines is the Section titled 
Suggested Format and Contents which outlines 6 Chapters proposed to be 
part of the document to be submitted for Appraisal. Upon review of the 
Chapters we have found the vast majority of these suggestions have been 
followed by DRWA for the same purposes that the Bureau purports to 
accomplish with the administration of the Rural Water Act of 2006. The 
DRWA Feasibility Study of June 2006 contains 12 Chapters that cover as 
many of the pertinent issues with respect to a rural water project as 
has been foreseen.
    Our response will not delve too deeply into the substance of the 
2006 Study verses the BOR Guidelines; however a cursory review and 
comparison of the proposed guideline's Planning Process and DRWA Study 
Chapters may be helpful as follows:

          BOR Draft Guidelines

                  Planning Process

                          The six steps are:

                                  1) Indentify Problems, Opportunities 
                                and Constraints
                                  2) Inventory and Forecast Resource 
                                Conditions
                                  3) Formulate Alternative Plans
                                  4) Evaluate Alternative Plans
                                  5) Compare Alternative Plans
                                  6) Select Recommended Plan

                          The Submittal for Appraisal would consist of:

                                  Chapter 1, Introduction
                                  Chapter 2, Problems and Opportunities
                                  Chapter 3, Inventory and Forecast 
                                Resource Conditions
                                  Chapter 4, Alternatives
                                  Chapter 5, Consultation and 
                                Coordination
                                  Chapter 6, Conclusions and 
                                Recommendations (includes requirements 
                                from ``traditional planning process'')

          DRWA Feasibility Study 2006

                  Chapter 1, Introduction
                  Chapter 2, Project Resources
                  Chapter 3, Existing Facilities
                  Chapter 4, Need for Project
                  Chapter 5, Permit Requirements & Responsibilities
                  Chapter 6, Preliminary Design
                  Chapter 7, Cultural & Environmental Issues
                  Chapter 8, Project Alternative Cost Estimates
                  Chapter 9, Plan Selection
                  Chapter 10, Public Involvement
                  Chapter 11, Project Financial Plan
                  Chapter 12, Implementation
                  Appendices
                  Executive Summary
                  Addendums

          The cursory comparison of the two documents indicates that, 
        although the process may be changing, the substance required by 
        BOR in evaluating a given project remains intact. The 
        conclusions made from the 2006 Feasibility Study, with respect 
        to the Guidelines, are sound ones that will produce a 
        successful project.
          As outlined above, the Bureau of Reclamation has had 
        knowledge of and input in the DRWA project. Though not 
        discouraging, their ability to perform as intended has been 
        exacerbated by the non-existence of a playing field.
          In 2004, Lenny Duberstein of the BOR was involved in early 
        discussions of a regional water project and attended subsequent 
        scoping meetings in 2006.
          In September of 2007 The Great Plains Office responded to our 
        inquiry of BOR's potential role in our project. The response is 
        in a letter dated September 24, 2007 anticipating the 
        finalizing of administrative rules by the summer of 2008. It 
        must be pointed out that one year has passed since or expected 
        receipt of such rules.
          Stephanie Hellekson of the Bureau's Billings Office attended 
        a Board meeting on October 1, 2007. In the spring of 2009 Ms. 
        Hellekson participated in one of our Board meetings via 
        telecommunications. She was very supportive and indicated that 
        there was a ``parallel process'' that might allow for continued 
        involvement. She also suggested that we expand on our current 
        NEPA Study to include the overall scope of the proposed 
        project. Currently, the Environmental Report Phase for this 
        expanded scope, along with the associated agency comments, is 
        nearly ready to be submitted to the Billings Area Office of the 
        Bureau so the EA process can be initiated. (e-mail 
        correspondence is attached in the Appendix).
          Just prior to our original testimony at the Sub-Committee 
        Hearing on June 23, 2009, the DRWA Washington delegation met 
        with officials of the Bureau. As the Commissioner's testimony 
        at that hearing bears out, the Bureau indicated to us that they 
        would not recommend denial of our request for authorization and 
        that administrative rules are forthcoming. They pointed out the 
        difficulties created by the Bureau's lack of administrative 
        rules for the 2006 Act and that a definitive time frame for 
        completion of such Rules was unknown. At that time DRWA again 
        agreed that we would be happy to work with BOR in whatever 
        capacity they could provide.

    In conclusion to Senator Cantwell' second question, it can be seen 
that the DRWA Project has made every effort to conform to the 
established procedures for such a project with respect to the Bureau of 
Reclamation and that all are in agreement the Project warrants 
attention. The ability of the Project to move forward hinges on its 
becoming a Federally Authorized Project, at which time, we feel, great 
strides will be made.
                                 ______
                                 
  Responses of the Dry-Redwater Regional Water Authority to Questions 
                         From Senator Brownback
                   role of the bureau of reclamation
    Question 1. Please describe the role the Bureau of Reclamation has 
played in assisting your project to date.
    Answer. As can be seen from our response to Senator Cantwell's 
inquiries, Bureau of Reclamation has a large influence upon our 
efforts. Similar rural water projects throughout the region that have 
been administered through the BOR have been our ``road map'' as we have 
navigated through, for example, public scoping meetings, feasibility 
studies, preliminary engineering, costs alternatives, resource 
assessment and environmental concerns. These issues are traditionally 
fleshed out by Bureau Staff in order to assure successful projects. The 
communication with Bureau Staff referred to above signifies their 
involvement with the Project. We did not wish to `reinvent the wheel' 
nor be perceived as an independent water system startup that could work 
outside of the traditional process. Authorization of the DRWA would 
define the playing field and allow for a more intensive communication 
process among all Federal, State and Local agencies.
                 involvement of other federal agencies
    Question 2. What other Federal agencies have you worked with to 
identify both funding opportunities and technical advice to construct 
your facilities?
    Answer. We have been in contact with the US Army Corp of Engineers. 
Their involvement has been three-fold:

          i) A letter from the Corp dated August 30, 2006, the Fort 
        Peck Lake Operations Manager showed their interest in the 
        Project as a potential User. The system would greatly enhance 
        their ability to implement the Charles M. Russell National 
        Wildlife Refuge Enhancement Act of 2000 wherein proceeds from 
        land sales would be made available to the Fish and Wildlife 
        Service Agency for Refuge enhancement.
          ii) A letter dated October 25, 2006 reflects their 
        involvement in the deliberation of where to locate the intake 
        structure for the system. Their input, in part, led us to the 
        current proposed intake location.
          iii) In the letter dated April 29, 2009 the Corps Chief 
        Operations Officer showed no objection to the Project and 
        explained the process for entering into an agreement with the 
        Corp to administer the storage of our proposed 4000 acre feet 
        of water source as they are federally mandated to administer 
        all waters held within the Fort Peck Reservoir.

    The Fish and Wildlife Service has been involved as a review agency 
and also as a beneficiary of a new source of potable water in the 
region. Agency representative (Refuge Manager) was present at a scoping 
meeting with the Corps of Engineers in 2007 as Fish and Wildlife has 
administrative authority over lands proposed for the intake and 
portions of the location of pipelines. In a letter from the Manager 
dated April 23, 2007, their input was supportive and their involvement 
was used to site the Intake and Treatment Plant. Further interaction 
with Wildlife is anticipated with respect to environmental requirements 
(NEPA), Right-of-Way issues and actual construction.
    The U.S. Department of Commerce Economic Development Administration 
(EDA) has provided funds towards planning and administration under a 
potential large economic development project in our area. Great 
Northern Properties, the largest coal mineral holder in the U.S., has 
been working to develop a potential coal gasification facility within 
the area.
    Western Area Power Administration has been involved with the 
language in our Legislation concerning electrical power usage. Our Bill 
contemplates usage of power generated under the Pick-Sloan Act. They 
have shown support for the project and an interest in how we manage the 
power requirements of our system.
    The regional office of the Bureau of Land Management has been made 
aware of our Project in that we will be crossing Federal Lands to 
distribute water. They also may directly benefit from access to potable 
Water.
    We hope that the information contained herein clarifies the issues 
brought forth by Senators Cantwell and Brownback. We are most grateful 
for their interest and are at their disposal during their 
deliberations.
                                 ______
                                 
   Responses of John F. Sullivan to Questions From Senator Brownback
    Question 1. If this is to be completed administratively, what is a 
reasonable timeframe to have it completed?
    Answer. SRP has maintained that they are happy to continue working 
with the Forest Service and the Bureau of Reclamation to resolve their 
dispute over jurisdiction of the C.C. Cragin. However, we have been 
working for a resolution for over 4 years to date, and prior to the 
testimony before your Subcommittee, we hadn't received any follow-up to 
our offers to continue negotiations since January, 2009. An additional 
30 days seems a reasonable amount of additional time to reach an 
administrative solution. At the same time, I feel that a legislative 
solution is the best option in this situation.
    Question 2. Please describe the impact of having this issue not 
resolved on the project.
    Answer. If the Forest Service and Bureau of Reclamation are unable 
to reach an agreement, the continuing disagreement over jurisdiction 
and dueling approval processes will continue to delay work and increase 
costs to SRP and the federal government. In addition, we understand 
from the Town of Payson that any extended delays could jeopardize the 
stimulus funds allocated from the state of Arizona, which will be used 
for repairs to the C.C. Cragin pipeline and other water related 
projects.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

         Questions for Michael L. Connor From Senator Cantwell
 regarding s. 637, dry-redwater regional water authority system act of 
                                  2009
    Question 1. The Administration testified that it has significant 
concerns about S. 637. How does the Administration propose to work with 
Congress to address the Administration's concerns?
    Question 2. Please identify the eight existing rural water projects 
and provide a brief summary of their status.
    Question 3. What is the timeframe for completion of the guidelines 
for the Rural Water Program? Will those guidelines contain guidance for 
determining a project sponsor's capability to pay? How would you advise 
a project proponent to proceed in the absence of completed guidelines?
    Question 4. What is the best way of ensuring an accurate cost 
estimate for a project like the Dry-Redwater Regional Water Authority 
System? Has Reclamation prepared an information assessment of the 
feasibility of the project?
    Question 5. What are the Administration's concerns regarding the 
use of project power from the Pick Sloan Missouri Basin Program for 
non-irrigation purposes? Can the Administration provide suggestions to 
remedy those concerns?
    Question 6. Is Reclamation aware of the April 29, 2009 letter from 
the Department of the Army Corps of Engineers to the Dry-Redwater 
Regional Water Authority regarding the project's ability to withdraw up 
to 4,000 acre-feet of water per year from the Fort Peck Lake? What are 
the Administration's concerns regarding water rights for the project?
        regarding s. 789, tule river tribe water development act
    Question 1. What does BOR think the next steps should be for 
proceeding with the Tule River Settlement and the feasibility study of 
the proposed project? When will BOR be able to complete an appraisal 
level study of the proposed project? When will BOR be able to determine 
what amount of appropriations are necessary to complete the feasibility 
study authorized by S. 789?
    Question 2. Why does the Administration believe that a non-federal 
cost-share partner is necessary for the completion of the feasibility 
study identified in S. 789? How will the Administration determine the 
appropriate level of non-federal cost-share for the feasibility study?
    Question 3. How does the Administration propose to resolve the 
outstanding issues between the Tribe and the federal negotiating team 
regarding the Tule River settlement?
         Questions for Michael L. Connor From Senator Brownback
 regarding s. 637, dry-redwater regional water authority system act of 
                                  2009
    Question 1. Please describe the process you are undertaking to 
develop programmatic criteria for the Rural Water Program. In addition, 
please describe where you are in your assessment of the status of 
authorized rural water supply projects and the role that other Federal 
programs can play in addressing rural water supply issues.
    Question 2. Please describe whether the Dry-Redwater Regional Water 
Authority System would meet your criteria.
    Question 3. Please describe the assistance, if any, Reclamation has 
provided to the water users participating in the regional water 
authority. In addition, what additional assistance can you provide the 
sponsors in helping them complete appraisal and feasibility-level 
studies for their proposed project?
    Question 4. Out of Reclamation's eight authorized rural water 
projects, can you identify the cost share for each project? How many of 
these projects propose or are utilizing project use power from the Pick 
Sloan Missouri Basin Program (PSMBP) for non-irrigation purposes?
    Question 5. Please describe the process that Reclamation undertakes 
to determine a sponsor's capability-to-pay.
        regarding s. 789, tule river tribe water development act
    Question 1. Please describe the role the United States has played 
in settling the water rights claims of the Tule River Tribe.
    Question 2. Has Reclamation provided any assistance to the tribe 
over the last ten years in analyzing their water supply issues? If so, 
what type of assistance has been provided?
    Question 3. Within your statement, you indicate that the type of 
project considered by the tribe would require several years to complete 
with significant costs. Please describe this process and the costs 
associated with completing a feasibility study.
    Question 4. You also indicate in your testimony the need for 
Reclamation to conduct an ``appraisal-level ``analysis of a project 
before moving forward with funding of any feasibility study. As you of 
course know, almost identical legislation was introduced in the 110th 
Congress, yet it appears Reclamation has made little progress in moving 
forward with this analysis. When will your proposed ``appraisal level'' 
analysis be completed?
    Question 5. Please describe how this bill will place a restriction 
upon any project that may be authorized as part of a comprehensive 
water rights settlement, even if the exact feasibility study authorized 
by the bill is never carried out.
                   regarding s. 1080, c.c. cragin dam
    Question 1. What is your anticipated timeframe to resolve this 
issue administratively?
          Questions for Michael L. Connor From Senator McCain
                   regarding s. 1080, c.c. cragin dam
    Question 1. Your testimony indicates that our hearing today will 
``hasten the development of a workable agreement'' between the Bureau 
and the Forest Service. Negotiations between the two agencies have been 
occurring sporadically since 2005. When can the people of Northern Gila 
County expect a final resolution to this matter?
    Question 2. It's been seven months into the new Administration. 
What's the status of interagency negotiations for this year?
    Question 3. In a letter November 27, 2007, from the BOR Phoenix 
Area Office to the Coconino National Forest, the Bureau of Reclamation 
states that pursuant to the Arizona Water Settlements Act: ``we 
continue to hold the view that Forest Service approval for SRP to 
conduct repairs to the water pipeline was not needed.'' Is this still 
the Bureau's position?
    Question 4. Do you think it is necessary to have two federal 
agencies reviewing and approving work on this project?
    Question 5. Does the Bureau of Reclamation feel that they have the 
capability to approve and oversee compliance with federal law on the 
C.C. Cragin project?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

    Colorado River Energy Distributors Association (CREDA),
                                          Tempe, AZ, July 17, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: S. 1453--Amendment to P.L. 106-392

    Dear Chair Stabenow and Senator Brownback: The Colorado River 
Energy Distributors Association (CREDA) represents the majority of firm 
power customers of the Colorado River Storage Project (CRSP). CREDA 
supports passage of S.1453 that provides for continued annual funding 
of the Upper Colorado and San Juan endangered fish recovery programs at 
current levels through fiscal year 2023. This funding is provided by 
CRSP power revenues.
    Continued annual base funding at the currently authorized levels is 
essential for the programs to provide continuing ESA compliance and to 
recover the endangered fish species in the basin.
    CREDA appreciates the Subcommittee's support for this amendment to 
Public Law 106-392.
            Sincerely,
                                              Leslie James,
                                                Executive Director.
                                 ______
                                 
 Statement of Adam J. Gartner, Dawson County Commissioner, Glendive, MT
    I would like to express my support for the Dry Redwater project. 
This project would greatly improve our county's ability to grow 
economically. Our city limits basically ends at the Yellowstone River. 
The area on the west side of the river is a rural developed area called 
West Glendive with a population between two and three thousand. There 
are two subdivision that rely on wells that need storage tanks to 
service the residents which has a high maintenance cost for the county. 
The rest of the residents rely on their own personal wells. In Eastern 
Montana most well water is potable but not acceptable for gardens and 
lawns. The residents are personally responsible for the maintenance on 
their wells. I just had to have a new well drilled due to a collapsed 
wall. This cost me nine thousand seven hundred dollars. The Redwater 
project would allow the West Glendive area to grow with the 
accessibility to the water provided by the project. The water would 
also be much healthier for consumption by residents.
    Please consider supporting this project.
                                 ______
                                 
                          Orchard Mesa Irrigation District,
                                       Palisade, CO, July 14, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
         Natural Resources Committee, 304 Dirksen Senate Building, 
                                                    Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback, I am writing to support 
passage of S.1453 that provides for continued annual funding of the 
Upper Colorado and San Juan fish recovery programs at current levels 
through fiscal year 2023. These highly successful and widely supported 
programs are recovering endangered fish species in the Upper Colorado 
River and San Juan River basins while providing compliance with the 
Endangered Species Act for more than 1,800 federal, tribal and non-
federal water projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    I would appreciate the Subcommittee's support for this essential 
amendment to Public Law 106-392.
            Sincerely,
                                               Max Schmidt,
                                                  District Manager.
                                 ______
                                 
                      South Tule Independent Ditch Company,
                                    Porterville, CA, July 21, 2009.
Hon. Debbie Stabenow,
Chairwoman, Subcommittee on Water and Power, Senate Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
Re: Support of S.789, Tule River Tribe Water Development Act

    Dear Senator Stabenow: I am writing on behalf of South Tule 
Independent Ditch Company in support of Tule River Tribe's efforts to 
secure funding for a feasibility study to determine the design and 
location for a water storage facility on the Tule River Indian 
Reservation. The passage of the Tule River Tribe Water Development Act 
(S.789) will provide this need.
    The Tule River Tribe, Tule River Association and South Tule 
Independent Ditch Company have successfully finalized and executed an 
historic water rights settlement agreement, absent litigation, which 
quantifies the amount of water the Tribe is entitled to receive from 
the South Fork of the Tule River. The parties have worked diligently 
and cooperatively to develop a water rights plan that will provide a 
stable water supply for the Tribe, as well as for its downstream 
neighbors who own water rights that pre-date the 1873 establishment of 
the Reservation. Additionally, the Tribe has committed to honor the 
provisions of a 1922 agreement between South Tule Independent Ditch 
Company and the Department of the Interior, acting in behalf of the 
Tribe, regarding the relative water rights of these two entities. The 
parties are in agreement that the only method to secure a stable water 
supply is for the Tribe to impound water during the high flow season. 
Thus, a significant storage facility will be required to facilitate the 
agreement and supply the rapidly growing demand for water on the 
Reservation.
    We therefore encourage your support for the Tule River Tribe Water 
Development Act (S.789).
    Thank you for your interest and support in this matter.
            Sincerely,
                                          Philip G. Larson,
                                                         President.
                                 ______
                                 
                       The Gunnison Tunnel Project,
            The Uncompahgre Valley Water Users Association,
                                       Montrose, CO, July 20, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC. 20510.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback, I am writing to support 
passage of S.1453 that provides for continued annual funding of the 
Upper Colorado and San Juan fish recovery programs at current levels 
through fiscal year 2023. These highly successful and widely supported 
programs are recovering endangered fish species in the Upper Colorado 
River and San Juan River basins while providing compliance with the 
Endangered Species Act for more than 1,800 federal, tribal and non-
federal water projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    I would appreciate the Subcommittee's support for this essential 
amendment to Public Law 106-392.
            Sincerely,
                                          Marcus W. Catlin,
                                                           Manager.
                                 ______
                                 
             Grand Valley Water Users' Association,
                            Grand Valley Project, Colorado,
                                 Grand Junction, CO, July 16, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC. 20510.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback, I am writing to support 
passage of S.1453 that provides for continued annual funding of the 
Upper Colorado and San Juan fish recovery programs at current levels 
through fiscal year 2023. These highly successful and widely supported 
programs are recovering endangered fish species in the Upper Colorado 
River and San Juan River basins while providing compliance with the 
Endangered Species Act for more than 1,800 federal, tribal and non-
federal water projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    The Grand Valley Project, Colorado (Project) is owned by the United 
States of America, Department of Interior, Bureau of Reclamation 
(Reclamation) and is operated and maintained by the Grand Valley Water 
Users' Association (Association), a Colorado nonprofit corporation. 
Reclamation, on behalf of the Recovery Program, implemented capital 
construction structures on the Project as part of the Upper Colorado 
River endangered fish recovery program. Therefore, the Association 
supports the continued funding of annual operations of these recovery 
program structures.
    I would appreciate the Subcommittee's support for this essential 
amendment to Public Law 106-392.
            Sincerely,
                                        Richard L. Proctor,
                                                           Manager.
                                 ______
                                 
              Statement of Rep. Dave Kasten, Brockway, MT
    Please pass senate bill 637.
    As State Representative of Montana House Dist 30. The largest House 
District in Montana. I can assure you that the Dry Redwater Regional 
Water Project (5637) is needed. The project will solve many water 
quality problems in some of our schools, some that are still one room 
schools. The project will be a major energy saver replacing several 
outdated water systems. The local support for the project is 
overwhelming. The Dry Redwater project area includes A large part of 
the very productive Bakken oil fields. The Trans Candada oil line from 
Canada to Houston Texas, 50+ miles goes through the project. The Fork 
Peck Dam, recreation and Electric Generation area will be greatly 
enhanced by the project. The entire project area lays over millions of 
Tons of recoverable coal. Thank you for positive consideration for 
senate bill 637.
    Thank You.
                                 ______
                                 
                        Department of the Interior,
                                     Bureau of Reclamation,
                                     Glendale, AZ, August 17, 2006.
Subject: C.C. Cragin Dam and Reservoir

    Dear Ms. Rasure: This letter is in reference to our meeting of 
August 2, 2006, with members of your staff and staff from the Salt 
River Project (SRP). At that meeting, we discussed the options to 
document the relationship between the Bureau of Reclamation 
(Reclamation) and the Forest Service with respect to the presence, 
operation, and maintenance of the C.C. Cragin Dam and Reservoir. 
Specifically, we discussed the options of continuing with the 
development of a Special Use Permit versus development of a Project 
Supplemental Agreement under the 1987 Master Interagency Agreement 
between Reclamation and the Forest Service. Reclamation's relationship 
with the SRP is already established through a contract between the 
United States and the Salt River Valley Water Users' Association dated 
September 6, 1917, as amended. The Arizona Water Rights Settlement Act 
enacted on December 10, 2004, specifically states that this contract 
will apply to SRP's operation and maintenance of C.C. Cragin Dam and 
Reservoir.
    After careful review of the 1987 Master Interagency Agreement, and 
the existing Management Memorandum among SRP, Forest Service, and 
Reclamation dated April 27, 1979, (also known as the Tri-Party 
Agreement) for Reclamation facilities managed by SRP on the Tonto 
National Forest, we have concluded that a Project Supplemental 
Agreement under the 1987 Master Interagency Agreement is the most 
appropriate way to proceed. If you agree, I suggest we assemble a team 
to proceed with development of a Project Supplemental Agreement. This 
could take the form of a separate Agreement for C.C. Cragin or could be 
an amendment to the existing Tri-Party Agreement. We think the latter 
may be preferable, since the existing agreement is in need of amendment 
anyway, and one agreement between the Forest Service and Reclamation 
for SRP facilities seems to make sense. Please let me know your 
thoughts about proceeding with a Project Supplemental Agreement. If you 
are in agreement, we would like to proceed as expeditiously as 
possible. If you have any questions or would like to discuss this 
matter, please call me at 623-773-6210, or Mr. Peter Castaneda at 623-
773-6240.
            Sincerely,
                                          Carol Lynn Erwin,
                                                      Area Manager.
                                 ______
                                 
                        Department of the Interior,
                                     Bureau of Reclamation,
                                   Glendale, AZ, November 27, 2007.
Subject: Forest Service Authorization for the Repair of a Portion of 
the C.C. Cragin Project (Your Letter to Mr. Peter Castaneda Dated 
November 5, 2007)

    Dear Ms. Roth: Thank you for your letter dated November 5, 2007, 
indicating that the Forest Service has authorized Reclamation and the 
Salt River Project (SRP) to conduct pipeline repairs to Reclamation's 
C.C. Cragin facility. We appreciate the Forest Service's work to review 
and provide input into the repair project.
    As you are aware, we are continuing discussions among Reclamation, 
SRP, and the Forest Supervisor's Office to arrive at a consensus 
regarding the appropriate vehicle to document our relationships 
regarding the operation and maintenance of the C.C. Cragin Project. 
Your November 5 letter acknowledges that since we have not yet reached 
agreement in those discussions, you believed it was necessary to 
provide written authorization for the pipeline repairs. While we truly 
appreciate the cooperation of you and your staff, we continue to hold 
the view that Forest Service approval for SRP to conduct the repairs to 
a section of the water pipeline was not needed.
    The Arizona Water Settlements Act of 2004 (Act) provided for the 
transfer of title of the Blue Ridge Project, subsequently renamed C.C. 
Cragin Dam and Reservoir (C.C. Cragin Project), to the United States, 
acting through the Secretary of the Interior.\1\ Upon such transfer, 
the Act provided that, with minor exceptions, the United States shall 
hold title to the C.C. Cragin Project ``for the exclusive use and 
benefit of the Salt River Federal Reclamation Project'' (P.L. 108-451, 
Section 213(i)). The Act further provided that SRP is ``responsible for 
the care, operation, and maintenance'' of the C.C. Cragin Project 
pursuant to a contract between the Salt River Valley Water Users' 
Association and the United States, dated September 6, 1917. Id. As a 
consequence, we believe that no authorization by the Forest Service was 
needed for SRP to conduct this maintenance activity.
---------------------------------------------------------------------------
    \1\ The Act described the Blue Ridge Project as including ``Blue 
Ridge Dam and all pipelines, tunnels, buildings, hydroelectric 
generating facilities, and other structures of every kind, 
transmission, telephone and fiber optic lines, pumps, machinery, tools, 
and appliances'' and ``all real or personal property, appurtenant to or 
used, or constructed or otherwise acquired to be used, in connection 
with Blue Ridge Reservoir.'' P.L. 108-451, Section 213(iX1)(A).
---------------------------------------------------------------------------
    Reclamation and SRP look forward to resolving this outstanding 
issue, and we are committed to continue full and open coordination with 
the Forest Service concerning the C.C. Cragin Project.
    Please do not hesitate to contact me or Mr. Bruce Ellis at 623-773-
6250 with any questions.
            Sincerely,
                                        Peter O. Castaneda,
                                   Chief, Water and Lands Division.
                                 ______
                                 
                              APS Four Corners Power Plant,
                                      Fruitland, NM, July 16, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
SUBJECT: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback, I am writing to support 
passage of S.1453 that provides for continued annual funding of the 
Upper Colorado and San Juan fish recovery programs at current levels 
through fiscal year 2023. These highly successful and widely supported 
programs are recovering endangered fish species in the Upper Colorado 
River and San Juan River basins while providing compliance with the 
Endangered Species Act for more than 1,800 federal, tribal and non-
federal water projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    I would appreciate the Subcommittee's support for this essential 
amendment to Public Law 106-392.
            Sincerely,
                                            David L Saliba,
                                                     Plant Manager.
                                 ______
                                 
                   Central Utah Water Conservancy District,
                                           Orem, UT, July 21, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback, I am writing to support 
passage of S.1453 that provides for continued annual funding of the 
Upper Colorado and San Juan fish recovery programs at current levels 
through fiscal year 2023. These highly successful and widely supported 
programs are recovering endangered fish species in the Upper Colorado 
River and San Juan River basins while providing compliance with the 
Endangered Species Act for more than 1,800 federal, tribal and non-
federal water projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    I would appreciate the Subcommittee's support for this essential 
amendment to Public Law 106-392.
            Sincerely,
                                       Don A. Christiansen,
                                                   General Manager.
                                 ______
                                 
                                    City of Aurora,
                           Water Department Administration,
                                         Aurora, CO, July 21, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback, I am writing to support 
passage of S.1453 that provides for continued annual funding of the 
Upper Colorado and San Juan fish recovery programs at current levels 
through fiscal year 2023. These highly successful and widely supported 
programs are recovering endangered fish species in the Upper Colorado 
River and San Juan River basins while providing compliance with the 
Endangered Species Act for more than 1,800 federal, tribal and non-
federal water projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    I would appreciate the Subcommittee's support for this essential 
amendment to Public Law 106-392.
            Sincerely,
                                               Mark Pifher,
                                                          Director.
                                 ______
                                 
                                   Colorado River District,
                               Glenwood Springs, CO, July 20, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453

    Dear Chair Stabenow and Senator Brownback, The Colorado River Water 
Conservation District respectfully requests your support for S.1453. 
S.1453 provides for continued annual appropriations for the Upper 
Colorado and San Juan endangered fish recovery programs through fiscal 
year 2023. These highly successful and widely supported programs are 
recovering endangered fish species in the subject basins while 
providing compliance with the Endangered Species Act for more than 
1,800 federal, tribal and non-federal water projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing Endangered Species 
Act compliance for literally thousands of water projects and hundreds 
of thousands of water users while successfully recovering the 
endangered fish species in the basins.
    I respectfully request your and the subcommittee's support for this 
essential amendment to Public Law 106-392 and these exemplary recovery 
programs.
            Sincerely,
                                              R. Eric Kuhn,
                                                   General Manager.
                                 ______
                                 
                                Colorado Springs Utilities,
                               Colorado Springs, CO, July 23, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback, I am writing to support 
passage of 5.1453 that provides for continued annual funding of the 
Upper Colorado and San Juan fish recovery programs at current levels 
through fiscal year 2023. These highly successful and widely supported 
programs are recovering endangered fish species in the Upper Colorado 
River and San Juan River basins while providing compliance with the 
Endangered Species Act for more than 1,800 federal, tribal and non-
federal water projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    I would appreciate the Subcommittee's support for this essential 
amendment to Public Law 106-392.
            Sincerely,
                             Brett W. Gracely, P.E., D.WRE,
                                  Water Supply Planning Supervisor.
                                 ______
                                 
                                   Colorado Water Congress,
                                         Denver, CO, July 14, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback, I am writing to support 
passage of S.1453 that provides for continued annual funding of the 
Upper Colorado and San Juan fish recovery programs at current levels 
through fiscal year 2023. These highly successful and widely supported 
programs are recovering endangered fish species in the Upper Colorado 
River and San Juan River basins while providing compliance with the 
Endangered Species Act for more than 1,800 federal, tribal and non-
federal water projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    I would appreciate the Subcommittee's support for this essential 
amendment to Public Law 106-392.
            Sincerely,
                                            Douglas Kemper,
                                                Executive Director.
                                 ______
                                 
                                              Denver Water,
                                         Denver, CO, July 16, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback, On behalf of Denver 
Water and the 1.2 million customers we serve, I am writing to support 
passage of S.1453 that provides for continued annual funding of the 
Upper Colorado and San Juan fish recovery programs at current levels 
through fiscal year 2023.
    These highly successful and widely supported programs are 
recovering endangered fish species in the Upper Colorado River and San 
Juan River basins while providing compliance with the Endangered 
Species Act for more than 1,800 federal, tribal and non-federal water 
projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance for 
these water projects and to recover the endangered fish species in the 
basin.
    Denver Water would appreciate the Subcommittee's support for this 
essential amendment to Public Law 106-392.
            Sincerely,
                                                  HJ Barry,
                                                           Manager.
                                 ______
                                 
                        Dolores Water Conservancy District,
                                         Cortez, CO, July 17, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback, I am writing to support 
passage of S.1453 that provides for continued annual funding of the 
Upper Colorado and San Juan fish recovery programs at current levels 
through fiscal year 2023. These highly successful and widely supported 
programs are recovering endangered fish species in the Upper Colorado 
River and San Juan River basins while providing compliance with the 
Endangered Species Act for more than 1,800 federal, tribal and non-
federal water projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    The recovery program has played a vital role in protecting Dolores 
Project water rights and water allocations. On behalf of the Dolores 
Water Conservancy District and the water users we serve we appreciate 
the Subcommittee's support for this essential amendment to Public Law 
106-392.
            Sincerely,
                                           Michael Preston,
                                                   General Manager.
                                 ______
                                 
                              County Commissioners,
                                           Garfield County,
                                         Jordan, MT, July 30, 2009.
Hon. Jeff Bingaman,
Chairman, U.S. Senate Committee, Energy & Natural Resources, 304 
        Dirksen Office Building Washington, DC.
Re:Dry-Red Water Regional Water Authority Project

    To Whom It May Concern: On behalf of Garfield County I am sending 
this letter in support of the Dry-Red Water Regional Water Authority 
Project. The proposed project will consist of an estimate 1200 miles of 
pipeline, 38 pump stations and 20 major storage tanks to move water 
from its point of intake, Dry Arm on Fort Peck to several counties in 
Eastern Montana including Garfield County. When completed this water 
system will provide a safe and dependable water supply for over 15,000 
people. Water will be provided to all parts of 6 counties which cover 
an estimated 11,100 square mile area. To date the project has raised 
approximately $500,000.00 for feasibility studies, environmental 
investigations and administrative efforts. However the project is at a 
virtual standstill until it is authorized by the Federal Government. 
The availability and quality of water in Garfield County has always 
been an issue. We therefore urge you to consider authorization of this 
project.
            Sincerely,
                                              Jack Murnion,
                                                          Chairman.
                                 ______
                                 
                               The Jicarilla Apache Nation,
                                          Dulce, NM, July 20, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback, On behalf of the 
Jicarilla Apache Nation, I am writing to support passage of S.1453 that 
provides for continued annual funding of the Upper Colorado and San 
Juan fish recovery programs at current levels through fiscal year 2023. 
The Nation has been a voluntary participant in the highly successful 
and widely supported program to recover endangered fish species in the 
San Juan River basin since 1992 and fully supports the same effort 
underway in the Upper Colorado River. More than 1,800 federal, tribal 
and non-federal water projects are involved in the recovery efforts, 
these actions have resulted in compliance with the Endangered Species 
Act, (ESA).
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    I would appreciate the Subcommittee's support for this essential 
amendment to Public Law 106-392.
            Sincerly,
                                               Levi Pesata,
                                                         President.
                                 ______
                                 
     Statement of Kenny J. Evans, Ph.D., Mayor, Town of Payson, AZ
    First, let me thank you for the opportunity to submit written 
testimony in support of S. 1080, A Bill to clarify the jurisdiction of 
the Secretary of the Interior with respect to the C.C. Cragin Dam and 
Reservoir formerly known as Blue Ridge. My name is Kenny J. Evans, PhD. 
I am just a plain old farm boy who has had the privilege of growing up 
here in the shadow of the Rocky Mountains. I am currently the Mayor of 
the beautiful mountain community of Payson, Arizona and serve as Vice-
President of the Northern Arizona Municipal Water Users Association and 
am Past President of the Arizona Farm Bureau. Over the past 40 plus 
years I have been privileged to bring three generations of Boy Scouts 
to camp and fish at Blue Ridge Reservoir. I have a great love for Blue 
Ridge and am intimately aware of its history and management. I am also 
keenly aware of the damage that the current bureaucratic turf battle is 
causing. What S. 1080 does not do is relieve either the Bureau or SRP 
from compliance with all requirements of federal law. S. 1080 will 
simply clarify that since the Project is now being operated as a 
component of the Salt River Federal Reclamation Project (SRP), the 
Bureau of Reclamation (Bureau) is responsible for approval of all 
operation, maintenance and repair activities just like more than a 
dozen other reservoirs and dams and other federal reclamation projects 
in Arizona, including the other Salt River Project facilities located 
on lands within the boundaries of the other National Forests.
    S. 1080 concerns the C.C. Cragin Project, which is located within 
the Coconino and Tonto National Forests in northern Arizona 
approximately 25 miles north of my community. The C.C. Cragin Project 
consists of a number of facilities including a 147-foot high dam, 
15,000 acre-foot reservoir, diversion tunnel and pump shaft, pumping 
plant, priming reservoir, a 10 mile long pipeline, electrical 
transmission line, and small generating plant which supplies power to 
the Project's pumping plant. Originally known as the Blue Ridge 
Project, the dam, reservoir, and associated facilities were constructed 
by Phelps Dodge in the 1960's as part of a water exchange with SRP. In 
2005, Phelps Dodge no longer needed the Blue Ridge Project for water 
exchange and pursuant to the terms of their agreement, Phelps Dodge 
transferred ownership of all of the Blue Ridge Project facilities to 
SRP. Subsequently, the Arizona Department of Water Resources (ADWR) 
approved the transfer of the water right for the reservoir to SRP for 
municipal, irrigation and other beneficial uses within the Salt River 
Federal Reclamation Project.
    Enter the Town of Payson. Payson sits at the base of the Mogollon 
Rim, a 200 mile long escarpment that bisects Arizona and is home to the 
largest Ponderosa Forest in the country. All domestic water for the 
Town and surrounding communities comes from groundwater. Through the 
years Payson has become the most water conserving community in the 
State using less than 80 gallons of water per capita per day. However, 
severe drought and steady growth have stressed future assured water 
supplies based on groundwater alone.
    In 2004, with support from all participants, including the U.S. 
Bureau of Reclamation, language was included as part of the Gila River 
Indian Community Water Rights settlement in Section 213(i) of the 
Arizona Water Settlements Act, Public Law 108-451, 118 Stat. 3478, 
3532, authorizing title transfer of the Blue Ridge Project from SRP to 
the Bureau and renaming it C.C. Cragin. Up to 3,500 acre feet per year 
were to be made available to Payson and surrounding communities with 
the facilities operated and managed by SRP pursuant to its September 6, 
1917 contract with the Bureau of Reclamation. Subsequently, SRP 
officially transferred title to the C.C. Cragin Dam and Reservoir 
together with all of its associated facilities, including 77 acres of 
fee land to the Bureau and concluded the title transfer and agreement 
with the Town of Payson to supply up to the 3,500 acre feet it needs 
annually.
    In accordance with the 1917 contract with the Bureau and as 
directed by Section 213 (i)(5) of the Arizona Water Settlement Act, SRP 
began operating and maintaining the C.C. Cragin Project. As part of its 
maintenance efforts, SRP identified numerous serious leaks present in 
the existing pipeline needing immediate repair (see attached). Not only 
is the pipeline's integrity important to the general operation of C.C. 
Cragin Project and SRP's water supply for the Phoenix metropolitan 
area, but it also has special significance to the Town of Payson and 
neighboring communities in Northern Gila County who will rely heavily 
on the Project to supply municipal drinking water in the future. As a 
part of this effort, the Town of Payson received an allocation of $10.6 
million from the State of Arizona's American Recovery and Reinvestment 
Act (ARRA) stimulus grant money to assist in paying for the repairs to 
the pipeline and extending the pipeline and other municipal water-
related improvements needed to make the water available to residents.
    Once SRP began working with the Bureau on repairs of the C.C. 
Cragin Project, it became evident that the Bureau (U.S. Department of 
Interior [Bureau of Reclamation)]) and the Forest Service (U.S. 
Department of Agriculture [USDA--FS]) disagreed as to who had 
responsibility for approving the requested operation, maintenance and 
repair functions associated with this Reclamation Project. Please note 
that this had nothing to do with compliance with State and Federal 
rules, laws and regulations. It had everything to do with who gave the 
approval to proceed (Bureau or USDA -FS). The Forest Service asserted 
that the Bureau needed to obtain a special use permit from them prior 
to Project operation by SRP and that all maintenance and repairs needed 
prior approval by them. The Bureau and SRP maintain that under the 
terms of the Arizona Water Settlements Act, the C.C. Cragin Project is 
just like all of the other Salt River Federal Reclamation Project 
facilities located on Forest Service land. On those facilities, 
jurisdiction over approvals of work plans, maintenance, repairs, 
environmental compliance, and other permitting associated with Project 
operation and maintenance belongs to the Bureau, while jurisdiction 
over recreation, fire suppression, etc. lies with the Forest Service. 
This approach is consistent with Reclamation Projects across the 
western United States pursuant to a 1987 Memorandum of Understanding 
between the Departments of Agriculture and Interior.
    For the past four years SRP and the Bureau have unsuccessfully 
attempted to resolve this jurisdictional dispute with the Forest 
Service. The Forest Service has insisted on having ultimate approval 
authority for the Project even though these facilities are components 
of the Salt River Federal Reclamation Project. Meanwhile, the resulting 
bureaucratic wrangling over approval requirements between the two 
Departments have delayed and created uncertainty in planning much 
needed repairs to the Cragin facilities, increased repair costs, and 
placed a portion of the Town of Payson's $10.6 million stimulus grant 
at risk. The bill before you, S. 1080, clarifies the jurisdiction over 
the C.C. Cragin Project. It is consistent: (1) with the 1987 Memorandum 
of Understanding between the Departments of Agriculture and Interior; 
(2) with Section 213(i) of the Arizona Water Settlements Act, Public 
Law 108-451, 118 Stat. 3478, 3532; (3) with the September 6, 1917 
contract with the Bureau of Reclamation pursuant to the 1902 
Reclamation Act; and, (4) with the process used with the many other 
Reclamation projects located on Forest Service lands within the State 
of Arizona and throughout the west.
    With the Town of Payson's ARRA grant at risk, I sincerely ask that 
you approve S 1080 so the much needed pipeline repairs can proceed 
under the Bureau of Reclamation's oversight and in compliance with all 
applicable laws.
    Chairwoman Stabenow and Members of the subcommittee, thank you for 
the opportunity to present this written testify to you today.
                                 ______
                                 
                               State of New Mexico,
                                    Office of the Governor,
                                        Santa Fe, NM, July 22, 2009
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback: I am writing to support 
passage of S.1453 that provides for continued annual funding of the 
Upper Colorado and San Juan fish recovery programs at current levels 
through fiscal year 2023. These highly successful and widely supported 
programs are recovering endangered fish species in the Upper Colorado 
River and San Juan River basins while providing compliance with-the 
Endangered Species Act for more than 1,800 federal, tribal and non-
federal water projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    The State of New Mexico and I would appreciate the Subcommittee's 
support for this essential amendment to Public Law 106-392.
            Sincerely,
                                           Bill Richardson,
                                                          Governor.
                                 ______
                                 
                              The State of Wyoming,
                                    Office of the Governor,
                                       Cheyenne, WY, July 16, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback: I am writing to express 
my strong support for enactment of S. 1453, a bill to extend the 
authorization period for annual base funding of the Upper Colorado and 
San Juan fish recovery programs at current levels through fiscal year 
2023. Those highly successful and widely supported programs are 
recovering four species of endangered Fish in the Upper Colorado River 
and San Juan River basins while providing compliance with the 
Endangered Species Act in a manner consistent with state and tribal 
laws, interstate compacts, and Indian trust responsibilities for more 
than 1,800 federal, tribal and non-federal water projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    I will greatly appreciate the Subcommittee's support for this 
essential amendment to extend the current authority contained in Public 
Law 106-392. The State of Wyoming is grateful for the past support of 
this Subcommittee which has allowed these nationally-recognized 
endangered species programs to accomplish their important objectives.
            Best regards,
                                          Dave Freudenthal,
                                                          Governor.
                                 ______
                                 
              The Southwestern Water Conservation District,
                                        Durango, CO, July 20, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback, The Southwestern Water 
Conservation District (SWCD) was established by the Colorado 
legislature to conserve and protect the waters of the San Juan and 
Dolores Rivers and their tributaries. The San Juan River Basin Recovery 
Implementation Program (SJRBRIP) is an invaluable and successful 
program in our District.
    The SWCD Board of Directors supports the passage of S. 1453. 
Continued, consistent funding through 2023 will enable this very 
successful program to continue its work of recovering endangered fish 
species while providing compliance with the Endangered Species Act for 
more than 1,800 federal, tribal and non-federal water projects.
    We would appreciate the Subcommittee's support for this essential 
amendment to Public Law 106-392.
            Respectfully,
                                               John Porter,
                                                         President.
                                        Bruce T. Whitehead,
                                                Executive Director.
                                 ______
                                 
     Statement of R. L. Schafer, Secretary-Watermaster, Tule River 
                              Association
    The Tule River Association, representing all the water rights 
holders at and below Success Reservoir, Tule River, California, fully 
supports S. 789.
    The Tule River Association was engaged for more than 10 years, 
along with the South Tule Independent Ditch Company and riparians along 
the South Fork Tule River, with the Tule River Indian Tribe in the 
negotiation and settlement of the reserved water rights of the Tule 
River Indian Reservation. The Tule River Association accepted and 
agreed to the terms and conditions of the ``Tule River Tribe Reserved 
Water Rights Settlement Agreement Among the Tule River Indian Tribe, 
the Tule River Association and the South Tule Independent Ditch 
Company'' (Settlement Agreement) in November 2007, however, the 
Agreement has not been ratified by the Congress or the United States 
District Court for the Eastern District Court of California.
    The Settlement Agreement quantifies and allocates all of the 
residential, commercial, industrial, public, fire, livestock, mining 
and irrigated agricultural reserved water right uses for the Tule River 
Indian Reservation and would be available to your committee upon 
request.
                                 ______
                                 
                                County of Richland,
                            Office of County Commissioners,
                                       Sidney, MT, August 11, 2009.
Hon. Jeff Bingaman,
Chairman, U.S. Senate Committee on Energy and Natural Resources, 304 
        Dirksen Office Building, Washington, DC.
    Dear Senator Bingaman: On behalf of the people that live and work 
in this region on Eastern Montana, we want to support the Dry Redwater 
Water Project.
    This project is vitally important to this region if we are to 
continue to produce the agricultural products and the energy that is 
crucial to our nation.
    The lingering drought has depleted wells due to a lower water table 
and made it difficult for ranchers and farmers to have safe healthy 
water for domestic and agricultural use. Some water quality has been 
suspect in our area since this country was settled. It contains high 
amounts of minerals that are not safe or healthy for people and/or 
livestock. Water from the Dry Redwater project would be safe and 
abundant when this project comes to fruition.
    Richland County has been involved with this project from the 
beginning both financially and with board representation because we 
feel this is so important to our county and area, so we ask for support 
in making Dry Redwater Water System a reality.
            Sincerely,
                                              Mark Rehbein,
                                                          Chairman.
                                              Don Steppler.
                                            Loren H. Young.
                                 ______
                                 
                                 State of Colorado,
                                    Office of the Governor,
                                         Denver, CO, July 16, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback, I am writing to support 
passage of S. 1453 that provides for continued annual funding of the 
Upper Colorado and San Juan fish recovery programs at current levels 
through fiscal year 2023. These highly successful and widely supported 
programs are recovering four species of endangered Fish in the Upper 
Colorado River and San Juan River basins while providing compliance 
with the Endangered Species Act for more than 1,800 federal, tribal and 
non-federal water projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    I would appreciate the Subcommittee's support for this essential 
amendment to Public Law 106-392.
            Sincerely,
                                          Bill Ritter, Jr.,
                                                          Governor.
                                 ______
                                 
                                  State of Montana,
          Department of Natural Resources and Conservation,
                                         Helena, MT, July 20, 2009.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, 304 Dirksen 
        Senate Building, Washington, DC.
RE: S. 637--Dry-Redwater Regional Water Authority System Act of 2009
    Dear Chairman Bingaman: Montana's Congressional delegation, working 
with the Dry-Redwater Regional Water Authority, has introduced 
legislation in the U.S. Congress for authorization of the Dry-Red water 
Regional Water System. The proposed system is located in eastern 
Montana and western North Dakota between the Yellowstone and Missouri 
Rivers.
    The need for clean and plentiful drinking water in the Dry-Redwater 
area is great. Investigations into the quality of the drinking water 
within the area have determined that ``rural users in the proposed 
service area do not have access to a quality of water needed for a 
healthy existence.''
    In the past five years, the Dry-Redwater Regional Water authority 
has worked hard with my staff to assess and document project need, 
community support, and project feasibility. Preliminary engineering 
investigations have identified preferred alternatives for water source, 
treatment and distribution systems that are cost efficient. Information 
collected at over 20 public meetings indicates that the need for safe 
and reliable water is a high priority in the service area. I believe 
that this important project is critical to the future of eastern 
Montana.
    I would appreciate the support of your committee for 5637. The Dry-
Redwater regional water supply system will greatly improve the quality 
of life for the communities and rural users in region.
            Sincerely,
                                               Mary Sexton,
                                                          Director.
                                 ______
                                 
                                     State of Utah,
                                    Office of the Governor,
                                 Salt Lake City, UT, July 21, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback, It is my pleasure to 
join Utah's entire Congressional Delegation in support of S. 1453 and 
its companion bill in the House of Representatives, H.R. 2288. 
Enactment of this bill will provide for the continued annual funding of 
the Upper Colorado and San Juan fish recovery programs at current 
levels through fiscal year 2023. These highly successful and widely 
supported programs are recovering endangered fish species in the Upper 
Colorado River and San Juan basins while providing compliance with the 
Endangered Species Act for more than 1,800 federal, tribal and non-
federal water projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the current authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    Therefore, I respectfully request the Subcommittee's support for 
this essential amendment to Public Law 106-392. Thank you for your 
attention to this very important matter.
            Sincerely,
                                      Jon M. Huntsman, Jr.,
                                                          Governor.
                                 ______
                                 
                              McCone Electric Co-Op., Inc.,
                                      Circle, MT, December 6, 2007.
Dry-Redwater Rural Water Authority,
PO Box 276, Circle, MT.
Subject: Letter of Support

    To: Board of Directors: DRWA The purpose of this letter is to 
formally declare the support of the Board of Directors and Management 
of McCone Electric Co-op., Inc. for the Dry-Redwater rural water system 
project. The stated purpose of the DRWA is to ``own and operate a water 
system that will provide good quality and quantity household and 
livestock water to the owners and members in the coverage area.''
    This noble vision certainly parallels the vision of those people in 
the early 1940s who clearly saw the benefits of bringing central 
station power to rural America. Few can dispute that accomplishment 
forever changed the face of our rural heritage. Out of that vision we 
became McCone Electric Co-op., Inc.; a member-owned power distribution 
cooperative that has helped its members grow by leaps and bounds in 
what is still the somewhat modern age of electricity and certainly stay 
in tune with the ever-evolving world of technology. The DRWA vision of 
bringing quality water to that same rural area holds the same promise 
of fulfilling a need that grows every year.
    We therefore pledge our support to a project we deem vital to our 
respective service areas.
            Best regards,
                                              Mike C. Kays,
                                                   General Manager.
                                 ______
                                 
                Montana Electric Cooperatives' Association,
                                 Great Falls, MT, October 12, 2007.
Mr. Mike McKeever,
Chairman, Dry-Redwater Regional Water Authority, P.O. Box 276, Circle, 
        MT.
    Dear Mr. McKeever: On behalf of Montana Electric Cooperatives' 
Association, I am writing to formally inform you of our statewide 
association's position on the proposed federal legislation authorizing 
construction of the Dry-Redwater Regional Water Authority System.
    Our association board of directors voted at its meeting on October 
2, 2007 to support federal allocation of federal preference power for 
the Dry-Redwater project from the point of water intake out of the Fort 
Peck Reservoir up to and including preference power for pumping water 
to the water treatment plant and for operation of the treatment plant.
    I trust this position is helpful in your efforts to develop the 
Dry-Redwater system. We recognize the significant benefits of this 
proposed project to the people of rural eastern Montana.
    Should you have any questions regarding this matter, please don't 
hesitate to contact me here at (406) 268-1211 or, via electronic mail. 
My e-mail address is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="11657e7c51727c7461723f7e6376">[email&#160;protected]</a>
            Sincerely,
                                               Tom Huntley,
                                                          Chairman.
                                 ______
                                 
                            Department of the Army,
                                        Corps of Engineers,
                                    Fort Peck, MT, August 30, 2006.
Dry-Redwater Regional Water Authority,
Todd Kasten, Treasurer, PO Box 520 Circle, MT.
    Mr. Kasten: I am writing to inform the Board of Directors that the 
US Army Corps of Engineers, Fort Peck Project, is interested in the 
availability of water from the proposed Dry-Redwater Regional Water 
Authority System. Access to potable water is critical to further 
enhancements and improvement of recreational facilities along the Big 
Dry Arm of Fort Peck Lake.
    Specifically, development at the Rock Creek Recreation Area 
including the existing fish cleaning station and possible future 
campground, RV Dump-station, and expansion of the Marina Facilities 
depend on a reliable water source. Though we can not make a commitment 
to the project at this time, the Corps certainly recognizes the 
benefits presented by the development of this proposed system.
    In addition, the Corps of Engineers reserves the right to review 
and approve all design and construction plans that may occur on or 
across Fort Peck Project. Please ensure that the Fort Peck Project 
Office receives copies of all design or construction plans that may 
impact Corps lands.
            Sincerely,
                                           John E. Daggett,
                                        Operations Project Manager.
                                 ______
                                 
                            Department of the Army,
                                        Corps of Engineers,
                                   Fort Peck, MT, October 25, 2006.
Mr. Brian Milne,
Interstate Engineering, Inc., PO Box 648, Sidney, MT.
    Dear Mr. Milne, This letter is in response to your request to 
utilize areas along the Big Dry Arm of Fort Peck Lake as potential 
water intake sites for the Dry Redwater Regional Water Authority 
(DRWA). The minimum operating pool for Fort Peck Lake is elevation 2160 
msl. We would strongly recommend designing your intakes to be 
functional with this lake level. Based on existing access and 
development, the Rock Creek Recreation Area probably offers the least 
impacts environmentally and puts the intake closer to potential 
customers within the Rock Creek Cabin Area. This office has reviewed 
1934 topographic maps for Fort Peck Project which do not show impacts 
due to siltation. Topography of the lake in this area may have 
sufficient depth to meet water intake operational needs at the 2160 msl 
elevation. However, elevations within this or any proposed intake site 
of Fort Peck Lake need to beconfirmed by the water project designers 
against intake operational needs.
    Other proposed intake sites north of Rock Creek may also be options 
so long as the intake is constructed out into the Big Dry Creek 
channel. 1934 topo maps indicate the mouth of Sand Arroyo and Spring 
Creeks are at approximate elevation 2160. The mouth of Bear Creek Bay 
offers adequate depths, however, access to this site is extremely poor 
and management of Bear Creek Recreation Area is being turned over to 
the US Fish and Wildlife Service. Any proposed intake site other than 
Rock Creek could involve greater environmental review and scrutiny as a 
result of potential impacts to these primitive areas. Additionally, 
review of the 1934 topo maps indicate any proposed intake location 
south of Rock Creek does not appear feasible as there is insufficient 
depth to maintain intake operations at the minimum operating lake 
elevation of 2160.
    Please be aware that you will also have to cross the Charles M. 
Russell National Wildlife Refuge (CMR) to use any of the proposed sites 
along Fort Peck Reservoir. Any proposed DRWA project work crossing CMR 
will have to be coordinated with refuge staff in Lewistown, Montana. 
CMR Refuge manger is Barron Crawford who may be contacted at 406/538-
8706, Ext. 221 or CMR Refuge, PO Box 110 Airport Road, Lewistown, 
Montana 59457. Though we are not endorsing any one proposed intake site 
from an engineering prospective, the Corps of Engineers reserves the 
right to review and approve all design and construction plans that may 
occur on or across Fort Peck Project. Please ensure that the Fort Peck 
Project Office and CMR receive copies of all design or construction 
plans that may impact Corps and Refuge lands.
    If you have further questions or would like to meet and discuss 
these options i more detail, please contact John Daggett or Darin 
McMurry at 406/526-3411.
            Sincerely,
                                           John E. Daggett,
                                        Operations Project Manager.
                                 ______
                                 
                            Department of the Army,
                                        Corps of Engineers,
                                         Omaha, NE, April 29, 2009.
Mr. Mike McKeever,
Chairman, Dry-Redwater Regional Water Authority, Box 276, Circle, MT.
    Dear Mr. McKeever: This is in response to your March 19, 2009 
letter requesting a written statement from the Corps allowing the Dry-
Redwater Regional Water Authority (DRWA) to pump water from Fort Peck 
Lake. That letter was addressed to Mr. John Daggett, Operations Project 
Manager for the Fort Peck Lake Project. Mr. Daggett has forwarded that 
letter to us for response. The letter seeks to obtain the approval of 
the United States Army Corps of Engineers for the project.
    There is no objection to your proposed project to withdraw up to 
4,000 acre-feet of water annually from the Fort Peck Lake, provided the 
project is approved by the Montana Department of Natural Resources and 
Conservation (DNRC). The proposed project is one recognized as an 
authorized purpose under the provisions of the Flood Control Act of 
1944 (Public Law 78-534; 58 Stat. 887), which requires Department of 
the Army approval to withdraw water stored in an United States Army 
Corps of Engineers reservoir and to enter into an agreement for this 
purpose. Furthermore, upon approval by the Montana DNRC and your 
obtaining any required State Water Permit, you will need to enter into 
a formal storage agreement with the Corps at that time. This storage 
agreement will require a payment to the United States in accordance 
with the provisions of Section 6 of the Flood Control Act of 1944. This 
fee historically has been a reasonable amoun for consumptive uses. Your 
request to enter into a formal storage agreement should be accompanied 
by detailed plans and the projected site location for the project. At a 
minimum, you will be required to obtain a Regulatory Permit pursuant to 
Section 404 of the Clean Water Act and an easement for the right-of-way 
across Federal Government lands.
    If you have any additional questions, please contact me or Mr. John 
Daggett at (406) 526-3411.
            Sincerely,
                                         Kathryn M. Schenk,
                                        Chief, Operations Division.
                                 ______
                                 
                        Department of the Interior,
                                 Fish and Wildlife Service,
                                     Lewistown, MT, April 23, 2007.
Mr. Brian Milne,
Interstate Engineering, Inc., PO Box 648, Sidney, MT.
    Dear Mr. Milne, Thanks for the opportunity to comment on the 
proposed location of the intake structure and pipeline for the Dry 
Redwater Regional Water Authority. The proposed location, according to 
the map supplied in your letter dated March 14, 2007, is acceptable to 
the U. S. Fish and Wildlife Service (FWS), Charles M. Russell NWR 
staff. As stated during the conference call and in our letter dated 
November 14, 2007, the FWS will need to issue a Right of Way for all 
improvements that cross the Charles M. Russell NWR. Before a Right of 
Way can be issued the FWS will need to conduct a Compatibility 
Determination to ensure that this project is compatible with the 
mission of the FWS and the purpose of the refuge. We look forward to 
receiving the necessary information to proceed with developing the 
Compatibility Determination and processing your request for a Right of 
Way.
    Again I want to thank you and the Board members for working closely 
with us on determining the best possible location for the pipeline and 
intake structure. I look forward to working with your staff on 
developing the necessary environmental documents to ensure this project 
will not impact any resources of the refuge. By working cooperatively I 
believe we can mitigate any potential impacts to refuge resources.
    Please feel free to contact me at 406-538-8706 ext. 221 if you have 
any questions or would like to schedule another meeting to discuss this 
project. I look forward to hearing from you in the near future.
            Sincerely,
                                           Barron Crawford,
                                                    Refuge Manager.
                                 ______
                                 
                                 Wyoming Water Association,
                                       Cheyenne, WY, July 15, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback: The Wyoming Water 
Association supports the passage of S.1453, a bill that will, when 
enacted, amend the current authorizations in federal law for the Upper 
Colorado and San Juan River Endangered Fish Recovery Implementation 
Programs. Founded in 1933, the objectives of the state-wide Wyoming 
Water Association are to promote the development, conservation, and 
utilization of the water resources of Wyoming for the benefit of 
Wyoming people. The Wyoming Water Association annually adopts 
resolutions supporting the ongoing conduct of the Upper Colorado 
Recovery Program. The Wyoming Water Association has been a 
participating entity within the Upper Colorado Recovery Program since 
the Upper Colorado Recovery Program was initiated in January 1988. We 
are directly represented on the Upper Colorado Recovery Program's 
Biology, Management and Implementation Committees by Mr. Tom Pitts, of 
Water Consult, Inc. of Loveland, Colorado.
    We join our Program partners, including the States of Colorado, New 
Mexico, Utah, and Wyoming; and hydroelectric power and environmental 
community interests in requesting that your Subcommittee favorably mark 
and approve S. 1453 expeditiously after the upcoming July 23rd hearing 
on this legislation.
    The Upper Colorado and San Juan recovery programs are recovering 
endangered fish species in a manner that is compatible with state 
wildlife and water law. The programs provide ESA compliance for more 
than 1,800 water projects, including federal Reclamation projects and 
tribal projects in the Upper Colorado River and San Juan River basins. 
The Programs' have constructed approximately $100 million in facilities 
(fish passages, fish screens, flooded bottomlands habitat, hatcheries, 
and a reservoir that augments flows) that are directly benefitting the 
endangered fish and their habitat. Unless reauthorized by Congress at 
current levels, the use of CRSP power revenues for annual base funding 
of recovery program actions will decrease by 39% after fiscal year 
2011. Critical activities would be eliminated from both recovery 
programs. This would delay and likely prevent attainment of recovery 
goals and would set back the recovery programs' restoring of self-
sustaining populations of the endangered fishes--which is the means by 
which recovery of the species will be achieved.
    The members of the Wyoming Water Association again request and will 
greatly appreciate your continued support of these two vital programs 
through approval of S.1453.
            Sincerely yours,
                                            Ron Cunningham,
                                                         President.
                                 ______
                                 
                     Tri-County Water Conservancy District,
                                       Montrose, CO, July 15, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback: The Tri-County Water 
Conservancy District Board is asking you to support passage of S.1453 
that provides for continued annual funding of the Upper Colorado and 
San Juan fish recovery programs at current levels through fiscal year 
2023. These highly successful and widely supported programs are 
recovering endangered fish species in the Upper Colorado River and San 
Juan River basins while providing compliance with the Endangered 
Species Act for more than 1,800 federal, tribal and non-federal water 
projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    The District would appreciate the Subcommittee's support for this 
essential amendment to Public Law 106-392.
            Sincerely,
                                                Mike Berry,
                                                   General Manager.
                                 ______
                                 
              Northern Colorado Water Conservancy District,
                                       Berthoud, CO, July 17, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback: I am writing to support 
passage of S.1453 that provides for continued annual funding of the 
Upper Colorado and San Juan fish recovery programs at current levels 
through fiscal year 2023. These highly successful and widely supported 
programs are recovering endangered fish species in the Upper Colorado 
River and San Juan River basins while providing compliance with the 
Endangered Species Act for more than 1,800 federal, tribal and non-
federal water projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    I would appreciate the Subcommittee's support for this essential 
amendment to Public Law 106-392.
            Sincerely,
                                         Eric W. Wilkinson,
                                                   General Manager.
                                 ______
                                 
                              Utah Water Users Association,
                                         Murray, UT, July 14, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback, I am writing to support 
passage of S.1453 that provides for continued annual funding of the 
Upper Colorado and San Juan fish recovery programs at current levels 
through fiscal year 2023. These highly successful and widely supported 
programs are recovering endangered fish species in the Upper Colorado 
River and San Juan River basins while providing compliance with the 
Endangered Species Act for more than 1,800 federal, tribal and non-
federal water projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    I would appreciate the Subcommittee's support for this essential 
amendment to Public Law 106-392.
            Sincerely,
                                              Carly Burton,
                                                Executive Director.
                                 ______
                                 
                         Southern Ute Indian Tribe,
                                    Office of the Chairman,
                                         Ignacio, CO, July 20, 2009
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback, I am writing to support 
passage of S.1453 that provides for continued annual funding of the 
Upper Colorado and San Juan fish recovery programs at current levels 
through fiscal year 2023. These highly successful and widely supported 
programs are recovering endangered fish species in the Upper Colorado 
River and San Juan River basins while providing compliance with the 
Endangered Species Act for more than 1,800 federal, tribal and non-
federal water projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    I would appreciate the Subcommittee's support for this essential 
amendment to Public Law 106-392.
            Sincerely,
Matthew J. Box,
                                                          Chairman.
                                 ______
                                 
                                  State of Montana,
                                    Office of the Governor,
                                         Helena, MT, July 16, 2009.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, 304 Dirksen 
        Senate Building, Washington, DC.
RE: S. 637--Dry-Redwater Regional Water Authority System Act of 2009

    Dear Chairman Bingaman: Montana's Congressional delegation, working 
with the Dry-Redwater Regional Water Authority, has introduced 
legislation in the U.S. Congress for authorization of the Dry-Redwater 
Regional Water System. Development of this rural water project will 
bring a safe, ample supply of drinking water to approximately 15,000 
people living in eastern Montana and North Dakota on the divide between 
the Missouri and Yellowstone River watersheds.
    The State of Montana has supported the planning and administration 
of this regional water project with appropriations of over $350,000 to 
date. For the current biennium, the 2009 Montana Legislature 
appropriated funding of up to $15 million for the state's portion of 
the non-federal cost share for construction of regional water systems. 
The Dry-Redwater system would be eligible to apply for a portion of 
those funds once the project is authorized by Congress.
    Drinking water resources in the proposed service area are both 
inadequate and of poor quality. Providing safe and sufficient water 
supplies to this area of Montana will protect human health and spur 
economic activity in the region. The proposed regional water system is 
critical to the future of eastern Montana.
    As a Senator from a western state, I know you appreciate the 
importance of good, safe water to rural communities. Your committee's 
support is critical for the success of this project and the long-term 
viability of the northeastern Montana economy. I would appreciate the 
support of your committee for S. 637, the legislation to authorize this 
vital project.
            Sincerely,
                                          Brian Schweitzer,
                                                          Governor.
                                 ______
                                 
                                 San Juan Water Commission,
                                     Farmington, NM, July 15, 2009.
Hon. Debbie Stabenow,
Chair,
Hon. Sam Brownback,
Ranking Member, Subcommittee on Water and Power, Senate Energy and 
        Natural Resources Committee, 304 Dirksen Senate Building, 
        Washington, DC.
Subject: Support for S. 1453--An Amendment to P.L. 106-392 Re: 
Continuation of Annual Base Funding for the Upper Colorado River and 
San Juan River Endangered Fish Recovery Programs

    Dear Chair Stabenow and Senator Brownback, I am writing to support 
passage of S.1453 that provides for continued annual funding of the 
Upper Colorado and San Juan fish recovery programs at current levels 
through fiscal year 2023. These highly successful and widely supported 
programs are recovering endangered fish species in the Upper Colorado 
River and San Juan River basins while providing compliance with the 
Endangered Species Act for more than 1,800 federal, tribal and non-
federal water projects.
    Continuation of annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential for the programs to provide continuing ESA compliance and 
to recover the endangered fish species in the basin.
    I would appreciate the Subcommittee's support for this essential 
amendment to Public Law 106-392.
            Sincerely,
                                               Mark Duncan,
                                                          Chairman.
                                 ______
                                 
Statement of Taylor Hawes, Colorado River Program Director, The Nature 
Conservancy, and Bart Miller, Water Program Director, Western Resource 
                               Advocates
    The Nature Conservancy is an active participant in both the Upper 
Colorado River Basin and San Juan River endangered fish recovery 
programs. Western Resource Advocates is an active participant in the 
Upper Colorado River Basin program.
    We are writing to support passage of S. 1453 and its extension of 
the annual base funding for both the Upper Colorado and San Juan 
recovery programs through fiscal year 2023. These highly successful and 
widely supported programs are recovering endangered fish species in 
these river basins while providing Endangered Species Act compliance 
for water development under state water law and interstate compacts. 
Continuation of the annual base funding from Colorado River Storage 
Project hydroelectric power revenues at the currently authorized levels 
is essential to these effective and proven programs.
    We would greatly appreciate the Subcommittee's adoption of this 
important amendment to Public Law 106-392.

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
